No. 19-963

In the Supreme Court of the United States
HENRY SCHEIN, INC., PETITIONER
v.
ARCHER AND WHITE SALES, INC.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

JOINT APPENDIX
(REDACTED FOR PUBLIC FILING)

KANNON K. SHANMUGAM
Paul, Weiss, Rifkind,
Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
Counsel of Record
for Petitioner

LEWIS T. LECLAIR
McKool Smith, P.C.
300 Crescent Court,
Suite 1500
Dallas, TX 75201
(214) 978-4984
lleclair@mckoolsmith.com
Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: JANUARY 31, 2020
CERTIORARI GRANTED: JUNE 15, 2020

TABLE OF CONTENTS
Page
Court of appeals docket entries .............................................. 1
District court docket entries .................................................. 16
Second amended complaint,
Oct. 30, 2017 (D. Ct. Dkt. 261) .......................................... 31
Pelton & Crane dealer agreement,
Oct. 4, 2007 (D. Ct. Dkt. 10-A) ....................................... 105
American Arbitration Association, Commercial
Arbitration Rules and Mediation Procedures,
June 1, 2009 (D. Ct. Dkt. 10-B) ...................................... 117

(I)

II
The following opinions, decisions, judgments, and orders
have been omitted in printing the joint appendix because they
appear as appendices to the petition for certiorari as follows:
Appendix A:

Court of appeals opinion,
Aug. 14, 2019

Appendix B:

District court memorandum opinion
and order, Dec. 7, 2016

Appendix C:

Magistrate judge memorandum order,
May 28, 2013

Appendix D:

Court of appeals order,
Dec. 6, 2019

UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 16-41674
ARCHER AND WHITE SALES, INCORPORATED,
Plaintiff-Appellee,
v.
HENRY SCHEIN, INCORPORATED, ET AL.,
Defendants-Appellants

DOCKET ENTRIES
DATE

PROCEEDINGS

12/14/2016

PRIVATE CIVIL FEDERAL
CASE docketed. NOA filed by
Appellants Danaher Corporation,
Dental Equipment L.L.C., Dental
Imaging Technologies, Corporation, Instrumentarium Dental Incorporation and KaVo Dental
Technologies, L.L.C. [16-41674]
(LCA)
*****

02/10/2017

ELECTRONIC RECORD ON
APPEAL FILED. Exhibits on
File in District Court? No. Electronic ROA deadline satisfied.
[16-41674] (MRB)

(1)

2
*****
03/17/2017

APPELLANT’S BRIEF FILED
# of Copies Provided: 0 A/Pet's
Brief deadline satisfied. Paper
Copies of Brief due on 03/27/2017
for Appellants Danaher Corporation, Dental Equipment, L.L.C.,
Dental Imaging Technologies,
Corporation, Henry Schein, Incorporated,
Instrumentarium
Dental, Incorporation and KaVo
Dental Technologies, L.L.C. [1641674] REVIEWED AND/OR
EDITED - The original text prior
to review appeared as follows:
APPELLANT’S BRIEF FILED
by Danaher Corporation, Dental
Equipment, L.L.C., Dental Imaging Technologies, Corporation,
Instrumentarium Dental, Incorporation and KaVo Dental Technologies, L.L.C. and by Henry
Schein, Inc. Date of service:
03/17/2017 via email - Attorney
for Appellants: Chuk, Fontecilla,
Kruse, Ondeck, Pitt, Schuster,
Timms; Attorney for Appellees:
Brumbaugh, Pope [16-41674]
(Jonathan Bradley Pitt )

03/17/2017

RECORD EXCERPTS FILED.
# of Copies Provided: 0 Paper
Copies of Record Excerpts due on
03/27/2017 for Appellants Dana-

3
her Corporation, Dental Equipment, L.L.C., Dental Imaging
Technologies,
Corporation,
Henry Schein, Incorporated, Instrumentarium Dental, Incorporation and KaVo Dental Technologies, L.L.C. [16-41674] REVIEWED AND/OR EDITED The original text prior to review
appeared as follows: RECORD
EXCERPTS FILED by Appellants Danaher Corporation, Dental Equipment, L.L.C.,Dental Imaging Technologies, Corporation,
Instrumentarium Dental, Incorporation and KaVo Dental Technologies, L.L.C. and by Henry
Schein, Inc. Date of service:
03/17/2017 via email - Attorney
for Appellants: Chuk, Fontecilla,
Kruse, Ondeck, Pitt, Schuster,
Timms; Attorney for Appellees:
Brumbaugh, Pope [16-41674]
(Jonathan Bradley Pitt )
*****
04/11/2017

APPELLEE’S BRIEF FILED
# of Copies Provided: 0 E/Res’s
Brief deadline satisfied. Paper
Copies of Brief due on 04/17/2017
for Appellee Archer and White
Sales, Incorporated. [16-41674]
REVIEWED AND/OR EDITED
- The original text prior to review

4
appeared as follows: APPELLEE’S BRIEF FILED by
Archer and White Sales, Incorporated. Date of service: 04/11/2017
via email - Attorney for Appellants: Chuk, Fontecilla, Govett,
Kruse, Montgomery, Ondeck,
Pitt, Schuster, Timms; Attorney
for Appellees: Brumbaugh, Pope
[16-41674] (Kay Lynn Brumbaugh )
*****
04/21/2017

APPELLANT’S
REPLY
BRIEF FILED # of Copies Provided: 0
Reply Brief deadline satisfied.
Paper Copies of Brief due on
05/01/2017 for Appellants Danaher Corporation, Dental Equipment, L.L.C., Dental Imaging
Technologies,
Corporation,
Henry Schein, Incorporated, Instrumentarium Dental, Incorporation and KaVo Dental Technologies, L.L.C. [16-41674]
REVIEWED AND/OR EDITED
- The original text prior to review
appeared as follows: APPELLANT’S
REPLY
BRIEF
FILED by Danaher Corporation,
Dental Equipment, L.L.C., Dental Imaging Technologies, Corporation, Instrumentarium Dental,
Incorporation and KaVo Dental

5
Technologies, L.L.C. and Henry
Schein, Inc. Date of service:
04/21/2017 via email - Attorney
for Appellants: Chuk, Fontecilla,
Govett, Kruse, Montgomery,
Ondeck, Pitt, Schuster, Timms;
Attorney for Appellees: Brumbaugh, Pope [16-41674]
(Liam James Montgomery)
*****
06/07/2017

ORAL ARGUMENT HEARD
before Judges Higginbotham,
Graves, Higginson. Arguing Person Information Updated for:
Lewis T. LeClair arguing for Appellee Incorporated Archer and
White Sales; Arguing Person Information Updated for: Jonathan
Bradley Pitt arguing for Appellant Danaher Corporation, Appellant L.L.C. Dental Equipment,
Appellant Corporation Dental
Imaging Technologies, Appellant
Incorporation Instrumentarium
Dental AND Appellant Kavo
Dental Technologies, L.L.C., Appellant Henry Schein, Incorporated [16-41674] (KMP)
*****

12/21/2017

PUBLISHED
OPINION
FILED. [16-41674 Affirmed]
Judge: PEH, Judge: JEG, Judge:
SAH. Mandate issue date is

6
01/12/2018 [16-41674] (This opinion includes URL material that is
archived by the Fifth Circuit
Court of Appeals Library, and
made
available
at
http://www.lb5.uscourts.gov/ArchivedURLS/.) (JMA)
12/21/2017

JUDGMENT ENTERED AND
FILED. [16-41674] (JMA)
*****

01/12/2018

MANDATE ISSUED. Mandate
issue date satisfied. [16-41674]
(CAG)
*****

02/12/2019

SUPREME COURT JUDGMENT filed on 02/11/2019 remanding case to the 5th Circuit
[16-41674]--[Edited 02/12/2019 by
CAS] (CAS)

02/12/2019

OPPOSED MOTION filed by Appellants Danaher Corporation,
Dental Equipment, L.L.C., Dental Imaging Technologies, Corporation, Instrumentarium Dental,
Incorporation and KaVo Dental
Technologies, L.L.C. to file supplemental briefs [8982794-2]Supplemental Briefs Included? No.
Date of service: 02/12/2019 via
email - Attorney for Appellants:
Chuk, Fontecilla, Govett, Kruse,
Montgomery,
Ondeck,
Pitt,
Schuster, Timms; Attorney for

7
Appellee: LeClair [16-41674]
(Liam James Montgomery)
02/13/2019

COURT DIRECTIVE ISSUED
requesting supplemental briefing
addressing the Supreme Court’s
remand. [8983701-2] A/Pet Supplemental Brief due on 02/25/2019
for Appellants Danaher Corporation, Dental Equipment, L.L.C.,
Dental Imaging Technologies,
Corporation, Henry Schein, Incorporated,
Instrumentarium
Dental, Incorporation and KaVo
Dental Technologies, L.L.C.
E/Res Supplemental Brief due on
02/25/2019 for Appellee Archer
and White Sales, Incorporated.
[16-41674] (CAS)
*****

02/25/2019

APPELLANT’S
SUPPLEMENTAL BRIEF FILED by
Henry Schein, Incorporated. # of
Copies Provided: A/Pet’s Supplemental Brief deadline satisfied.
Paper Copies of Brief due on
03/04/2019 for Appellants Danaher Corporation, Dental Equipment, L.L.C., Dental Imaging
Technologies, Corporation, Henry Schein, Incorporated, Instrumentarium Dental, Incorporation
and KaVo Dental Technologies,
L.L.C. [16-41674]

8
REVIEWED AND/OR EDITED
- The original text prior to review
appeared as follows: APPELLANT’S
SUPPLEMENTAL
BRIEF FILED by Danaher Corporation, Dental Equipment,
L.L.C., Dental Imaging Technologies, Corporation, Instrumentarium Dental, Incorporation and
Dental
Technologies,
KaVo
L.L.C. Date of service: 02/25/2019
via email - Attorney for Appellants: Chuk, Fontecilla, Govett,
Kruse, Montgomery, Ondeck,
Pitt, Schuster, Timms; Attorney
for Appellee: LeClair [16-41674]
(Jonathan Bradley Pitt)
02/25/2019

SUFFICIENT APPELLEE’S
SUPPLEMENTAL
BRIEF
FILED # of Copies Provided: 0
Sufficient Brief deadline satisfied.
Paper Copies of Brief due on
03/04/2019 for Appellee Archer
and White Sales, Incorporated.
[16-41674]
REVIEWED AND/OR EDITED
- The original text prior to review
appeared as follows: APPELLEE’S
SUPPLEMENTAL
BRIEF FILED Brief NOT Sufficient as it requires Attorney name
and address on cover. Instructions to Attorney: PLEASE
READ THE ATTACHED NOTICE FOR INSTRUCTIONS

9
ON HOW TO REMEDY THE
DEFAULT. # of Copies Provided: 0 E/Res’s Supplemental
Brief deadline satisfied. Sufficient
Brief due on 03/06/2019 for Appellee Archer and White Sales, Incorporated.
[16-41674]
REVIEWED AND/OR EDITED The original text prior to review
appeared as follows: APPELLEE’S
SUPPLEMENTAL
BRIEF FILED by Archer and
White Sales, Incorporated Date
of service: 02/25/2019 via email Attorney for Appellants: Chuk,
Fontecilla, Govett, Kruse, Montgomery, Ondeck, Pitt, Schuster,
Timms; Attorney for Appellee:
LeClair [16-41674] (Lewis T. LeClair)
*****
04/29/2019

SUPPLEMENTAL AUTHORITIES (FRAP 28j) FILED by Appellants Danaher Corporation,
Dental Equipment, L.L.C., Dental Imaging Technologies, Corporation, Instrumentarium Dental,
Incorporation and KaVo Dental
Technologies, L.L.C. Date of Service: 04/29/2019 via email - Attorney for Appellants: Chuk, Fontecilla, Govett, Kruse, McCloud,
Montgomery,
Ondeck,
Pitt,

10
Schuster, Timms, Van Kirk; Attorney for Appellee: LeClair [1641674] (Charles McCloud )
*****
04/29/2019

SUPPLEMENTAL AUTHORITIES (FRAP 28j) FILED by Appellee Archer and White Sales,
Incorporated Date of Service:
04/29/2019 via email - Attorney
for Appellants: Chuk, Fontecilla,
Govett, Kruse, McCloud, Montgomery, Ondeck, Pitt, Schuster,
Timms, Van Kirk; Attorney for
Appellee: LeClair [16-41674]
(Lewis T. LeClair )

05/01/2019

ORAL ARGUMENT HEARD
before Judges Higginbotham,
Graves, Higginson. Arguing Person Information Updated for:
Lewis T. LeClair arguing for Appellee Incorporated Archer and
White Sales; Arguing Person Information Updated for: Charles
McCloud arguing for Appellant
Henry Schein, Appellant Danaher
Corporation,
Appellant
L.L.C. Dental Equipment, Appellant Corporation Dental Imaging
Technologies, Appellant Incorporation Instrumentarium Dental
AND Appellant Kavo Dental
Technologies, L.L.C. [16-41674]
(KMP)

11
08/14/2019

PUBLISHED OPINION FILED.
[16-41674 Affirmed ] Judge:
PEH, Judge: JEG, Judge: SAH.
Mandate issue date is 09/05/2019
[16-41674]
(This opinion includes URL material that is archived by the Fifth
Circuit Court of Appeals Library,
and made available at http://www.
lb5.uscourts.gov/ArchivedURLS/)
(NFD)

08/14/2019

JUDGMENT ENTERED AND
FILED. Costs Taxed Against:
Each party to bear its own costs
on appeal. [16-41674] (NFD)
*****

08/28/2019

PETITION filed by Appellant
Henry Schein, Incorporated for
rehearing en banc [9132438-2]
Number of Copies:0. Mandate issue date canceled. Paper Copies
of Rehearing due on 09/03/2019
for Appellants Danaher Corporation, Dental Equipment, L.L.C.,
Dental Imaging Technologies,
Corporation, Henry Schein, Incorporated, Instrumentarium Dental, Incorporation and KaVo Dental Technologies, L.L.C. Date of
Service: 08/28/2019 [16-41674]
REVIEWED AND/OR EDITED
- The original text prior to review
appeared as follows: PETITION

12
filed by Appellants Danaher Corporation, Dental Equipment,
L.L.C., Dental Imaging Technologies, Corporation, Instrumentarium Dental, Incorporation and
KaVo
Dental
Technologies,
L.L.C. for rehearing en banc
[9132438-2]. Date of Service:
08/28/2019 via email - Attorney
for Appellants: Chuk, Govett,
Kruse, McCloud, Montgomery,
Ondeck, Pitt, Schuster, Timms,
Van Kirk; Attorney for Appellee:
LeClair [16-41674]
(Charles
McCloud )
*****
09/16/2019

COURT DIRECTIVE ISSUED
requesting a response to the Petition for rehearing en banc filed by
Appellants Danaher Corporation,
Instrumentarium Dental, Incorporation, Dental Equipment,
L.L.C., KaVo Dental Technologies, L.L.C., Dental Imaging
Technologies, Corporation and
Henry Schein, Incorporated in
16-41674 [9132438-2] Response/
Opposition due on 09/26/2019. [1641674] (CAS)

09/26/2019

RESPONSE/OPPOSITION [9154048-1] to the Petition for rehearing en banc filed by Appellants Danaher Corporation, In-

13
strumentarium Dental, Incorporation, Dental Equipment, L.L.C.,
KaVo Dental Technologies, L.L.C.,
Dental Imaging Technologies,
Corporation and Henry Schein,
Incorporated in 16-41674 [9132438-2] Date of Service: 09/26/2019.
[16-41674]
REVIEWED AND/OR EDITED
- The original text prior to review
appeared as follows:
RESPONSE/OPPOSITION filed
by Archer and White Sales, Incorporated [9154048-1] to the Petition filed by Appellants Danaher
Corporation, Dental Equipment,
L.L.C., Dental Imaging Technologies, Corporation, Instrumentarium Dental, Incorporation,
KaVo
Dental
Technologies,
L.L.C. and Henry Schein, Incorporated [9132438-2] Date of Service: 09/26/2019 via email - Attorney for Appellants: Chuk, Govett,
Harris, Kruse, McCloud, Montgomery, Ondeck, Pitt, Schuster,
Timms, Van Kirk; Attorney for
Appellee: LeClair. [16-41674]
(Lewis T. LeClair )
*****
12/04/2019

LETTER filed by Appellant
Henry Schein, Incorporated Notify Court of case status. Date of

14
Service: 12/04/2019 via email - Attorney for Appellants: Chuk,
Govett, Harris, Kruse, McCloud,
Montgomery, Ondeck, Pitt, Schuster, Timms, Van Kirk; Attorney
for Appellee: LeClair [16-41674]
(Paul Featherstone Schuster )
12/06/2019

COURT ORDER denying Petition for rehearing en banc filed by
Appellants Danaher Corporation,
Instrumentarium Dental, Incorporation, Dental Equipment,
L.L.C., KaVo Dental Technologies, L.L.C., Dental Imaging
Technologies, Corporation and
Henry Schein, Incorporated
[9132438-2] Without Poll. Mandate issue date is 12/16/2019;
[9204855-1] [16-41674] (CAS)

12/16/2019

MANDATE ISSUED. Mandate
issue date satisfied. [16-41674]
(CAS)

01/06/2020

OPPOSED MOTION filed by Appellant Henry Schein, Incorporated to recall this Court’s mandate, to stay district court proceedings [9223681-3] Ruling is requested by: 01/10/2020. Date of
service: 01/06/2020 via email - Attorney for Appellants: Chuk,
Govett, Harris, Kruse, McCloud,
Montgomery, Ondeck, Pitt, Schuster, Timms, Van Kirk; Attorney

15
for Appellee: LeClair [16-41674]
(Paul Featherstone Schuster )
01/07/2020

COURT ORDER that appellant,
Henry Schein, Incorporated’s opposed motion to recall this Court’s
mandate for the limited purpose
of staying the district court proceedings pending the Supreme
Court’s decision on Henry
Schein’s forthcoming petition for
writ of certiorari is DENIED
[9223681-2]; [9223681-3]. [1641674] (MCS)
*****

16
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
(MARSHALL)

No. 2:12-cv-00572-JRG
ARCHER AND WHITE SALES, INC.,
Plaintiff,
v.
HENRY SCHEIN, INC., ET AL.,
Defendants

DOCKET ENTRIES
DATE
08/31/2012

NO.
1

PROCEEDINGS
COMPLAINT against All Defendants (Filing fee $ 350 receipt
number 0540-3760981.), filed by
Archer and White Sales, Inc. (Attachments: # 1 Civil Cover Sheet)
(Beane,
Jerry)
(Entered:
08/31/2012)
*****

09/26/2012

10

MOTION to Compel Arbitration
and Stay All Proceedings by Danaher Corporation, Dental Equipment LLC, Dental Imaging Technologies, Corporation, Instrumentarium Dental Inc., KaVo

17
Dental Technologies, LLC. (Attachments: # 1 Exhibit Declaration of James Weingarten, # 2
Exhibit Ex. A to Declaration, # 3
Exhibit Ex. B to Declaration, # 4
Text of Proposed Order Proposed
Order) (Kruse, Layne) (Attachment 4 (Proposed Order) replaced on 9/27/2012) (sm, ). Modified on 9/27/2012 (sm, ). (Entered:
09/26/2012)
*****
10/01/2012

14

MOTION to Compel Plaintiff to
Arbitrate and to Stay Proceedings by Henry Schein, Inc. (Attachments: # 1 Text of Proposed
Order) (Schuster, Paul) (Entered:
10/01/2012)
*****

10/12/2012

21

RESPONSE in Opposition re 10
MOTION to Compel Arbitration
and Stay All Proceedings [Plaintiff Archer and White Sales, Inc.’s
Response in Opposition to Manufacturer Defendants’ Motion to
Compel Arbitration and Stay All
Proceedings] filed by Archer and
White Sales, Inc. (Attachments:
# 1 Affidavit Declaration of Kay
Lynn Brumbaugh, # 2 Exhibit 1
to Declaration, #3 Exhibit 2 to
Declaration) (Beane, Jerry) (Entered: 10/12/2012)

18
10/16/2012

22

RESPONSE in Opposition re 14
MOTION to Compel Plaintiff to
Arbitrate and to Stay Proceedings [Plaintiff Archer and White
Sales, Inc.’s Response in Opposition to Defendant Henry Schein,
Inc.’s Motion to Compel Plaintiff
to Arbitrate and to Stay All Proceedings] filed by Archer and
White Sales, Inc. (Beane, Jerry)
(Entered: 10/16/2012)
*****

10/22/2012

24

REPLY to Response to Motion re
10 MOTION to Compel Arbitration and Stay All Proceedings
filed by Danaher Corporation,
Dental Equipment LLC, Dental
Imaging Technologies, Corporation, Instrumentarium Dental
Inc., KaVo Dental Technologies,
LLC. (Attachments: # 1 Exhibit
C, # 2 Exhibit D, #3 Exhibit E, #
4 Exhibit F, # 5 Exhibit G)
(Kruse,
Layne)
(Entered:
10/22/2012)
*****

10/26/2012

31

REPLY to Response to Motion re
14 MOTION to Compel Plaintiff
to Arbitrate and to Stay Proceedings filed by Henry Schein, Inc.
(Schuster,
Paul)
(Entered:
10/26/2012)

19
*****
10/29/2012

33

SUR-REPLY to Reply to Response to Motion re 10 MOTION
to Compel Arbitration and Stay
All Proceedings [Plaintiff Archer
and White Sales, Inc.’s Sur-Reply in Opposition to Manufacturer Defendants’ Motion to
Compel Arbitration and Stay All
Proceedings] filed by Archer and
White Sales, Inc. (Beane, Jerry)
(Entered: 10/29/2012)
*****

11/05/2012

37

SUR-REPLY to Reply to Response to Motion re 14 MOTION
to Compel Plaintiff to Arbitrate
and to Stay Proceedings [Plaintiff Archer and White Sales, Inc.’s
Sur-Reply in Opposition to Defendant Henry Schein, Inc.’s Motion to Compel Arbitration and to
Stay All Proceedings] filed by
Archer and White Sales, Inc.
(Beane,
Jerry)
(Entered:
11/05/2012)
*****

02/28/2013

41

Minute Entry for proceedings
held before Magistrate Judge
Roy S. Payne: Motion Hearing
held on 2/28/2013 re Motions to
Compel Arbitration 10 and 14.
(Court Reporter Sunbelt Reporting.) (jml) (Entered: 02/28/2013)

20
*****
05/28/2013

44

ORDER, granting 10 MOTION
to Compel Arbitration and Stay
All Proceedings filed by Dental
Equipment LLC, KaVo Dental
Technologies, LLC, Instrumentarium Dental Inc., Dental Imaging Technologies, Corporation,
Danaher Corporation, granting
14 MOTION to Compel Plaintiff
to Arbitrate and to Stay Proceedings filed by Henry Schein, Inc.
This action is stayed pending arbitration of the claims asserted
herein. All parties are directed to
notify the Court when the arbitration process is complete or if it has
been abandoned. Signed by Magistrate Judge Roy S. Payne on
5/28/13. (mrm, ) ***VACATED
per 63 Memorandum Opinion
and Order on 12/7/2016***(jml).
(Entered: 05/28/2013)

06/10/2013

45

MOTION for Reconsideration re
44 Order Staying Case [Plaintiff’s
Motion for Reconsideration of
Magistrate Judge’s May 28, 2013
Memorandum Order] by Archer
and White Sales, Inc. (Attachments: # 1 Text of Proposed Order) (Beane, Jerry) (Entered:
06/10/2013)

06/20/2013

46

RESPONSE in Opposition re 45
MOTION for Reconsideration re

21
44 Order Staying Case. Plaintiff’s
Motion for Reconsideration of
Magistrate Judge’s May 28, 2013
Memorandum Order] MOTION
for Reconsideration re 44 OrderStaying Case, [Plaintiff’s Motion
for Reconsideration of Magistrate Judge’s May 28, 2013 Memorandum Order] Manufacturer
Defendants’ Memorandum in
Opposition to Plaintiff’s Motion
for Reconsideration of Magistrate Judge’s May 28, 2013 Memorandum Order (Dkt. #44) filed
by Danaher Corporation, Dental
Equipment LLC, Dental Imaging Technologies, Corporation,
Instrumentarium Dental Inc.,
KaVo Dental Technologies, LLC.
(Attachments: # 1 Exhibit Exhibits to Manufacturer Defendants’
Memorandum in Opposition to
Plaintiff’s Motion for Reconsideration of Magistrate Judge’s May
28, 2013 Memorandum Order
(Dkt. #44)) (Pitt, Jonathan) (Entered: 06/20/2013)
06/20/2013

47

RESPONSE in Opposition re 45
MOTION for Reconsideration re
44 Order Staying Case, Terminate Motions, , , , [Plaintiff’s Motion for Reconsideration of Magistrate Judge’s May 28, 2013
Memorandum Order] MOTION
for Reconsideration re 44 Order

22
Staying Case, Terminate Motions, , , , [Plaintiff’s Motion for
Reconsideration of Magistrate
Judge’s May 28, 2013 Memorandum Order] filed by Henry
Schein, Inc. (Attachments: # 1
Schuster Declaration, # 2 Exhibit
A, # 3 Text of Proposed Order)
(Schuster,
Paul)
(Entered:
06/20/2013)
06/27/2013

48

REPLY to Response to Motion re
45 MOTION for Reconsideration
re 44 Order Staying Case, Terminate Motions, , , , [Plaintiff’s Motion for Reconsideration of Magistrate Judge's May 28, 2013
Memorandum Order] MOTION
for Reconsideration re 44 Order
Staying Case, Terminate Motions, , , , [Plaintiff’s Motion for
Reconsideration of Magistrate
Judge's May 28, 2013 Memorandum Order] [Plaintiff’s Reply in
Support of Motion for Reconsideration of Magistrate Judge’s
May 28, 2013 Memorandum Order (DKT #44)] filed by Archer
and White Sales, Inc. (Beane,
Jerry) (Entered: 06/27/2013)
*****

07/03/2013

51

SUR-REPLY to Reply to Response to Motion re 45 MOTION
for Reconsideration re 44 Order
Staying Case, filed by Danaher

23
Corporation, Dental Equipment
LLC, Dental Imaging Technologies, Corporation, Instrumentarium Dental Inc., KaVo Dental
Technologies, LLC. (Pitt, Jonathan) (Entered: 07/03/2013)
07/03/2013

52

SUR-REPLY to Reply to Response to Motion re 45 MOTION
for Reconsideration re 44 Order
Staying Case, filed by Henry
Schein, Inc. (Schuster, Paul) (Entered: 07/03/2013)
*****

11/09/2016

61

ORDER VACATING REFERRAL OF PRETRIAL MATTERS. Signed by Judge Rodney
Gilstrap on 11/8/2016. (nkl, ) (Entered: 11/09/2016)

11/09/2016

62

Minute Entry for proceedings
held before Judge Rodney Gilstrap: Status Conference held on
11/9/2016. (Court Reporter Shelly
Holmes, CSR-TCRR.) (Attachments: # 1 Attorney Attendance
Sheet) (jml) (Entered: 11/09/2016)

12/07/2016

63

MEMORANDUM AND OPINION- - It is therefore ORDERED
that the Magistrate Judge’s Order (Dkt. No. 44) is hereby VACATED. Accordingly, the Motions to Compel Arbitration filed
by Defendant Schein and theManufacturer Defendants are

24
DENIED, and the stay previously entered in this case is
hereby LIFTED. The trial date
for this action is hereby set for
February 5, 2018, and the pretrial hearing date is set for January 8, 2018. Accordingly, the Parties are ORDERED to meet and
confer and thereafter jointly submit a proposed Docket Control
Order to the Court within 14 days
of this Order based on the above
trial and pre-trial dates. Signed
by Judge Rodney Gilstrap on December 7, 2016. (jml) (Entered:
12/07/2016)
*****
12/13/2016

64

NOTICE OF APPEAL as to 63
Memorandum & Opinion,, by
Danaher Corporation, Dental
Equipment LLC, Dental Imaging
Technologies, Corporation, Instrumentarium Dental Inc., KaVo
Dental Technologies, LLC. Filing
fee $ 505, receipt number 05406069680. (Attachments: # 1 Exhibit Memorandum Opinion and
Order) (Weingarten, James) (Entered: 12/13/2016)

12/14/2016

65

NOTICE OF APPEAL by Henry
Schein, Inc. Filing fee $ 505, receipt
number
0540-6070414.

25
(Schuster,
12/14/2016)
12/14/2016

66

Paul)

(Entered:

Joint MOTION to Stay Proceedings Pending Appeal by Danaher
Corporation, Dental Equipment
LLC, Dental Imaging Technologies, Corporation, Henry Schein,
Inc., Instrumentarium Dental
Inc., KaVo Dental Technologies,
LLC. (Attachments: # 1 Text of
Proposed Order Proposed Order)
(Weingarten, James) (Entered:
12/14/2016)
*****

12/21/2016

70

RESPONSE in Opposition re 66
Joint MOTION to Stay Proceedings Pending Appeal Plaintiff’s
Response in Opposition to Defendants’ Motion to Stay Proceedings Pending Appeal filed by
Archer and White Sales, Inc. (Attachments: # 1 Text of Proposed
Order Proposed Order) (Brumbaugh, Kay Lynn) (Entered:
12/21/2016)
*****

02/17/2017

88

MEMORANDUM
OPINION
AND ORDER re 66 Joint MOTION to Stay Proceedings Pending Appeal filed by Dental Equipment LLC, Henry Schein, Inc.,
KaVo Dental Technologies, LLC,
Instrumentarium Dental Inc.,

26
Dental Imaging Technologies,
Corporation, Danaher Corporation. Signed by Judge Rodney Gilstrap on 2/17/2017. (nkl, ) (Entered: 02/17/2017)
*****
10/30/2017

03/01/2019

261

409

Sealed Document. SECOND AMENDED COMPLAINT (Baxter,
Samuel) (Entered: 10/30/2017)
MOTION to Stay Pending Appeal by Benco Dental Supply Co.,
Danaher Corporation, Dental
Equipment LLC, Dental Imaging Technologies, Corporation,
Henry Schein, Inc., Instrumentarium Dental Inc., KaVo Dental
Technologies, LLC, Patterson
Companies, Inc. (Attachments: #
1 Text of Proposed Order)(Flaherty, Scott) (Additional attachment(s) added on 3/4/2019: # 2
Revised Proposed Order) (nkl, ).
(Entered: 03/01/2019)
*****

03/15/2019

413

RESPONSE in Opposition re 409
MOTION to Stay Pending Appeal filed by Archer and White
Sales, Inc. (Attachments: # 1
Text of Proposed Order)(LeClair,
Lewis) (Entered: 03/15/2019)
*****

27
04/02/2019

418

ORDER granting 409 Motion to
Stay Pending Appeal; denying
410 Motion to Amend/Correct.
Signed by District Judge Rodney
Gilstrap on 4/1/2019. (nkl, ) (Entered: 04/02/2019)
*****

09/18/2019

429

NOTICE by Benco Dental Supply Co., Danaher Corporation,
Dental Equipment LLC, Dental
Imaging Technologies, Corporation, Henry Schein, Inc., Instrumentarium Dental Inc., KaVo
Dental Technologies, LLC, Patterson Companies, Inc. NOTICE
CONCERNING
DEFENDANTS EN BANC PETITION
(Attachments: # 1 Exhibit A)
(Doan,
Jennifer)
(Entered:
09/18/2019)

10/01/2019

430

ORDER LIFTING STAY −
Pretrial Conference set for
1/22/2020 09:00 AM before District Judge Rodney Gilstrap.,
Jury Selection set for 2/3/2020
08:00AM before District Judge
Rodney Gilstrap., Jury Trial set
for 2/3/2020 08:00 AM before District Judge Rodney Gilstrap.
Signed by District Judge Rodney
Gilstrap on 9/30/2019. (nkl,) (Entered: 10/01/2019)
*****

28
12/27/2019

458

MOTION to Stay Pending Decision on Petition for Certiorari
and Request for Expedited
Briefing by Henry Schein, Inc.
(Attachments: #1 Text of Proposed Order) (Schuster, Paul)
(Entered: 12/27/2019)

12/27/2019

458

MOTION to Stay Pending Decision on Petition for Certiorari
and Request for Expedited
Briefing by Henry Schein, Inc.
(Attachments: #1 Text of Proposed Order) (Schuster, Paul)
(Entered: 12/27/2019)
*****

01/03/2020

465

RESPONSE in Opposition re 458
MOTION to Stay Pending Decision on Petition for Certiorari
and Request for Expedited Briefing filed by Archer and White
Sales, Inc. (Attachments: # 1
Text of Proposed Order) (Baxter,
Samuel) (Entered: 01/03/2020)

01/03/2020

466

ORDER denying 458 Motion to
Stay Pending Decision on Petition
for Certiorari and Request for
Expedited Briefing. Signed by
District Judge Rodney Gilstrap
on 1/3/2020. (nkl, ) (Entered:
01/03/2020)
*****

29
01/23/2020

506

ANSWER to Complaint Defendant Henry Schein, Inc.’s Answer
to Plaintiff’s Second Amended
Complaint by Henry Schein, Inc.
(Schuster,
Paul)
(Entered:
01/23/2020)
*****

02/25/2020

518

STIPULATION of Dismissal
WITH PREJUDICE by Archer
and White Sales, Inc. (Attachments: # 1 Text of Proposed Order)(Baxter, Samuel) (Entered:
02/25/2020)

02/27//2020

519

ORDER re 518 Stipulation of Dismissal as to Dental Imaging Technologies, Corporation, Instrumentarium Dental Inc., KaVo
Dental Technologies, LLC, Danaher Corporation and Dental
Equipment LLC. Signed by District Judge Rodney Gilstrap on
2/27/2020. (ch, ) (Entered:
02/28/2020)

03/31/2020

520

STIPULATION of Dismissal
WITH PREJUDICE by Archer
and White Sales, Inc. (Attachments: # 1 Text of Proposed Order)(Baxter, Samuel) (Entered:
03/31/2020)

04/02/2020

521

ORDER re 520 Stipulation of Dismissal filed by Archer and White
Sales, Inc., Patterson Companies,
Inc. terminated., Attorney Ruvin

30
S. Jayasuriya; James J. Long;
Jeremy D. Schildcrout; Jay W.
Schlosser; Mark G. Schroeder;
Clyde Moody Siebman; Jeffrey
Jack Burley and Scott M. Flaherty terminated. Signed by District Judge Rodney Gilstrap on
4/1/2020. (nkl, ) (Entered:
04/02/2020)
*****

31
FILED UNDER SEAL
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION

Civil Action No. 2:12-CV-00572-JRG
ARCHER AND WHITE SALES, INC.,
Plaintiff,
v.
HENRY SCHEIN, INC., DANAHER CORPORATION, INSTRUMENTARIUM DENTAL, INC.,
DENTAL EQUIPMENT, LLC, KAVO DENTAL
TECHNOLOGIES, LLC, and DENTAL IMAGING
TECHNOLOGIES CORPORATION,
Defendants.

October 30, 2017

SECOND AMENDED COMPLAINT
Plaintiff Archer and White Sales, Inc. (“Archer Dental”) files this action against Defendants Henry Schein,
Inc. (“Schein”), Patterson Companies, Inc. (“Patterson”),
Benco Dental Supply Co. (“Benco”), Danaher Corporation (“Danaher Corporation”), Instrumentarium Dental,
Inc. (“Instrumentarium”), Dental Equipment LLC d/b/a
Pelton & Crane (“Pelton & Crane”), Dental Equipment
LLC d/b/a Marus (“Marus”), Dental Equipment LLC

32
d/b/a DCI Equipment (“DCIE”), KaVo Dental Technologies, LLC (“KaVo”) and Dental Imaging Technologies,
Corporation d/b/a Gendex Corp. (“Gendex”), (collectively,
“Defendants”). Archer Dental seeks treble damages and
injunctive relief for violations by all Defendants of Section
1 of the Sherman Act, 15 U.S.C. § 1, and the Texas Free
Enterprise and Antitrust Act, TEX. BUS. & COMM.
CODE § 15.01.
NATURE OF THE CASE
1. This is an antitrust case arising out of the contract,
combination, and conspiracy in restraint of trade by
Schein, Patterson, Benco, and Burkhart Dental Supply
(“Burkhart”) (collectively “Cartel Members”), who are
horizontal competitors in the distribution of dental equipment, to fix, maintain, and stabilize margins and their further agreement with each other to enlist their common
suppliers, including Danaher Corporation and its subsidiaries Pelton & Crane, Marus, DCIE, KaVo, Gendex, and
Instrumentarium (collectively, “Danaher”), Midmark,
and Belmont to join their margin-fixing conspiracy by reducing the distribution territory of, and eventually terminating, their low-margin competing distributor Archer
Dental. This territory reduction and termination was an
illegal boycott, the purpose of which was to allow the Cartel Members to maintain and perpetuate their margin-fixing conspiracy. Danaher, Midmark, and Belmont, as common suppliers of dental equipment to the Cartel Members
and Archer Dental, facilitated the reduction in competition to increase prices by knowingly joining the illegal
conspiracy and boycott. Danaher, Midmark, and Belmont
knowingly participated in the illegal conspiracy and boycott to ensure that Schein, a large and dominant distributor of dental products, and the other Cartel Members, also
significant distributors of dental products, would continue

33
to sell and promote Danaher, Midmark, and Belmont
lines. Danaher, Midmark, and Belmont joined the illegal
conspiracy and boycott in response to threats from the
Cartel Members, including threats that they would terminate their distribution of the manufacturers’ products unless the manufacturers participated in the Cartel Members’ conspiracy to fix margins and eliminate competition
by refusing to deal with Archer Dental and other low-margin distributors. In direct response to the threats from
Cartel Members, Danaher prohibited Archer Dental from
selling dental equipment in areas and to customers that
the distribution agreements between Archer Dental and
Danaher (or its predecessors) permitted Archer Dental to
sell, denied Archer Dental the discount structure to which
Archer Dental was entitled based on its sales, and in 2014,
terminated Archer Dental’s distribution agreements with
Danaher subsidiaries Instrumentarium, Pelton & Crane,
Marus, DCIE, and KaVo (including Aribex). Midmark
limited the products which Archer Dental was permitted
to sell to only air vacuums and sterilizers. Belmont terminated Archer Dental’s distribution rights entirely, and refused to respond to subsequent attempts by Archer Dental to regain the line. Archer Dental currently estimates
its damages caused by Defendants to be approximately
$100 million.
2. Defendants, Burkhart, Midmark, and Belmont
have carried out their conspiracy through a series of unlawful activities, including but not limited to agreements
to fix, maintain and stabilize margins and boycotts of distributors who refused to comply. The conspiracy is continuing, and the conspirators have committed acts in furtherance of that conspiracy in the four years preceding the filing of the prior complaints.

34
3. Defendants and the other conspirators’ conspiracy
enables them to enjoy the economic benefits that flow
from conspiring to operate an unlawful cartel that forecloses competition by low-margin distributors in the sale
of dental products and fixes margins for dental products
purchased by dental professionals throughout the United
States.
JURISDICTION, VENUE, AND INTERSTATE
COMMERCE
4. This action is brought under Section 1 of the Sherman Act, 15 U.S.C. § 1, and the Texas Free Enterprise
and Antitrust Act, TEX. BUS. & COMM. CODE § 15.05.
5. This Court has subject-matter jurisdiction over
Plaintiff’s claims pursuant to 28 U.S.C. §§ 1331 and 1337,
and 15 U.S.C. §§ 15 and 26.
6. This Court has personal jurisdiction over Defendants because each of them systematically and continuously transacts substantial business in the United States,
in Texas, and in the Eastern District of Texas.
7. Venue is proper in this District pursuant to 15
U.S.C. § 22 and 28 U.S.C. § 1391 because Defendants inhabit, transact business, reside, are found to have an
agent in this District, and a substantial part of the events
or omissions giving rise to the claim occurred in this District.
8. Defendants Danaher, KaVo, Instrumentarium,
Gendex, Pelton & Crane, Marus and DCIE sell dental
products across state lines, in Texas, and in this District.
Defendants Schein, Patterson, and Benco market and sell
dental products across state lines, in Texas, and in this
District. All Defendants receive substantial payments

35
across state lines from the sale of dental products, including substantial payments based on sales in Texas and in
this District. Defendants’ business activities that are the
subject of this Complaint are within the flow of, and substantially have affected, interstate trade and commerce.
PARTIES
Plaintiff
9. Plaintiff Archer Dental is located at 1107 Summit
Avenue, Suite 1, in Plano, Collin County, Texas, in the
Eastern District of Texas. Archer Dental is a familyowned business and has been in the business of distribution, sales, and service of dental equipment and supplies
to dental professionals since 1983.
Defendants
10. Defendant Danaher Corporation is a for-profit corporation organized and existing under the laws of the
State of Delaware with its principal place of business at
2200 Pennsylvania Avenue, NW, Suite 800W, Washington, DC 20037. Defendant Danaher Corporation may be
served with process by serving its Registered Agent, Corporation Service Company, 2711 Centerville Rd., Suite
400, Wilmington, DE 19808. Danaher holds the largest
market share of all dental equipment manufacturers in
the United States. Danaher primarily sells and distributes its dental equipment through distributors such as
Schein, Patterson, Benco, Burkhart, and (formerly)
Archer Dental.
11. Defendant Instrumentarium is a for-profit corporation organized and existing under the laws of the State
of Wisconsin with its principal place of business at 1245
W. Canal St., Milwaukee, Wisconsin 53233. Defendant Instrumentarium may be served with process by serving its

36
Registered Agent, CT Corporation System, 8040 Excelsior Drive, Suite 200, Madison, WI 53717. Instrumentarium is a wholly-owned subsidiary of Danaher. Instrumentarium primarily sells and distributes its dental equipment through distributors such as Schein, Patterson,
Benco, Burkhart, and (formerly) Archer Dental.
12. Defendant Dental Equipment LLC does business
under the names Pelton & Crane Marus, and DCI Equipment. Dental Equipment LLC is a for-profit corporation
organized and existing under the laws of the State of
North Carolina with its principal place of business at
11727 Fruehauf Drive, Charlotte, North Carolina 28273.
Defendant Dental Equipment LLC may be served with
process by serving its Registered Agent, CT Corporation
System, 150 Fayetteville St., Box 1011, Raleigh, NC
27601. Dental Equipment LLC is a wholly-owned subsidiary of Danaher. Dental Equipment LLC primarily sells
and distributes its dental equipment through distributors
such as Schein, Patterson, Benco, Burkhart, and (formerly) Archer Dental.
13. Defendant KaVo is a for-profit corporation organized and existing under the laws of the State of North
Carolina with its principal place of business at 1340 East
Main Street, Lake Zurich, Illinois 60047. Defendant KaVo
may be served with process by serving its Registered
Agent, Secretary of State, 2 South Salisbury Street, Raleigh, NC 27601. KaVo is a wholly owned subsidiary of
Danaher. KaVo primarily sells and distributes its dental
equipment through distributors such as Schein, Patterson, Benco, Burkhart, and (formerly) Archer Dental.
14. Defendant Gendex is a for-profit corporation organized and existing under the laws of the State of Pennsylvania with its principal place of business at 1910 N. Penn
Road, Hatfield, Pennsylvania 19440. Defendant Gendex

37
may be served with process by serving its Registered
Agent, The Corporation Trust Company, Corporation
Trust Center, 1209 Orange Street, Wilmington, DE
19801. Gendex is a wholly-owned subsidiary of Danaher.
Gendex primarily sells and distributes its dental equipment through distributors such as Schein, Patterson,
Benco, Burkhart, and (formerly) Archer Dental.
15. Defendant Schein is a for-profit corporation organized and existing under the laws of the State of Delaware
with its principal place of business at 135 Duryea Road,
Melville, New York 11747. Defendant Schein may be
served with process by serving its Registered Agent, Department of State, New York City Location, 123 William
Street, New York, NY 10038-3804. Schein is the largest
dental distributor in the United States. In 2011, Schein’s
overall net sales were $8.5 billion, with nearly $2.9 billion
in dental sales. In 2016, Schein’s overall net sales were
$11.5 billion, with $5.5 billion in dental sales. Additionally,
Schein owns substantial equity interests in Darby Dental
Supply, LLC (“Darby Dental”), another large distributor
of dental supplies and equipment.
16. Defendant Patterson is a for-profit corporation organized and existing under the laws of the State of Minnesota with its principal place of business at 1031 Mendota
Heights Road, St. Paul, Minnesota 55120. Defendant Patterson may be served with process by serving its Registered Agent, CT Corporation System, 1999 Bryan Street,
Suite 900, Dallas, Texas 75201-3136. Patterson is the second-largest dental distributor in the United States. In
2011, Patterson’s overall net sales were $3.41 billion, with
$2.23 billion in dental sales. In 2017, Patterson’s overall
net sales were $5.59 billion with $2.39 billion in dental
sales.

38
17. Defendant Benco is a for-profit corporation organized and existing under the laws of the State of Delaware
with its principal place of business at 295 Centerpoint
Blvd., Pittston, PA 18640. Defendant Benco may be
served with process by serving its Registered Agent, National Registered Agents, Inc., 1999 Bryan Street, Suite
900, Dallas, Texas 75201-3136. Benco is the largest privately-owned distributor of dental supplies and equipment in the United States.
18. The Cartel Members distribute many of the same
lines of dental products in the same geographic areas and
are therefore horizontal “competitors,” but as described
below, they have secretly agreed to fix, maintain, and stabilize margins and to eliminate the low-margin competitors who refuse to abide by the supra-competitive margins
agreed to by the Cartel. Schein, Patterson, Benco and
Burkhart comprise over 80% of the distribution of dental
equipment and dental supplies in the United States. With
respect to distribution of Danaher brands specifically, the
Cartel Members are responsible for an average of over
87% of all of Danaher’s sales through dental distributors.
19. The acts charged in this Complaint as having been
done by Defendants and the other conspirators were authorized, ordered, and/or done by their officers, agents,
employees, and/or representatives, while actively engaged in the management of their business and affairs.
Co-Conspirators
20. Although not named as a defendant herein,
Burkhart participated as a co-conspirator with Defendants and performed acts and made statements in furtherance of the conspiracy and boycott of low-margin distributors, including Archer Dental. Burkhart is a for-profit
corporation organized and existing under the laws of the

39
State of Washington with its principal place of business at
2502 S. 78th Street Tacoma, Washington 98409. On information and belief, Burkhart provides over $150 million a
year in dental equipment, repair, supplies, consulting,
continuing education, and other services to over 5,000
dentists. Plaintiff’s original complaint referred to
Burkhart as “Company X.” Plaintiff did not use
Burkhart’s real name or the real name of Burkhart’s manager because of certain confidentiality agreements that
existed between Plaintiff and Burkhart and because the
Defendants were (and are) aware of the participants to
the communications and conduct described in this complaint. On January 17, 2017, Danaher identified Burkhart
as “Company X” in a public filing in this matter (Dkt. No.
79).
21. Another unnamed co-conspirator is Takara Belmont USA, Inc. (“Belmont”). Belmont participated as a
co-conspirator with Defendants and performed acts and
made statements in furtherance of the conspiracy and
boycott of low-margin distributors, including Archer Dental. Belmont is a for-profit corporation organized and existing under the laws of the State of New Jersey with a
principal place of business at 101 Belmont Drive, Somerset, New Jersey 08873. Belmont is a manufacturer of dental equipment and, on information and belief, holds approximately 4.5% of the market for traditional dental
equipment.
22. Midmark Corporation (“Midmark”) is yet another
unnamed co-conspirator. Midmark participated as a coconspirator with Defendants and performed acts and
made statements in furtherance of the conspiracy and
boycott of low-margin distributors, including Archer Dental. Midmark is a for-profit corporation organized and existing under the laws of the State of Ohio with a principal

40
place of business at 1700 S. Patterson Boulevard, Suite
400, Dayton, Ohio 45409. Midmark is a manufacturer of
dental equipment and, on information and belief, holds approximately 11.0% of the market for traditional equipment.
BACKGROUND
23. In 1963, James Archer, Sr. began working in the
dental equipment sales and service industry as the college
representative at Baylor Dental School in Dallas, Texas.
After college, he worked for several companies in the dental business over the years.
24. In 1983, James Archer, Sr. started a dental equipment sales and service business which became Archer and
White Sales, Inc. in Plano, Collin County, Texas. Archer
Dental’s primary customers are dentists. Mr. Archer was
a pioneer of the discount full-service dental equipment
supplier business. Mr. Archer’s son, James Jr., started
working in the family business when he was only 12 years
old by repairing dental hand pieces. James Archer, Jr.
took the company into national sales distribution of dental
equipment in 1993 through catalog and later internet
sales. James Archer, Jr. is now the President of Archer
Dental.
25. Before 2004, there were a number of dental product manufacturers in the U.S., and Archer Dental was an
authorized distributor for multiple manufacturers, including Gendex, KaVo, Pelton & Crane, Marus, Kerr, DCIE,
and others. Beginning in or around 2004, Danaher Corporation embarked on a plan to consolidate the dental equipment manufacturing industry. Danaher has become the
largest manufacturer of dental equipment, in part, by acquiring multiple smaller manufacturers of dental equip-

41
ment over the years. For example, in 2004, Danaher Corporation acquired the KaVo and Gendex dental equipment businesses. In 2005, Danaher Corporation acquired
the Pelton & Crane, Marus, and DCIE dental equipment
businesses. In 2009, Danaher Corporation acquired PaloDEx Group, the owner of the Instrumentarium line of
equipment. In 2012, Danaher Corporation acquired Aribex.
26. According to its 10-K SEC filing for 2016, “Danaher Corporation designs, manufactures, and markets professional, medical, industrial, and commercial products
and services, which are typically characterized by strong
brand names, innovative technology and major market
positions.” Danaher Corporation exercises direction,
management, and control over the business activities of
the dental equipment companies it has acquired and that
are identified herein. Danaher Corporation exercises this
direction, management, and control through a variety of
means including a single Board of Directors at Danaher
Corporation. None of its dental equipment companies has
its own Board of Directors.
27. According to Kirk Zambetti, the long-time VicePresident of Sales of Danaher Corporation’s dental equipment companies who left that position in 2016, there are
approximately 100 Danaher Corporation employees at
Danaher Corporation’s corporate headquarters in Washington, D.C. who work closely with the most senior executives of the dental equipment companies. The senior executives of Danaher Corporation, including its Chief Executive Officer, Chief Financial Officer, and others, work
closely with the senior executives at the dental equipment
companies at both the strategic and operational level. The
executives at Danaher Corporation would coach, mentor,
manage, and help the presidents of the dental equipment

42
companies drive and grow their business. This engagement occurred on a daily or weekly basis.
28. At the strategic level, the most senior executives of
Danaher Corporation and the most senior executives at
the dental equipment companies gather together annually
for an in-person meeting for several days to discuss their
strategic plans for the dental equipment companies.
These strategic planning meetings include discussions
centered on the three-year outlook for the dental equipment companies. The strategic planning meetings were
collaborative efforts between the senior executives of
Danaher Corporation and the dental equipment companies in which they would hash out the strategic vision of
the companies together.
29. At the operational level, the most senior executives
of Danaher Corporation and the most senior executives at
the dental equipment companies likewise hold annual
meetings to discuss the operations of the dental equipment companies. These operational meetings would include discussions of topics such as policy deployment, actions plans, root cause countermeasures, product innovation, marketing, and brand awareness. The president of
the dental equipment companies also generates a monthly
report called the president’s letter that would be sent to
the executives at Danaher Corporation. The president’s
letter would include a review of the dental equipment
business, marketplace analysis, how the companies were
doing against budget, and the like. There would then be
follow-up discussions between the executives at Danaher
Corporation and the president of the dental equipment
companies to review the president’s letter.
30. Given that it owns and now controls a substantial
portion of the dental equipment manufacturing industry,
doing business with Danaher is essential to the economic

43
success of dental equipment distributors such as Archer
Dental. That is especially so because the traditional dental
equipment segment is dominated by four “premier”
brands in the “core equipment” segment that includes
items such as dental chairs, lights, and cabinets—Pelton
& Crane, A-dec, Midmark, and Belmont. Archer was denied access to any of these brands (with the exception of
Midmark’s sterilizers and air vacuums), which comprise
about 76% of the traditional equipment market. As such,
without at least one of those premium lines, a distributor
simply cannot compete effectively in the core equipment
segment of the market. Moreover, certain Danaher
brands have unique features and capabilities and are accepted by dentists in ways that other brands are not. Dentists’ equipment choices are extremely path-dependent;
once the dentist becomes familiar with a particular brand,
that dentist is extremely likely to stay loyal to that brand
and to continue purchasing it due to level of comfort and
high switching costs. Accordingly, losing the right to distribute a manufacturer’s products is detrimental to a distributor. For these reasons, the ability to distribute Danaher dental equipment brands is necessary for Archer
Dental to compete effectively in the core equipment segment of the dental equipment market with the Cartel
Members.
31. Similar to the core equipment segment, the dental
technology and imaging segment (i.e., x-rays) is dominated by a few key brands: Instrumentarium, Gendex,
PlanMeca, Sirona, and Aribex. Danaher Corporation’s
consolidation strategy extended into the technology and
imaging segment as well. Danaher Corporation acquired
Gendex (2003), Instrumentarium (2009), and Aribex
(2012). Other manufacturers have entered into arrangements with the Cartel Members that preclude independent distributors like Archer Dental from distributing their

44
lines. For example, Patterson had the exclusive right to
distribute certain Sirona equipment, a key manufacturer
in the dental technology and imaging segment, for many
years and only within recent months did this exclusive arrangement terminate. Likewise, until the last few months,
Schein had the exclusive right to distribute Dexis, which
sold intra-oral x-ray devices and intra-oral cameras, as
well as the exclusive right to distribute I-Cat 3-D imaging
devices. The same factors that exist in the core equipment
segment also drive the technology and imaging segment—i.e., certain brands have unique features and capabilities, and a dentist’s equipment choices are extremely
path-dependent. Just as in the core equipment segment,
losing the right to distribute and/or being foreclosed from
distributing a key manufacturer’s products in the technology and imaging segment is detrimental to a distributor.
As explained in more detail below, Archer Dental was extremely successful at distributing this type of equipment
until its distribution rights were restricted and then terminated.
32. In the consumables submarket, Kerr (owned by
Danaher), 3M, DentSply/Caulk, and Vivadent are the
premier brands. Members of NDC (formerly known as
the American Dental Cooperative)—a group buying cooperative that allows independent distributors to access critical equipment and consumables lines—receive access to
nearly 400 manufacturers, including, on information and
belief, 3M, Kerr, DentSply, and Vivadent. Archer Dental
previously distributed Kerr products.
33. On information and belief, Danaher Corporation
operated its dental subsidiaries essentially as divisions of
the overall company. In 2005, Danaher Corporation’s dental platform included its North American Dental busi-

45
nesses: KaVo, Gendex, Dexis, and Pelton & Crane. Danaher appointed Bob Joyce as the President of KaVo North
America, with responsibility for all these dental businesses. Danaher also appointed Michael Weatherred as
Vice President of Global Accounts for the entire Dental
Platform. Between them, Weatherred and Zambetti were
responsible for the key global accounts for all dental businesses, including the Cartel Members. Danaher continued to consolidate its dental business, as reflected in Danaher’s consolidation of management in the dental platform
business. In 2009, Danaher appointed Zambetti as the
North American Vice President of Sales for KaVo, Pelton
& Crane and Marus. Both Zambetti and Weatherred used
@danaher.com email addresses to carry out their duties,
including in the course of having discussions about dealer
terminations. In December 2013, Zambetti, and Matt Garret, Kavo’s North American Vice President of Marketing,
announced the consolidation of the Gendex, Nomad (Aribex), Sorodex, and Instrumentarium sales teams, marketing teams and commercial leadership structure under a
new organization—KaVo Kerr Group Imaging. Additionally, the dental platform’s senior leader reports to an executive at the Danaher Corporation. Further reinforcing
Danaher Corporation’s control over its subsidiaries and
its treatment of them as mere divisions, on information
and belief, the subsidiaries use a single distribution agreement for multiple Danaher brands, with the parties
simply checking boxes next to the authorized lines. Executives at the highest levels of Danaher Corporation have
communicated with dental distributors about Danaher’s
distribution strategy, such as when Larry Culp, Danaher
Corporation’s CEO, discussed Danaher’s use of distributors with Stanley Bergman, Schein’s CEO.
34. As Danaher Corporation was consolidating the
dental products business, Archer Dental became known

46
nationally among dental professionals (who purchase and
use dental equipment) for its low prices and high-quality
service. Archer Dental’s sales always grew significantly
when it gained distribution rights to an equipment line or
a new distribution territory. That growth, however, would
eventually draw the attention and later the action of its
competitors who disliked Archer Dental’s lower prices.
What Archer Dental would not know for some time was
that its competitors, the Cartel Members, had enlisted
Danaher in a conspiracy and group boycott designed to
eliminate Archer Dental—and other low-margin distributors like it—as a competitive threat.
The Cartel Members and Danaher Engaged
in a Conspiracy and Boycott to Thwart Archer
Dental’s Regional Growth (in Texas, Oklahoma, and
Northwest Arkansas) and National Growth
35. This case involves a nationwide conspiracy by the
Cartel Members to protect their collective business from
price competition and to fix, maintain, and stabilize their
high margins for dental supplies and equipment across
the United States. In furtherance of that conspiracy, they
took actions to thwart price competitors, including Archer
Dental and other low-margin independent dealers. The
primary way that they accomplished this objective and
succeeded in their conspiracy was by denying their competitors such as Archer Dental with access to the key
manufacturers necessary to compete effectively. As discussed in detail below, Schein confirmed that the objective
of this margin-fixing scheme was to ensure that dentists
“get[ ] [dental products] for the same price no matter who
they buy it from” so that “we all get paid,” and the scope
of the margin-fixing scheme ran “unanimously across the
industry [for] as long as [Schein’s representative had]

47
been in the dental business.” The Cartel Members’ conspiracy continued until at least 2014 and, on information
and belief, remains ongoing.
36. The Cartel Members’ conspiracy has allowed them
to inflate the average margins on dental supplies and
equipment to supra-competitive levels, at times above
38%. The Cartel Members were able to maintain these supra-competitive margins by actively conspiring to eliminate competition from Archer Dental and other independent distributors and potential competitors.
37. The Cartel Members have orchestrated this conspiracy through private meetings, phone calls, email messages, and intermediaries.
38. In one such private meeting, described in detail below, Schein and Burkhart attempted to enlist Archer Dental in the Cartel Members’ conspiracy. Other non-public
documents that Archer Dental has only recently discovered as part of this matter establish the repeated, private
communications between the sales representatives and
executives of dental equipment manufacturers—including, in particular, Danaher—and the sales representatives and “upper management” of the Cartel Members.
The same, recently-produced documents further demonstrate the threats made by Cartel Members to Danaher
(and other manufacturers) and the manufacturers’ actions
to further the Cartel Members’ conspiracy and boycott
taken in response to those threats.
39. The Cartel Members have enforced their marginfixing conspiracy by enlisting suppliers to join their boycott of Archer Dental and other low-margin, independent
dental distributors and potential competitors that
threaten the Cartel Members’ ability to charge supracompetitive prices and maintain supra-competitive profit

48
margins. Specifically, the Cartel Members successfully
pressured Danaher to join their conspiracy and boycott
against Archer Dental, cutting Archer off from critical
products and suppliers, preventing Archer Dental’s
growth regionally and nationally, and eventually terminating all business between Archer Dental and Danaher.
For example, Danaher’s recently-discovered internal
communications state that “complaints [from Cartel
Members] finally reached the point of forcing [Danaher’s]
hands to restrict [Archer Dental] to his geographic location.”
40. But for the conspiracy and boycott by the Cartel
Members and Danaher, Archer Dental was poised for explosive growth both regionally and nationally. This boycott against Archer Dental has foreclosed Archer Dental
from successfully competing with the Cartel Members
and caused Archer Dental damage in the form of lost sales
and lost growth.
41. Since the filing of Archer Dental’s Original Complaint, the conspiracy and boycott complained of herein
have been the subject of private litigation and active government investigations, including: (i) a class action filed
on behalf of a group of dentists In re Dental Supplies Antitrust Litigation, E.D.N.Y, Case No. 1:16-cv-00696BMC-GRB (the “dentist class action”), (ii) an antitrust
suit filed by SourceOne Dental, Inc., an online distributor
of dental supplies and equipment, SourceOne Dental, Inc.
v. Patterson Companies et al., E.D.N.Y, Case No. 2:15-cv05440-BMC, (iii) an antitrust suit filed by IQ Dental Supply, Inc., a dental equipment and supply distributor, IQ
Dental Supply, Inc. v. Henry Schein, Inc. et al., E.D.N.Y.
Case. No. 2:17-cv-04834-BMC (iv) enforcement actions by
the Texas Attorney General’s Office against Benco, State
of Texas v. Benco Dental Supply Co., Case No. D-1-6N-

49
15-001386 (District Court, 353rd Judicial District, Travis
County, Texas), and Schein, State of Texas v. Henry
Schein, Inc., Case No. D-1-GN-17-003749 (District Court,
261st Judicial District, Travis County, Texas), both of
which resulted in agreed final judgments and stipulated
injunctions requiring Benco and Schein each to pay
$300,000 to the Texas Attorney General for its antitrust
investigations, agree to refrain from participation in anticompetitive activities, and implement an antitrust training program in order to settle the allegations at issue in
the cases, and (v) on information and belief, ongoing investigations of other Cartel Members by the Texas Attorney General, the Arizona Attorney General, and the Federal Trade Commission.
Cartel Members Schein and Burkhart Confirm the
Cartel Members’ Conspiracy
42. In 2004, Archer Dental’s authorized distribution
territory in its dealer agreements with Danaher allowed
it to sell equipment in Texas and parts of Oklahoma and
Northwest Arkansas. In addition to its strong Texas sales,
Archer Dental’s sales of equipment into Oklahoma and
Northwest Arkansas were strong. Looking to expand on
its success, Archer Dental explored the possibility of partnering with a company that already had a physical location in Oklahoma to further expand its sales in Oklahoma
and Northwest Arkansas. But when Burkhart Dental’s
manager in Oklahoma, Jack Powers, learned of Archer
Dental’s possible expansion plans, he called James
Archer, Sr. and begged him not to enter into Oklahoma in
a bigger way. Little did Archer Dental know at the time,
but Powers’s phone call was far more than just one old
friend making a plea to another; Powers’s call was part of
a broader conspiracy to stifle competition in the dental
equipment business.

50
43. In July 2004, Archer Dental entered into a business arrangement with Oklahoma-based dental distributor Dynamic Dental Solutions, Inc. (“Dynamic”) whereby
Dynamic would act as a sales representative for Archer
Dental for various equipment lines which Archer Dental
was authorized to sell. Archer Dental was billed by Danaher for the equipment Dynamic sold on Archer Dental’s
behalf, and Archer Dental paid Danaher for that equipment. Archer Dental had financial responsibility for the
equipment that Dynamic sold on Archer Dental’s behalf
and received a portion of Dynamic’s gross revenue.
Archer Dental itself continued to make sales in significant
volumes directly into Oklahoma and Northwest Arkansas
after Dynamic became its sales representative.
44. Archer Dental also intended to benefit from its arrangement with Dynamic by virtue of Dynamic’s access to
and experience with selling certain consumables. While
Dynamic already had access to a few consumables lines,
Dynamic intended to join the American Dental Cooperative (“ADC,” now known as NDC), a cooperative organization created to assist smaller, independent companies
compete against large national companies. Through that
membership, Dynamic and Archer Dental would receive
access to many of the more popular consumables lines, including, on information and belief, 3M, Kerr, DentSply,
and Vivadent.
45. At the time Archer Dental entered into its arrangement with Dynamic, Archer was an authorized
dealer of several dental equipment manufacturers including Pelton & Crane, Marus, DCIE, DentalEZ, and others.
Pelton & Crane, Marus, DCIE and others recognized Dynamic as an authorized branch location of Archer Dental.

51
46. As Archer Dental’s sales agent, Dynamic practiced
the same high-quality service, low-price philosophy practiced by Archer Dental. As a result, Dynamic’s sales grew
significantly in its first few years after its business arrangement with Archer Dental. Dynamic was so successful that, prior to being cut off by Pelton & Crane in February 2008, it became the top seller of Pelton & Crane
equipment in the Oklahoma territory and the number five
Pelton & Crain dealer in the entire country for 2007.
While Dynamic’s sales were growing at a substantial pace,
Schein, Burkhart, and Danaher conspired to eliminate
Dynamic’s ability to compete with the Cartel Members in
order to allow the Cartel Members to continue to earn
their supra-competitive margins. Once Dynamic’s annual
sales of equipment for the Pelton & Crane equipment line
reached almost a million dollars, the Cartel Members began to take notice, and they were not happy as Archer
Dental and Dynamic’s sales were cutting into their anticompetitive, inflated margins. Initially, the Cartel Members merely complained to the equipment manufacturers,
such as Danaher, about Dynamic’s competitive pricing. As
Dynamic’s sales continued to grow, however, Schein,
Burkhart, and Danaher in particular, escalated their attacks on Dynamic and Archer Dental.
47. In September 2007, in accordance with Archer
Dental’s and Dynamic’s plan to expand their consumables
sales, Dynamic applied to membership in the ADC. ADC
membership is vital to the ability of smaller, independent
dealers to obtain access to various lines of dental supplies
and equipment that these dealers could not otherwise obtain and was critical to Archer Dental’s and Dynamic’s
business plan. Dynamic’s membership application to ADC
was accepted and verbally confirmed in December 2007
by ADC and further confirmed by ADC providing to Dynamic a complete set of confidential, exclusive ADC price

52
sheets for items that ADC makes available to its members.
48. In early 2008, following the threats from the Cartel
Members, and before Dynamic could realize the benefits
of its membership, ADC revoked Dynamic’s membership
on the basis of unspecified “input received.” Archer Dental later discovered the “input received” came from Cartel
Members, and included Burkhart’s manager Powers’s
complaints to ADC about Dynamic’s low prices and insistence that ADC terminate Dynamic’s pending membership.
49. The Cartel Members and Danaher took other anticompetitive actions against Archer Dental and Dynamic
during this same time period in late 2007 and early 2008.
In Fall 2007, Dan Bump, Regional Sales Manager for Pelton & Crane, Marus, and DCIE, told the Archers that he
had been dealing with Schein complaints about Dynamic
and Archer Dental in Oklahoma. In a January 2008 email,
Bump states that he would be meeting the following week
with Schein and Burkhart, that both believed they had
lost significant deals due to Archer Dental’s and Dynamic’s low pricing, and that in response Schein and
Burkhart have “shown support to other manufacturers”
(i.e., had threatened to cease dealing with Danaher).
Bump and Wilson, the Pelton & Crane sales representative for the Oklahoma and Arkansas region, had also been
told repeatedly by Schein and Burkhart that they were
tired of the low margins and would cease selling Pelton &
Crane products unless Pelton & Crane stopped doing
business with Dynamic.
50. In January 2008, Schein’s Tulsa Manager Mark
Lowery threatened Danaher’s Pelton & Crane representative Don Givens. Lowery told Givens that Schein—
Pelton & Crane’s largest U.S. distributor—would stop

53
selling Pelton & Crane equipment if Pelton & Crane did
not stop doing business with Dynamic and Archer Dental.
51. Consistent with the coordinated and conspiratorial
scheme between Burkhart and Schein, in January 2008,
Burkhart’s manager Powers made the same threat to Givens and also to other dental equipment manufacturers, including Belmont. The threats from Schein and Burkhart
were clear—either stop selling equipment to Archer Dental and Dynamic because they are interfering with
Schein’s and Burkhart’s ability to continue to obtain anticompetitive, fixed prices from dental professionals to
whom they were selling, or Schein and Burkhart will stop
buying equipment from Danaher and Belmont. Nor was
the conspiracy limited to just Cartel Members Schein and
Burkhart. As discussed in detail below, Schein’s representative, Lowery, admitted that the margin-fixing conspiracy had been implemented “unanimously across the
industry [for] as long as [Schein’s representative had]
been in the dental business.”
52. By the time the Cartel Members began their coordinated boycotting activities against Archer Dental and
Dynamic, Danaher had acquired multiple lines of dental
equipment that had previously been manufactured by independent companies, including Pelton & Crane, Marus,
and DCIE. Danaher possessed, and continues to possess,
a dominant position in the dental equipment market. Danaher took the threats from Schein, Burkhart, and the
other Cartel Members seriously and agreed to join the illegal boycott, depriving Archer Dental of the ability to
distribute dental equipment it needed to compete effectively.
53. In response to the threats from Schein and
Burkhart, in January 2008, Pelton & Crane’s Regional
Sales Manager, Dan Bump met with Lowery of Schein

54
and Powers of Burkhart to discuss Archer Dental’s and
Dynamic’s prices and what to do about them. Bump also
met with Schein’s Little Rock branch. At the meetings,
Danaher, Schein and Burkhart collectively agreed that
Dynamic and Archer Dental would be cut off from selling
Pelton & Crane, Marus and DCIE dental equipment in
Oklahoma and Northwest Arkansas. Not only was Dynamic cut off from selling the various Danaher equipment
lines in Oklahoma and Northwest Arkansas, but Archer
Dental, which had separately been selling into those
states for years, was completely banned by Danaher from
selling into Oklahoma and Northwest Arkansas and was
restricted to selling in Texas only. With Dynamic and
Archer Dental removed as competitors, Schein and
Burkhart could continue their agreement to fix margins
on dental equipment sold to dental professionals. As the
quid pro quo for terminating Dynamic and cutting back
Archer Dental’s direct sales to Texas, Schein and
Burkhart promised Danaher (i) to continue to distribute
Danaher dental equipment brands, and (ii) to “make up”
the sales volume that Danaher would lose as the result of
restricting Archer Dental’s and Dynamic’s ability to sell
Pelton & Crane, Marus, and DCIE equipment. In fact, in
order to sufficiently make up the volume lost by restricting Archer Dental, Danaher secured promises for additional sales from Schein and Burkhart to make up for
Danaher’s sales that it would be losing by cutting off
Archer Dental and Dynamic in the area. Pelton & Crane
did not inform Archer Dental or Dynamic of the termination and restriction decisions at the time they were agreed
to by Schein, Burkhart, and Danaher.
54. The decision to restrict and terminate Archer Dental and Dynamic was a collective decision between and
among horizontal competitors, including at least Schein
and Burkhart, as well as their common manufacturer,

55
Danaher. The way in which the decision was communicated underscores that the decision was the product of collusion. Dan Bump, Pelton & Crane’s Regional Sales Manager, held a teleconference with Schein employees on
February 25, 2008 and announced to them that Dynamic
had been terminated from selling the Pelton & Crane line
of equipment and that Archer Dental had been cut back.
It was not until a week later, that Dynamic finally received
written notification that it would no longer be able to distribute Pelton & Crane, Marus, or DCIE products, and
Bump told Archer Dental that it could not sell past the
Red River and was restricted to selling dental equipment
within the State of Texas. Danaher restricted Archer
Dental to Texas as part of the illegal boycott and despite
Archer Dental’s distribution agreement permitting sales
in Oklahoma and Arkansas and its years of strong sales
within those states.
55. During the Oklahoma Dental Association meeting
on May 17, 2008, Skip Pettus of Dynamic was walking
down an aisle at the meeting and ran into Jack Powers,
the General Manager of Burkhart, and Ron Fernandez of
Schein who were involved in a conversation. Powers told
Pettus that the three of them should sit down and talk.
Powers also told Pettus “You have got to raise your
prices!” Then Mark Lowery of Schein walked up and
joined the conversation. Lowery and Powers proceeded
to explain the Cartel Members’ ongoing margin-fixing
agreement to Pettus and invited him to join it on behalf of
Dynamic and Archer Dental.
56. Disturbed by the content of the May 17, 2008 meeting, Archer Dental set out to determine what had really
been happening in the dental equipment industry. What it
would learn and be told by participants in the Cartel
would eventually lead to an investigation by the Federal

56
Bureau of Investigation into the margin-fixing activities
of the Cartel Members, in which Pettus with Dynamic was
enlisted as a confidential informant by the FBI.
57. On May 27, 2008, Pettus met with Burkhart manager Powers to investigate Archer Dental’s concerns that
anticompetitive conduct—conduct directed at Archer
Dental and others—was occurring and that the ringleaders were Schein and Burkhart.
58. During the meeting, Powers described the “trust”
relationship between Schein and Burkhart—an unusual
adjective to describe the relationship between two companies that publicly present themselves to their customers
as competitors. Powers further explained that Burkhart
will not compete with Schein in situations in which
Burkhart knows that Schein has already begun talking
with a dental professional to sell dental equipment. Powers will simply tell the dental professional that they should
buy their equipment from Schein. As Powers described it,
his counterpart at Schein “knows that I’m not going to go
behind his back and try to get that customer.” When a
dental professional asks Burkhart to provide a price on an
item that Schein has already offered to sell that customer,
Burkhart simply tells the dental professional, “I want you
to buy [the items] from Ron [a Schein salesman].”
59. Powers, like his counterpart at Schein, explained
to Pettus that he wanted to be “on the same playing field”
with his competitors—including Schein and the other
Cartel Members Benco and Patterson. In an effort to facilitate bringing Archer Dental into their unlawful agreements, Powers even agreed to contact his counterparts at
Schein to encourage a meeting with Pettus.
60. On June 2, 2008, Pettus met with Schein manager
Mark Lowery. That meeting was even more revealing

57
about the ongoing anticompetitive agreements between
Schein, Burkhart, and the other Cartel Members. Echoing the almost identical words of Powers, Lowery remarked to Pettus: “I think when everyone plays on the
same playing field, it makes things a whole lot easier.”
Lowery also explained that he “like[s] [Powers
(Burkhart)]” and considers Powers (Burkhart) a “good
competitor.”
61. Lowery explained in great detail how the Cartel
Members enforce their unlawful agreements and stay on
that same “playing field.” First, Lowery noted that the
way that small companies, like Dynamic or Archer, can
“start getting market share” is to lower their margins. He
then explained that the Cartel Members would not tolerate such low-price competition, saying: “[w]e all have the
ability to drop our drawers [lower prices] . . . [b]ut, you
know, I think that’s . . . that’s part of the mutual respect
with Jack [Powers, of Burkhart] and us, because we all
know that: Do you know what? We all want to make a living . . . we all . . . all are going to sell it at a . . . at a good
price where we all get paid.”
62. Lowery further explained how the Cartel Members implement their agreement using the example of a
situation where, if Schein is talking to a customer and that
customer calls Burkhart to check a price, Burkhart manager Powers “step[s] out of it . . . [he’s] not going to bid it”
because Burkhart “wants to maintain a certain [gross
profit].” Similarly, if Schein receives a request for price
from a customer, in the interest of “keeping the integrity
of margins,” (i.e., the conspirators’ code phrase for keeping prices artificially high), Schein is “not going to talk
about price” because Schein does not want to be “slugging
it out [with competition] and killing each other on margins.”

58
63. Lowery also acknowledged the existence of the
margin fixing agreement, where Cartel Members would
not want to undercut one another’s prices, stating: “If
[customers are] price checking you . . . that’s the time to
drop your drawers . . . [but] that obviously muddies up the
water . . . so, you know, I know probably Jack [of
Burkhart] won’t do that [drop his drawers (i.e., lower
prices and margins)]. . . . I think that’s just keeping the
integrity of the margins . . . If they [low-cost dealers] want
to sell without [high] margin, I’m not even going to price
it out.”
64. Confirming Lowery’s intentions, Pettus asked,
“What I’m hearing you say from a company standpoint,
. . . [our] margins [have] got to be better, especially on
equipment.” Lowery responded, “Yeah. . . . That seems to
be the Achilles heel.” Pettus confirmed: “[Our] [l]ow margins on [dental] equipment?” Lowery responded, “Yeah.”
65. Pettus then “cut right to the . . . chase.” He told
Lowery “. . . We’ve got some you know, there’s indicators
by—by manufacturers that there’s—there’s been direct
talk from you and others of: Hey . . . we just don’t want
him [Archer Dental and Dynamic] in existence. Don’t
open him. Don’t do whatever.” Then Pettus asked,
point-blank: “If we raise our prices, can we get relief from
that? . . . If I raise my margins on equipment to an acceptable level . . . can there be relief?”
66. Lowery responded, “What—what we don’t want to
do is come across that we’re . . . dictating the price to the
end user. That will get us in a lawsuit . . . Guarantee you.
But you know, a couple things: one is I think when everyone plays on the same field, it makes things a lot easier.”
In other words, Lowery did not want to get caught dictating price or margin, but that is exactly the “playing field”

59
he tried to have Dynamic (and Archer Dental) agree too
for the rest of the conversation.
67. Lowery also told Pettus “if we’re both quoting a
deal, let’s make sure that we’re both getting the same
thing.” And Lowery confirmed that the conspiracy was
not limited to just Schein and Burkhart, but extended to
the other Cartel Members. Specifically, Lowery said: “I
don’t
about the rest of it . . . And, you’re selling
it . . . if you’re not going to be selling it, Jack’s [Burkhart]
going to be selling it. If he isn't going to be selling it, Patterson is going to be selling it.” In the same conversation,
Lowery also said that this margin-fixing conspiracy was
implemented “unanimously across the industry [for] as
long as [he had] been in the dental business.”
68. Lowery further admitted that the purpose of getting Pettus (and therefore Dynamic and Archer Dental)
to fall in line is to prevent competition that would have a
downward effect on price.
So I’m going to compete against somebody there, but
I just want to make sure we’re all on the same page
we’re all on the same page . . . and we’re all doing . . .
because the next time one of your good customers goes
out and buys a piece of equipment, if they used to be
our good customer and they shopped us, and somebody else was—you were lower on the price, much
lower, dramatically lower, they quit doing business
with us, they’re going to take your price and they’re
going to shop you to someone else.
69. The Cartel Members enforce their unlawful agreement by staying in close contact. For example, when there
are “issues [as in someone charging too low a margin],”
Lowery [Schein] and Powers [Burkhart] call each other
and ask “what’s going on?” Lowery confessed, “I have no

60
problem calling [Powers] up and going what the hell are
you doing, Jack? Are you trying to screw me over here?”
70. Lowery also explained to Pettus how Schein and
Burkhart have brought manufacturers, including Danaher, into the fold by utilizing the manufacturer representatives to enforce the margin-fixing agreement in two
ways: (1) agreeing with the manufacturers that they give
all dealers the same deal so that all the dealers are “on the
same playing field”; and (2) terminating or restricting
competing dealers who refuse to play on the same field
and sell at the same high prices at which Schein and
Burkhart agree with each other to sell.
71. Lowery reiterated to Pettus that the only way that
Schein would leave Dynamic alone and cease the boycotting agreement was for Dynamic to “play on the same
field.” In other words, so long as Dynamic maintained
margins high, Lowery “[doesn’t] care.” He just wanted his
competitors to “have the same goal in mind.” Lowery
bragged that he “knows [Powers]. You guys [Dynamic]
are the unknown.” He expressed concern that Dynamic
will “give away margin” whereas Burkhart will not. He
even went so far as to gloat that he thinks it is “terrific”
when Burkhart gets “full boat [i.e., fill profit margin]” on
a sale; he’s “happy” with that.
72. Acknowledging the need to keep the margin-fixing
conspiracy secret, Lowery instructed Pettus to “make it
invisible with the customer because we don’t want to compromise that end of it and make it look like we are . . .
having a big conspiracy going on . . . .” Lowery observed
that if Dynamic offered a price based on its usual margin
percentage and Schein offered a price based on its usual
margin percentage (a percentage significantly higher
than Dynamic’s), it just made the higher priced company
“look like you’re really trying to gouge the doctor.” That

61
does not happen, however, when competitors are adhering to the unlawful agreement. Because of the anticompetitive agreements with competitors, Lowery boasted
that he can give a customer a price “with confidence” and
tell them to “go ahead” and do a price check because he
secretly knows that the customer will not be offered a
lower price by a competitor.
73. Lowery complained to Pettus that had Dynamic
not made Schein “look stupid” by offering lower prices
and had Dynamic been “upon the level playing field” (i.e.,
charging the same high prices as Schein), then everything
would have been “hunky dory”; Schein and Burkhart
would not have complained to Pelton & Crane; they would
not have entered into an agreement to cut off Dynamic;
and Dynamic would still have the Pelton & Crane line.
Danaher Joins the Conspiracy and Boycott to
Foreclose Archer’s Growth and Ability to Compete
Through Dynamic or Through its Own Operations
74. In 2008, Danaher subsidiary Pelton & Crane terminated Dynamic as an Archer Dental branch location,
ending Dynamic’s ability to carry Danaher products. Danaher also prevented Archer Dental from selling Danaher
products in its contractual territory. As discussed in detail
below, Danaher’s actions reflected its decision to join the
Cartel Members’ conspiracy and boycott Archer Dental
and Dynamic.
75. As a result of Defendants’ boycott, Dynamic was
on the verge of closing its business by 2009. In May 2009,
however, Benco, a Cartel Member, acquired Dynamic and
subsumed Dynamic’s operations into Benco’s. Shortly
thereafter, Danaher authorized its co-conspirator Benco
to distribute its products in Dynamic’s former territory.

62
In other words, when Dynamic refused to join the conspiracy, Danaher and the Cartel Members boycotted Dynamic. Once the boycott effectively drove Dynamic out of
business, Benco (a Cartel Member) acquired Dynamic.
Danaher then re-authorized Dynamic (now owned by its
co-conspirator Benco), to sell Danaher’s product through
the same representatives in the same territory.
76. But Archer Dental had carried Pelton & Crane,
Marus, and DCIE products since the 1990s. Before entering the business relationship with Dynamic, Archer Dental sold these products in Texas, Oklahoma, Northwest
Arkansas, and Southern Louisiana—Archer Dental’s
approved geographic territory. Accordingly, Archer Dental planned to continue to sell products in Oklahoma and
Northwest Arkansas, as well as open a branch under its
own name in the Tulsa area. Despite Archer Dental’s contractual right to operate in these areas, however, Danaher
told Archer Dental that it could not ship or sell any products outside of Texas.
77. On at least two occasions, Archer Dental confirmed
that Danaher was prohibiting Archer from selling in outside of Texas. On one occasion, Archer Dental tried to sell
LED lights into Tulsa. Defendant Pelton & Crane permitted this one sale, but told Archer Dental that it would be
terminated if it tried to make future sales in Oklahoma.
On the other occasion, Archer Dental tested whether it
could sell a Marus product in Arkansas. Defendant Marus
prohibited the sale. In addition to denying Archer access
to its contractual territory in response to threats from
Cartel Members Schein and Burkhart, Danaher agreed
with Schein and Burkhart to have each of them make up
the sales that otherwise would have been made by Archer
Dental in Oklahoma and Arkansas.

63
78. In late 2008 or early 2009, Kirk Zambetti, Mark
Skinner, and Don Givens, all from Defendant Pelton &
Crane, met with Jim Archer Sr. and Jim Archer Jr. at
Archer Dental office. Zambetti and Skinner were both relatively new to their positions. Zambetti was the North
American VP of Sales for Defendants (and Danaher subsidiaries) KaVo, Pelton & Crane, and Marus. Skinner had
replaced Dan Bump as Regional Sales Manager. During
the meeting, the Archers raised the issue about Dynamic’s termination and the territorial restriction placed
on Archer Dental. Zambetti and Skinner said that Archer
Dental was a good dealer, they were not sure why this
happened, and they would look into it. During this meeting, Archer also inquired whether Danaher would open
the Gendex line to Archer Dental. Pelton & Crane,
through Zambetti, stated that it was prepared to offer
Archer Dental a “worldwide” distributorship on the purchase of certain sterilizer products.
79. In May 2009, Zambetti forwarded a new-dealer
agreement between Pelton & Crane and Archer Dental.
This agreement authorized Archer Dental to sell Pelton &
Crane products within a 250-mile radius of its location and
West Texas, as well as to sell certain specified sterilizer
products nationally.
80. After receiving the new dealer agreement, the
Archers met again with Zambetti, Skinner, and Givens in
Summer 2009. The 2009 agreement established Archer
Dental’s sales territory as a 250-mile radius from Archer
Dental’s offices in Plano, Texas. This gave Archer Dental
the right to re-open sales in Oklahoma and Northwest Arkansas (among other places). In light of the new agreement, Archer Dental specifically raised the issue of the
oral, “Texas Only” territorial restriction previously enforced by Danaher. Despite the new dealer agreement

64
granting Archer Dental authority to sell Pelton & Crane
products in Oklahoma and Northwest Arkansas (and anywhere else within 250 miles of Plano, Texas), Zambetti
told Archer Dental that “you cannot go back up there,”
that “he [Zambetti] was not there when it [the restriction
to Texas] happened,” that “it was not his fault,” and that
Archer Dental should “get over it, move on and don’t
bring it up anymore.”
81. In 2010, Pelton & Crane and Marus placed further
restrictions on Archer Dental’s ability to compete with the
Cartel Members in Texas—stating that Archer Dental
was not to pursue any potential customer if Schein was
already speaking with the potential customer.
82. Also in 2010, Pettus (formerly with Dynamic, now
with Benco) spoke to Chuck Cohen, Benco’s Managing Director, and informed Cohen that Archer Dental was considering filing a lawsuit against Schein and Burkhart
based on the conspiracy alleged herein. Despite Benco’s
purported acquisition of Dynamic’s causes of action, it had
no interest in pursuing claims against its fellow Cartel
Members, Schein and Burkhart. Instead, in August 2010,
Cohen called Archer Dental and offered to pay Archer
Dental between $600,000-$1,000,000 if it did not file a lawsuit against Schein and Burkhart. While Archer Dental
noted the oddity of Benco’s efforts to settle claims on behalf of its ostensible competitors, at the time, it did not
have access to the non-public communications and other
recently-discovered information that reveal the extent of
Benco’s participation as a Cartel Member and co-conspirator. Now, having received some of those documents—including communications showing that Danaher’s decisions to curtail Archer’s geographic territory
and terminate Dynamic were made in direct response to
demands from Cartel Members (discussed supra) and

65
communications regarding Danaher’s 2014 termination of
Archer Dental in furtherance of the Cartel’s ongoing conspiracy (discussed infra)—Archer is able to appreciate
Benco’s actions for what they were: an attempt by one
Cartel Member to conceal its activities and those of its coconspirators.
83. In 2012, Danaher compounded the restrictions on
Archer Dental. Zambetti (Danaher’s Vice President of
sales for KaVo, Pelton & Crane, and Marus) told Archer
Dental that it could not “steal Schein’s customers,” i.e.,
doctors approached by Schein. Zambetti threatened that
if he heard that Archer Dental had stolen a Schein customer or another dealer’s customer, he would terminate
all of Archer Dental’s dealer agreements with Danaher
companies. When asked how Zambetti knew whether a
particular customer was a Schein customer, he responded
that he knew. In other words, Danaher, through Zambetti, required Archer Dental to ask each potential customer whether the customer was speaking to another
dealer and, if so, to forego any sales to that customer.
The Cartel Members and Danaher Agree to Restrict
Archer Dental’s Instrumentarium Distribution
84. During the time that the sales of Archer Dental’s
Oklahoma branch were growing exponentially, it was
agreed in September 2007 during the American Dental
Association meeting with Instrumentarium management,
John Franz and Mike Null, that Archer Dental would be
the first hybrid, national dealer of Instrumentarium dental imaging equipment. A hybrid dealer is one that sells
nationally from a single location with no geographic restrictions, in contrast to the limited geographic territories
that may be placed on other dealers. The announcement
of Archer Dental’s new status as the first national hybrid
dealer was made by Instrumentarium management to all

66
Instrumentarium equipment sales representatives at the
Instrumentarium national sales meeting in 2007. The appointment of Archer Dental as Instrumentarium’s first
national hybrid dealer was a significant achievement for
Archer Dental. As an independent, family-owned business
in Plano, Texas, it had established the type of reputation
that enabled it to be permitted to sell the cutting-edge,
high-end dental imaging equipment made by Instrumentarium, throughout the U.S.—a distinction no other small,
independent dealer had been given. At the same meeting,
Instrumentarium honored Archer Dental for becoming
Instrumentarium’s 5th largest U.S. distributor.
85. Archer Dental quickly demonstrated why it had
received the national hybrid dealer appointment. Archer
Dental experienced significant sales increases of Instrumentarium equipment. In fact, Archer Dental experienced 90% sales growth each year in the two years it was
a national Instrumentarium distributor.
86. With the sales growth of Instrumentarium equipment by Archer Dental, it became obvious to Schein and
the Cartel Members that they were continuing to lose
business to Archer Dental. Due to Archer Dental’s competitive pricing of Instrumentarium equipment, Schein’s
and the Cartel Members’ margin-fixing agreement was
threatened. Schein and the Cartel Members therefore decided to widen their anticompetitive campaign against
Archer Dental to further restrict its distribution territory
and decrease competition. They initially began complaining to Instrumentarium about Archer Dental’s pricing.
But as with their tactics in Oklahoma, Cartel Members
Schein and Burkhart (at least) escalated their threats,
telling Instrumentarium that they would not sell Instrumentarium products unless Instrumentarium boycotted
Archer Dental.

67
87. Once again, the manufacturer—this time Instrumentarium—decided to join the conspiracy rather than
exercise independent business judgment. Instrumentarium gave the Cartel Members veto power over Archer
Dental’s sales. For example, in March 2008, Instrumentarium asked Archer Dental to “not quote” a dentist in Illinois because of complaints from Schein and Patterson.
In October 2008, Archer Dental was directed to “back off”
by the Director of Sales for Instrumentarium from a sale
to a dentist in the State of Washington because Burkhart
had been working with this dentist and Instrumentarium
could not allow the dentist to insist on getting a “lower
price out of a local dealer.” In other words, Instrumentarium prohibited Archer Dental from making a sale of Instrumentarium equipment in order to force the dentist to
pay Burkhart’s higher price for dental equipment. Also, in
October 2008, Instrumentarium instructed Archer Dental
to “withdraw” a proposal for a California dentist if the
proposal covered his California office, because Patterson
also submitted a proposal and was “claiming foul.” In December 2008, Instrumentarium prohibited Archer Dental
from selling equipment to a Wisconsin dentist As the Director of Sales of Instrumentarium, Mike Null, explained
to Archer Dental, “This is Schein’s backyard and Schein
is raising hell about your current pricing.” Also in December 2008, Instrumentarium instructed Archer Dental to
tell two doctors in Pennsylvania and Maryland that it
could not sell the systems quoted to them. Instrumentarium said that the quotes were “considerably lower than
the other dealers and considerably below the market
prices for these system” and the quotes had “caused [Instrumentarium] a considerable problem for both of the
dealer stores in those areas and with their management.”
Null later told Archer Dental that the local dealers at issue were Patterson and Benco. Beginning in or around

68
late 2008, Instrumentarium required Archer Dental when
selling outside of its traditional area to ask doctors
whether they were already talking to “local dealers” (on
information and belief, the Cartel Members) and to contact the Instrumentarium local representative when it appeared that the doctor was serious about moving forward
with a purchase. Archer Dental believes that when it notified the Instrumentarium local representative regarding an opportunity with a doctor for pre-approval, the local representative would notify the “local dealers” (i.e.,
Cartel Members) of that same opportunity, and Instrumentarium would then require Archer Dental to withdraw from pursuing the customer. Additionally, if the doctor said that he had talked with a “local dealer” (i.e., Cartel Member) Instrumentarium required Archer Dental to
decline making any type of bid or quote to the doctor.
88. Instrumentarium’s decision to join the Cartel
Members’ conspiracy and to boycott Archer Dental is reflected in recently-discovered communications between
Instrumentarium and Schein. For example, on December
12, 2008, John Franz, the General Manager of PaloDEx
Group (Instrumentarium’s owner at the time), wrote an
email to Don Hobbs, Schein’s Vice President of Equipment Sales, copying Mike Null, Instrumentarium’s Vice
President of Sales. In the December 12, 2008, email,
Franz states:
Don [Hobbs], We heard you loud and clear. Mike and
I discussed the [Archer Dental] situation and we will
clip his wings, just give us a few days to get it done.
I’ll be back to you on this.
89. Franz’s December 12, 2008 email, that was only recently produced in this litigation, reveals what Archer had
previously suspected, that Instrumentarium made the decision to “clip [Archer Dental’s] wings” (i.e., the decision

69
to restrict Archer Dental’s nationwide territory to Texas
only) in direct response to the threats made by Schein—
threats that Danaher “heard loud and clear.”
90. Instrumentarium’s boycott continued in 2009. In
March 2009, Schein and Patterson complained on the exact same day to Instrumentarium about an Archer Dental
quote for a California dentist, which led Instrumentarium
to prohibit Archer from making the sale. Mike Null also
noted that Burkhart was pursuing this sale. Also in March
2009, a Nevada oral surgeon wanted to exchange an Instrumentarium product, an OP200D, that he had recently
purchased and had been installed in January 2009, for another Instrumentarium product, a Scanora. After the installation of the OP200D, a software glitch was discovered
that prevented it from providing a specific image that the
doctor needed in his practice. Instrumentarium would
agree to the exchange only if the doctor purchased the
Scanora from a “local dealer” (later revealed to be
Schein). Also in March 2009, Instrumentarium told
Archer Dental that it could not make a sale to a California
doctor because he was “a Henry Schein customer.” In
April 2009, Instrumentarium revoked Archer Dental’s nationwide dealer status and relegated Archer Dental to distributing only in Texas. Instrumentarium said that the decision was, in part, because “these situations always draw
the attention and ire of the corporate management regardless of which dealer it may be. I received two calls of
this nature today.”
91. These were not isolated incidents. Recently-discovered Instrumentarium emails reveal that Instrumentarium restricted Archer Dental’s right to distribute Instrumentarium products as part of the Cartel Members’
conspiracy, and in response to threats from the Cartel
Members. For example, Instrumentarium required “local

70
dealer” involvement with the potential Scanora sale to the
Nevada oral surgeon only after receiving complaints from
Schein. A January 29, 2009, email from Roy Dickson
(Schein) to Ryan Neilson (Instrumentarium) and Mike
Null (Instrumentarium) concerned Schein’s objections to
Archer Dental’s sales in Las Vegas, Nevada. In response,
Mike Null warned John Franz that “[t]here’s a
brewing [at Schein]” and that Franz “may get a call from
[Don] Hobbs.” This email followed Null’s 2008 comments
to Archer Dental that, “You [Archer Dental] can’t believe
what an issue you’ve become at Schein corporate.” In a
second example, David Marchal (an Instrumentarium employee) sent an email to Mike Null and John Franz on
March 27, 2009. Marchal’s email recounts Patterson’s reaction to Archer Dental’s authorization to sell Instrumentarium equipment in Florida. In that email, Marchal admits that Null met with Patterson in 2008 and “emphasized that [Null was] cleaning up the distribution chain,”
e.g., by eliminating Archer Dental and other independent
distributors. According to Marchal’s email, Patterson’s
representative in Florida “conveyed that message to me
today [that Instrumentarium needs to eliminate Archer
Dental]” in response to Instrumentarium allowing Archer
Dental to distribute its products nationwide.
92. On April 3, 2009, John Franz, the General Manager
of the PaloDEx Group (the group that oversaw Instrumentarium) sent an email to Tinna Holko also an employee of the PaloDEx Group, with the subject “Archer
and White.” In that email, Franz confirmed that Instrumentarium’s restriction of Archer’s territory to the state
of Texas was a direct response to “continuous complaints
from our traditional dealers concerning Archer and White
and their ability to sell at low prices based on not having
the overhead of local stores, service personnel, etc. etc.”

71
93. On information and belief, these “traditional dealers” are a reference to the Cartel Members and demonstrates that Instrumentarium’s territorial restriction of
Archer Dental was done at the behest of the Cartel Members, notwithstanding the pro-consumer and pro-competitive impact of Archer Dental’s low prices. Moreover, regarding the dealer complaints that Archer Dental did not
have local stores and service personnel, Schein is a 45%
owner of Darby Dental, and Darby Dental is an internetbased dealer of dental equipment that sells nationwide
and, like Archer Dental, contracts with a network of independent service technicians.
94. As described in detail below, the so-called “complaints” referenced by Franz include direct threats that
the Cartel Members would refuse to do business with Instrumentarium unless Instrumentarium refused to do
business with Archer Dental. According to Franz’s email,
as of 2009, the so-called “complaints” had “finally reached
the point of forcing our hands to restrict [Archer Dental’s]
selling to [Archer Dental’s] geographic location.” In the
same email, Franz acknowledges that its actions were
against Instrumentarium’s own financial interest s as
Franz projects that the Archer Dental will reduce the
amount of sales to Archer Dental by approximately
$600,000 in 2009 alone.
95. Schein informed Instrumentarium representatives
that they could not even set foot in Schein showrooms, and
that Schein threatened that they would not sell Instrumentarium equipment, until Instrumentarium terminated Archer Dental’s ability to distribute Instrumentarium equipment on a national basis.
96. Ultimately, Instrumentarium caved to the threats
from the Cartel Members, and terminated Archer Dental’s national distribution rights by letter dated April 2,

72
2009. Using language suspiciously similar to Schein manager Lowery’s references to “margin integrity,” Instrumentarium stated that it was reducing Archer Dental’s
distribution territory from national distribution to the
State of Texas in part because of “the integrity of its enduser pricing.” In one fell swoop, Archer Dental went from
selling over $1.2 million of Instrumentarium equipment in
2009 to $100,000 in 2011. And dentists outside of Texas
lost their competitive alternative and instead have been
forced to pay prices fixed by agreement between the Cartel Members, with the knowledge and complicity of Instrumentarium. Later, Instrumentarium’s Mike Null
apologized for cutting back Archer Dental’s national distribution rights. Null stated that he had been under pressure from Schein, Patterson, and the other Cartel Members to cut off Archer Dental’s national distribution rights
and that he had to send them copies of Instrumentarium’s
letter terminating Archer Dental’s national distribution
rights.
97. In October 2009, Danaher announced that it had
entered into a definitive agreement to acquire the
PaloDEx Group, including Instrumentarium.
The Cartel Members and Danaher Agree to Restrict
Archer Dental’s KaVo Distribution Rights
98. Archer Dental distributed KaVo hand pieces from
at least the mid-1980s to the late 1990s or early 2000s.
Archer Dental was highly successful selling KaVo hand
pieces nationwide, and Schein was interested in purchasing Archer Dental to take over its nationwide sales. After
Archer Dental declined Schein’s purchase overtures,
KaVo terminated Archer Dental’s distribution rights.
99. In 2006, KaVo renewed its dealer relationship with
Archer Dental. The 2006 agreement, however, restricted

73
Archer Dental’s sales to a specified geographic area surrounding Archer Dental’s office.
100. During a 2010 telephone call with Kirk Zambetti
(a representative of the Danaher brands including KaVo),
Archer asked whether Archer Dental could get back its
nationwide distribution territory for KaVo products.
Zambetti responded that there was no way he could do
that because he could not figure out a way to protect the
margins demanded by “other dealers” (on information
and belief the Cartel Members). Zambetti made clear that
there was no change in the restriction on Archer Dental’s
ability to distribute KaVo products, consistent with the
territorial restriction on Pelton & Crane products. Zambetti also said that Schein had an exclusive right to market
KaVo nationwide but that Archer Dental still might be
able to market KaVo in various other states. Zambetti reiterated, however, that Danaher was concerned with how
it could protect other dealers’ margins.
The Cartel Members and Danaher Agree to Restrict
Archer Dental’s Distribution of Gendex Products
101. Archer Dental was an authorized Gendex dealer
through 2005, when Gendex terminated Archer Dental’s
distribution rights. Starting in 2006, Archer Dental made
numerous and continued attempts to regain the line. In
2008, Archer Dental asked Bump about reopening the
Gendex line to Archer Dental. Also, in 2008 or 2009,
Archer Dental asked Zambetti about a dealer agreement
with Gendex. Zambetti responded that giving Archer
Dental a Gendex line would destroy their Dallas market.
102. In 2009 or early 2010, Eric Beard, of Gendex, told
a Pelton & Crane representative that he could never open
Archer Dental because of the pressure from other dealers
(on information and belief, the Cartel Members) and he

74
would lose all of his other business around town [Dallas].
Beard also said that Danaher management agreed with
him on the exclusion of Archer Dental.
103. Upon information and belief, Zambetti’s and
Beard’s comments about “destroying the market” and
“pressure from other dealers” relate to Archer Dental’s
business model that included price competition, and the
refusals to approve Archer Dental as a Gendex dealer
were made in furtherance of the Cartel Members’ conspiracy in order to protect their supra-competitive margins on Gendex products.
In 2014, Danaher Terminates Distribution Agreements with Low-Margin Distributors, Including
Archer Dental, in Response to Threats from the
Cartel Members
104. As described above, Danaher had received
threats from “traditional dealers” (on information and belief, the Cartel Members) since 2009, at the latest. In fact,
in 2009, the PaloDEx Group described those threats as
“continuous” and as “finally reaching the point of forcing
our hands.” But the Cartel Members and Danaher did not
abandon their conspiracy following the filing of the Original Complaint in this matter.
105. To the contrary, at 1:22 am on September 1,
2012—the day after Archer filed the original complaint—
Schein employee Matt Zolfo sent an email to Don Givens,
Danaher’s Pelton & Crane representative; Kirk Zambetti,
Danaher’s North American VP of sales for Danaher’s
KaVo, Pelton & Crane, and Marus lines; and William
Popek, on information and belief a sales director for Defendant KaVo. The subject line of Zolfo’s email reads:
—Archer & White Proposal.” In the email,

75
Zolfo notes that Archer Dental has offered a Marus Nustar Chair and Duo Delivery unit at a 14% and 17% margin.
Zolfo also states that the offer referenced in the email is
“[y]et another Archer & White Example” and that Archer
Dental’s margins “doesn’t entice me to support Marus as
a value line brand moving forward.” In other words, Zolfo
threatened Danaher the day after Archer Dental filed its
Original Complaint, clearly implying that if Danaher continued to do business with Archer Dental, it would not do
business with Schein.
106. That same day, Zolfo sent an email to Mike Hall,
Midmark’s regional manager, with the same subject line,
complaining about Archer’s 19.71% margin. Similar to the
Danaher email, he warned that “[i]f [Archer Dental is]
truly a distributor for your product line, this doesn’t entice me to support your brand holistically as my go-to air
& vac brand moving forward.” Hall responded, “If we cut
Archer and White off in 90 days, which I can do, will we
get more of your business, not only air/vac but also operatory?” Zolfo then admitted that “[o]ur goal is to effectively price [Archer] out of business,” and he told Hall
that though Midmark “may not legally have grounds to
dictate [Archer’s] pricing structure,” they “sure as heck
have an arsenal of other tactics to clean up their distribution.” He further informed Hall that “[o]ther manufacture[r]’s have tried the following just to name a few”: increasing their quota, lessening their discounts, delaying
their shipments, denying them free goods, and encouraging “professional pricing strategies.” Josh Veltri responded, “We have your back dude. I will make sure we
get this taken care of and have you protected!!” Zolfo responded simply, “We’ll need to discuss off line.” In other
words, Zolfo made the same threat to Midmark as he did
to Danaher and in return received Midmark’s assurance
that it would “protect” him.

76
107. Benco also continued to make threats to Danaher.
In or around 2012 to 2014, Archer Dental was competing
with Benco for a sale of KaVo products. The Benco sales
representative, Derek Hunt, eventually won the sale, but
he had to reduce his margin to compete with Archer Dental’s prices. Rather than lose the margin, however, he
forced Danaher to make up for the reduced margin,
threatening that if Danaher refused, Benco would stop
purchasing Danaher products altogether.
108. Additional Danaher and Cartel Member emails—
all of which were unknown to Archer Dental and were not
discovered until they were produced over the past four
months—establish that the conspiracy among the Cartel
Members continued into 2012 and beyond, focusing on the
boycott of independent distributors like Archer Dental.
The same previously-secret emails also show that Danaher’s decision to join the Cartel Members’ conspiracy and
boycott was made by Danaher senior management.
109. For example, Danaher’s senior management reacted to threats from Cartel Members by pressuring its
own employees to eliminate independent dealers like
Archer Dental. Specifically, in October 2012, Mike Null,
the Vice President of Sales for Instrumentarium, sent a
series of emails to Steven Lezon, an Instrumentarium
sales representative, copying John Franz. In these emails,
Null pressured Lezon to reconsider his relationship with
another independent dealer, Diversified Dental (“Diversified”). Specifically, in response to complaints from Schein
and Burkhart, Null wrote that:
Fully realizing that a quarter of million in your sales
YTD have come from Diversified Dental, I think that
you still have to ask yourself if having Diversified as
one of your dealers is a good business decision, considering that they are causing significant problems for

77
you in your territory, with your two largest dealers
and with us as a company at the national level.
Null then expressly included Patterson in his direction to
Lezon, stating.
You also need to start generating some sales at Patterson and if Diversified is going to be a problem with
this, then it is your three largest dealers with which
Diversified is causing problems.
110. Null also directed Lezon to “[k]eep [Null and
Franz] posted so that we can keep upper management at
Schein and Burkhart informed,” confirming ongoing coordination between at least Schein, Burkhart, and Danaher.
In response. Lezon expressly linked the Schein and
Burkhart statements to similar threats that Danaher received about Archer Dental. As discussed in greater detail
below, the pressure from “upper management” of the
Cartel Members eventually caused Danaher to terminate
Archer in 2014. On information and belief, Danaher also
terminated Diversified at or around the same time based
on similar pressure from the Cartel Members. In 2013,
Schein continued to complain to and threaten manufacturers, including Danaher and Midmark Corporation (“Midmark”), concerning Archer Dental’s margin-based competition. On October 14, 2013, Casey Schulin, a Schein
Equipment Specialist, sent an internal email to Don
Hobbs, and Dean Kyle, Schein’s Zone General Manager
and National University Recruiter. Schulin’s internal
email string forwarded a “Sales Order from Archer and
White” and the corresponding complaint that Schulin sent
to Jimmy Renfro, an Instrumentarium sales representative. In the email to Hobbs and others at Schein, Schulin
states that Archer Dental is competing with Schein in
Houston, Texas by quoting Danaher Products at “20% gp
[gross profit]” and asks, “[i]s there anything we/you guys

78
can do to combat this?” Schulin also reveals that he had
“emailed this quote to my Instrumentarium rep to see
what he can do for us” and that Midmark had already
agreed to exclude Archer from Houston in furtherance of
the Cartel’s margin-fixing conspiracy.
111. The next day, October 15, 2013, Dean Kyle responded by complaining that Archer Dental “sell[s]
cheap,” stating that as a result “[he] would advise that we
not lead with [Danaher] gear that Archer can sell,” and
instructing Schulin to “reach out to the [I]nstrumentarium rep.” After Schulin followed up with his Instrumentarium representative and reported the results, Hobbs instructed the other Schein employees to stop sending
emails on the topic of Archer Dental. (“Enough email on
this topic please.”) Hobbs then directed Schein employees
Michael Herrin and Dean Kyle to “talk live tomorrow.”
112. Also on October 15, Dan Colombo (another Schein
employee copied on the email exchange described above)
sent an email to Danaher representative Renfro, stating:
This is ridiculous. We need help on this. I know it’s
not your fault that DANAHER chooses to sell through
dealers like Archer who don’t even
have people to service the unit down here in Houston
but they do and you need to take part in this low
price like we do. 5% is just not good enough bud.
Send this onto your manager and tell him we are in
this situation because yall choose to sell through
Archer and we need a much higher discount than 5%!
This email from Schein to Danaher reflects that Schein’s
tactics in pressuring Danaher to terminate Archer Dental
were also accompanied by a disparagement campaign
where Schein referred to Archer Dental as a
dealer in its communications with Danaher. And

79
Schein falsely attacked Archer Dental’s service capabilities as Archer Dental had a network of service technicians
that it had used for years from coast-to-coast and had successfully provided high-quality, nationwide service to its
customers.
113. Renfro responded on October 16, 2013, confirming that Danaher was on the verge of terminating Archer
in response to Schein’s threats: “Trust me I’ve been talking about this for years, it’s in the works for them [Archer
Dental] to be done.”
114. The Cartel Members did not limit their threats to
Danaher’s Instrumentarium line. They also targeted Aribex, a part of Defendant KaVo. Aribex manufactures the
Nomad, an extremely popular handheld x-ray machine.
Archer Dental had heard from two different Aribex representatives as early as 2012 that Schein and Patterson
had “raised hell” about Archer Dental’s pricing and were
attempting to get Aribex to terminate its relationship with
Archer Dental. An Aribex sales representative told
Archer Dental that Matt Zolfo had threatened that Schein
and Patterson would limit or cut off all purchases of Aribex products if Aribex did not require Archer Dental to
raise its prices and increase its margins on Aribex Nomads. At the January 2013 or 2014 Dallas Midwinter Dental meeting, Zolfo relayed the same threat to Jim Archer
Jr. Zolfo stated that Archer Dental needed to “get the
price up on Nomads or it won’t matter soon.” Zolfo’s
threats to Aribex (Danaher) and Archer are also verified
by recently-discovered communications between Schein
and Aribex. Specifically, in 2013, Schein cited an Archer
Dental deal for a Nomad and threatened that “[i]t’s easier
to handle this situation by not selling the Nomad!”
115. During the same time period, Benco pressured
Danaher to eliminate other low-margin dealers like

80
Archer Dental. Danaher responded by terminating those
dealers, just as Danaher terminated Archer Dental. For
example, on November 1, 2013, Danaher representative
Scott Hurlbut wrote to Zambetti (North American Vice
President of Sales for KaVo, Pelton & Crane, and Marus)
to complain that Pearson Dental (an independent, lowmargin distributor like Archer) “has been low-balling
pricing—particularly around the Marus and Dendex
brands.” Hurlbut claimed that as a result, “[s]everal ESSs
[Equipment Sales Specialists] refuse to sell Gendex.” He
then says that “[t]hey [Pearson] are whoring up the sensor market big time,” and that “[w]ith them out of the
way, it sets up higher-margin true competition between
[Schein] and [Patterson] and Benco for Gendex.” Additionally, on November 22, 2013, Danaher employee Brian
Broncatti wrote to Zambetti concerning Midco Dental.
Broncatti said “[t]hey [Midco] are selling in many cases at
a 20[%] margin causing issues with [Schein], Benco and
Burkhart.” Zambetti’s response cut directly to the
chase—he said “[t]hey won’t make the cut in 2014.”
116. Around the same time that Patterson and Danaher were discussing opening Danaher lines to Patterson,
Danaher shared with Patterson its intent to make cuts to
its dealer distribution network. On December 3, 2013, Patterson and Danaher held a joint “business review” to discuss their go-to-market strategies. Danaher shared that
it intended to make changes to its distribution channels,
most prominently by reducing the number of authorized
dealers. It told Patterson that it would be implementing a
total reduction of approximately 50 dealers, including
“40+ local” distributors. Zambetti reported to his superiors that the “meeting went well-message and changes
were very well received. They agreed 100% that our plans
and changes ‘make sense’, ‘no heartburn.’ ’’ On infor-

81
mation and belief, within a few months of Danaher terminating Archer in February 2014, Danaher and Patterson
reached agreement to open additional Danaher lines to
Patterson.
117. When Danaher made its 2014 “cut,” it did so in
direct response to the threats and pressure from the Cartel Members and in furtherance of the Cartel Members’
ongoing conspiracy and boycott. This fact is evidenced by
the termination of each of the independent, low-margin
dealers discussed above, including Archer Dental, Diversified Dental, Pearson Dental, and Midco Dental. It is further evidenced by the fact that Schein (through Hobbs)
demanded that Danaher provide Schein with an advance
copy of the termination list. Danaher recognized Schein’s
behavior as threatening, and Zambetti even complained
internally about Schein’s “bully mo[d]e.” But Danaher ultimately gave in to Schein’s threats and identified the
dealers that were slated for termination.
118. Danaher also admits, in a February 17, 2014,
email to Schein, that there was no legitimate basis for the
termination of Archer and other the independent, lowmargin dealers. Edward Dyer, Danaher’s Regional Sales
Director, Imaging for the Kavo Kerr Group, sent an email
to Joe Cavaretta, Kevin Upchurch, and Glenn Showgren
(all Schein employees). The subject line of the email is
“Dealer Terminations.” Dyer writes: “Guys, I wanted you
to hear this from me. We have terminated several small
and/or non-strategic aligned West Coast dealers.” He
then lists Pearson Dental (discussed above) and refers to
“a few others”—a list that includes Archer Dental. Dyer
concludes his email with a request that Schein make up
the lost business resulting from the terminations, saying
“[t]his obviously opens a new regional strategy for both
our businesses. I will reach out to each of you soon and

82
discuss our combined opportunity.” In response,
Cavaretta (Schein) responds that “This is a big deal!
Thanks for doing this Ed as we always hear about these
local dealers low balling us. You will have our support for
sure.” Then Dyer replies, noting that “[he] put [his] A$%
on the line for all this,” that “[t]here is no spreadsheet to
justify this,” and “[a]fter many years I finally got what I
wanted.” Cavaretta then forwards a portion of his email
chain with Dyer to his boss, Hobbs (Schein’s Vice President of Equipment Sales). Cavaretta tells Hobbs, “I’m
sure you are aware but didn’t want to assume. We are going to rally around this [termination of independent dealers by Danaher] . . . [w]e (Schein) have been asking for
him to do this for years.” Hobbs agrees and notes that
Schein will interface directly with Danaher through Zambetti and his teams. Cavaretta then replies, “[t]his is a big
deal.”
119. Dyer sent the same email to Benco informing
them of the dealer terminations. Upon receiving the
email, Benco representatives said that it was “great news”
and a “good play for us.” One of Benco’s representatives
even responded, “Wow! That means I can sell these items
above 20GP [gross profit].” Dyer promised to “outlin[e]
this opportunity for your team and how we win together”
later that week.
120. Danaher’s termination of Archer Dental and the
other independent dealers was a “big deal.” And the DyerCavaretta-Hobbs emails establish three facts:
i.

Danaher terminated Archer Dental in the
culmination of a conspiracy and boycott that
had lasted years and in direct response to
pressure from Schein (and, on information
and belief, the other Cartel Members);

83
ii.

Danaher had no independent justification
for the terminations, belying the representation it has made to Archer Dental and others; and

iii.

Danaher used its termination of Archer
Dental and other independent dealers to
immediately ask Schein to make up the lost
business.

121. At the February 2014 Chicago Dental Trade
Show, Schein and Danaher confronted Archer Dental to
gloat about the success of their conspiracy and boycott.
Specifically, Zolfo (Schein) and Zambetti (Danaher) approached Jim Archer Sr. and Jim Archer Jr. Zolfo said
“that it had been nice competing against you.” Zolfo and
Zambetti both shook Jim Archer Sr.’s hand and walked
away laughing. Archer Dental did not understand the implication of Zolfo’s comments at the time. The termination
letters arrived just days later.
122. By letters dated February 27, 2014, Danaher terminated the distribution agreements between Archer
Dental and Instrumentarium, Pelton & Crane, Marus,
DCIE, KaVo, and Aribex.
123. Danaher’s decision to terminate Archer Dental on
February 27, 2014, was a direct response to the threats
made by the Cartel Members Schein, Patterson, Benco,
and Burkhart. In fact, Danaher’s termination decision
was exactly in accordance with repeated requests made
by Matt Zolfo (Schein’s top salesman nationwide) and Don
Hobbs (a senior Schein executive) to terminate Archer
Dental. Zambetti admitted that Zolfo (repeatedly) and
Hobbs (on several occasions) requested that Zambetti terminate Archer Dental from carrying the Danaher equip-

84
ment lines. Zambetti understood the gravity and impropriety of these requests by informing Danaher’s legal department on multiple occasions that these Schein employees were improperly requesting Zambetti to terminate
Archer Dental. Yet, that is precisely what Danaher ended
up doing in terminating Archer Dental. Danaher’s termination of Archer Dental in 2014 therefore represents an
affirmative act in furtherance of the ongoing margin- fixing conspiracy and boycott entered into by the Cartel
Members and Danaher, and the threats and pressure
from Schein and the other Cartel Members represent additional, affirmative acts in furtherance of the same, ongoing conspiracy and boycott. Danaher’s termination of
Archer Dental (and other low-margin dealers) to further
the Cartel Member’s conspiracy and boycott is evidenced
by the documents described above, showing coordination
between at least Benco and Schein to eliminate independent, low-margin dealers; Danaher’s decision to reveal the
termination to at least Schein before notifying Archer
Dental or any of the other independent dealers; Danaher’s
admission that it had no “spreadsheet” (i.e., business case)
to justify the terminations; Danaher’s use of the terminations to immediately seek increased business from at least
Schein; and Schein and Danaher’s gloating about the elimination of Archer Dental as a competitor.
124. Schein reacted to Danaher’s willingness to terminate Archer Dental and its competitors with gratitude,
but it did not end the Cartel Member’s or Danaher’s conspiracy or boycott. To the contrary, internal Schein emails
show that the Cartel Members immediately turned their
attention to the remaining competitors. For example, on
March 6, 2014, just days after Archer Dental’s official termination, Joe Cavaretta (Schein) sent an email to Michael

85
Konesheck (a Schein Equipment Specialist) saying “Gendex [Danaher] is cutting off Archer.” Konesheck responds: “Great!!!! Thank you! The next thorn in Kyle’s
side is Hewett Dental in Austin. Says they are selling Instrumentarium 10% less than his sales price.” On information and belief, the “Kyle” referred to in this email is
Dean Kyle, Schein’s Zone General Manager and National
University Recruiter.
Cartel Members Attempt to Enlist Other Equipment
Manufacturers in Their Conspiracy and Boycott,
Including Midmark and Belmont
125. The Cartel Members’ anticompetitive demands
were not directed solely to Danaher. Other equipment
manufacturers also suffered threats from the Cartel
Members or terminated their relationships with Archer
Dental at the demand Cartel Members.
126. In 2001, Archer Dental asked Midmark, to open
its equipment line to Archer Dental as it already had Midmark’s sterilizer line. Midmark employee Michael Hall
told Archer Dental that Midmark could not open the
equipment line because of “politics,” explaining that
Schein, Patterson, and Island Dental had all threatened
to cut off Midmark if it gave the equipment line to Archer
Dental. Periodically, Archer Dental would request that
Midmark open the equipment line. Hall always responded
that nothing had changed, i.e., other dealers would stop
promoting Midmark equipment if Archer Dental was allowed to sell it. As recently as 2014, Hall again told Archer
Dental that he could not give it Midmark’s entire product
line because of “politics.”
127. In 2008 after Pelton & Crane had terminated Dynamic and limited Archer Dental’s territory to the State
of Texas, Archer Dental again approached Midmark

86
about opening its equipment line to Archer Dental for an
area that would include Texas, Oklahoma, and Arkansas.
Hall said that Midmark could not open the equipment line
to Archer Dental because Midmark did not want to jeopardize its business in Tulsa.
128. For many years, Midmark had allowed Archer
Dental and other dealers to sell Midmark sterilizer products nationwide. In Summer 2013, Archer Dental quoted
equipment, including a Midmark M11 sterilizer for a new
office of a doctor in Pennsylvania. In response, to pressure
from a Benco representative competing for the doctor’s
business, Hall wrote an email stating that Archer Dental
was not allowed to sell Midmark sterilizers outside of
Texas and that if a doctor outside of Texas purchased a
sterilizer from Archer Dental, Midmark would not honor
any warranty or provide any rebates associated with the
purchase. After the doctor called Midmark directly, she
learned that Hall’s email was not true and that Archer was
authorized to sell the sterilizer nationwide and that Midmark would honor her warranty. In fact, she stated that
Archer had handled the situation very well and that she
did not think it was “right for [Benco] to try to lock you
out of a market.” She was forced to purchase the sterilizer
from Benco, however, despite the higher price because
she was required to purchase a certain amount of equipment with them, she wanted a single service person, and
she could not purchase her Marus chairs or other large
equipment from Archer. But she stated that if she lived in
Texas, she would be dealing with Archer exclusively.
129. In November 2013, Patterson and Schein complained about the price at which Archer was quoting M11
sterilizers to an orthodontist in Louisiana. After receiving
the complaints, Hall wrote that he would “make sure they
stop.” Approximately two months later, in January 2014,

87
Hall advised Archer Dental that Midmark had decided on
a go forward basis to enforce geographical restrictions, if
any, in their dealer agreements.
130. In January 2014, Midmark further confirmed the
pressure being applied by the Cartel Members when Midmark threatened Archer Dental with termination if it did
not raise its prices to non-competitive levels on Midmark
sterilizers. Midmark told Archer Dental that it needed to
raise its price to be close to Schein’s price—an increase of
approximately $500. When Archer Dental did not raise its
price to customers, Midmark raised the cost at which it
sold the sterilizers to Archer Dental by approximately
$500. This price increase made it impossible for Archer
Dental to competitively sell the sterilizer. Midmark undertook the price increase to allow Schein (Matt Zolfo) to
sell the sterilizers to Breakaway Dental, a quasi-group
buying organization with whom Archer Dental had done
business in the past and was poised to do substantial future business. Midmark also told Archer Dental that it
could not sell the sterilizers to Breakaway Dental. Midmark then allowed Schein to sell the sterilizers to Breakaway Dental below the price at which Midmark was requiring Archer Dental to sell them.
131. Belmont was also the recipient of threats from the
Cartel Members. Ron Fernandez, a Schein sales representative, bragged that Schein had convinced Belmont to
terminate Dynamic. Archer Dental also lost the Belmont
line around 2008.
132. Recently-discovered communications also reveal
significant pressure from Benco concerning low-margin
distributors. On January 31, 2012, Benco sales representative Darius Somekhian complained to Regional Manager Matt Lewinson about losing a sale of Belmont equipment to Pearson because of pricing. Somekhian wrote,

88
“We got to somehow put pressure on Belmont. Matt you
can use this as another example.” Lewinson forwarded
the emailed to Chuck and Larry Cohen, who own Benco,
explaining, “As we spoke at the [regional manager] meeting in California this is what is going on with Belmont in
my region. I know there is nothing you can do but when
you get in touch with the folks at Belmont tell them it is
sure hard to sell there [sic] product when we need to compete with these crazy prices.” Benco must have gotten in
touch with Belmont by January 23, 2013, when Lewinson
emailed Paul Jackson, Benco’s Vice President of Marketing, to complain about another low-margin quote for Belmont equipment from Pearson. In that email, Lewinson
referenced previous conversations that Jackson had with
Belmont about Pearson’s pricing, writing, “I know you
said you spoke to Belmont about Pearson’s pricing but
this is what I am up against” and asking Jackson to
“please look into this.” By May 2013, when Somekhian
emailed Brian Evans, a Benco Director of Sales, to complain about another Pearson quote on Belmont equipment, explaining that “[i]ts [sic] very difficult to sell at 27
gp [gross profit] on this line with pearson next door,” Evans guaranteed Somekhian that “[t]he Belmont / Pearson
pricing issue has been address[ed] and we were assure[d]
is being handled. . . . [T]he special pricing issue has been
address[ed] with Belmont. Should not see it moving forward.”
133. Also in 2012, Archer Dental emailed Wayne Watson at Belmont explaining that it would like to become a
distributor of the Belmont equipment line to replace some
of its current lines, which included Pelton & Crane,
Marus, and Instrumentarium. Belmont never responded.
In a 2016 email to Benco, however, Watson implied that
he his actions with respect to Archer were at the behest

89
of the Cartel Members. In an email to Benco, Watson insisted that he should have “more opportunities” with
Benco because he has “always been loyal through the
years, and you all know what I did to our distribution
model in the DFW area by shutting down SWMed, and
Archer.”
134. In May 2008, Ivoclar Vivadent, Inc., a manufacturer of dental lasers, terminated Archer Dental’s national distribution agreement. At the Chicago Midwinter
meeting, the Vivadent national sales managers admitted
to Archer Dental that it was terminated because it was
taking too many orders from Schein and Patterson, who
did not want to compete with Archer Dental’s prices.
135. Also in 2008, SciCan Ltd. (“SciCan”), a large manufacturer of sterilizers, terminated Archer Dental’s national distribution rights and restricted sales to Texas. In
2011, SciCan terminated all Archer Dental’s distribution
rights. Archer Dental had been a SciCan distributor since
the 1990s. The termination ocurred [sic] after several
threats not to “steal” Schein’s and Patterson’s sales in
Texas. SciCan sent Archer Dental a termination notice on
a Friday. The following Monday, SciCan sent Schein an
email with the re: line “SciCan ends distribution agreement with Archer & White.” In that email, Travis Hale
(SciCan) wrote “I wanted to send you all a brief email informing you that effective last Friday, Archer & White is
no longer an authorized SciCan distributor… The termination of this distribution agreement will hopefully alleviate some of the past challenges you may have incurred
when competing for the sale of a SciCan product, and of
course will eliminate any future ones. We anticipate this
will only help strengthen the SciCan and Henry Schein
relationship on a local level, and we can build a stronger

90
partnership moving forward. Hopefully, this should create some immediate opportunities for you all in the sale of
parts and service with accounts that own a SciCan product, but now need an alternative solution to service their
needs.” Hale sent an identical email to Patterson on the
same day (with the exception of referencing a stronger relationship with Patterson rather than with Schein).
136. The SciCan threats are similar to threats made by
Danaher the following year. In May 2012, Kirk Zambetti
(Danaher) threatened Archer Dental that if it “steals” a
customer (i.e., competes with Schein or other horizontal
competitors), Archer Dental will be terminated from selling all Danaher equipment.
137. In September 2010, a sales manager for another
manufacturer, Coltene/Whaledent, Inc. (“ColteneWhaledent”), told Archer Dental that because of complaints from several dealers, including Schein, Archer
Dental needed to have equipment priced at a 28-30% margin.
138. Also in 2010, Brasseler USA Dental (“Brasseler”),
the general distributor of NSK products, terminated the
distribution rights of Archer Dental and numerous other
smaller distributors. NSK manufactures high-quality
hand pieces. Originally, NSK sold directly to its distributors. Around 2005, NSK made Brasseler the general distributor of NSK products. Archer Dental and other dealers ordered their NSK products from Brasseler. Brasseler sold the NSK hand pieces at competitive prices. In
2010, Schein purchased an interest in Brasseler. After
Schein’s purchase, Brasseler increased the prices it
charged Archer and other dealers for NSK hand pieces.
Also, when Archer Dental tried to order NSK parts, Brasseler would routinely claims that the part was not in stock.
When a dentist ordered the same part at the same time,

91
however, Brasseler would ship it immediately. In late
2011, Brasseler notified dealers, including Archer Dental,
that Brasseler was entering into a new agreement with
NSK, that Brasseler would no longer be able to sell NSK
products to dealers, and that Archer Dental should contact NSK regarding future purchases. Archer Dental, an
NSK dealer for more than 20 years, contacted NSK seeking to continue its distribution. NSK never responded to
Archer Dental’s inquiries. On information and belief,
NSK sells directly to Schein, Patterson, Benco, and
Burkhart. A former NSK employee told Archer Dental
she believed NSK refused to re-authorize Archer Dental
because of pressure from Schein, Patterson, Benco and
Burkhart.
139. In or around 2005, a Patterson representative told
a Royal Equipment representative that Royal “better not
think about opening Phil [Salerno, Dynamic Dental] because that would be it.” As the Patterson representative
explained, “you better not, you better not” or “anyone who
does is, you know, going to be blacklisted.” When Royal
opened Dynamic anyways, Patterson and Schein to Royal
“like, you idiot, why are you are doing this?” A Schein representative offered to display Royal equipment in
Schein’s new showroom, but in exchange, Royal would
have to shut Dynamic down.
140. In 2006, manufacturer Acteon terminated Archer
Dental because it was selling products “well below the industry average in respect to gross margin” and Acteon
felt the termination was necessary to protect Acteon’s
“established dealer relations.” Wyatt Wilson, the author
of the letter, later told the Archers that Schein and Patterson had complained that Archer Dental had taken numerous sales from them.

92
141. In or around 2009 and 2010, manufacturer Digi
Doc came out with a very successful new camera. Archer
Dental asked Digi Doc to re-open their distribution agreement so Archer Dental could sell the new camera. Digi
Doc refused, however, because of too many complaints
from Schein, Patterson, and Benco.
142. In 2012, Patterson management pressured manufacturer Bien Air to cut off Archer Dental. Patterson told
Bien Air President Arthur Mateen that if Bien Air continued to do business with Archer Dental, Patterson would
not continue to do business with Bien Air. At least in this
case, the threat was unsuccessful.
The Cartel Members’ Boycott Extends to Low-Price
Consumables Competitors
143. The Cartel Members’ agreement to fix, maintain,
and stabilize margins extended to the dental consumables
segment. As in the equipment segment, they have used
their leverage over manufacturers to prevent low-price
competitors from having access to manufacturer lines
that are necessary to compete effectively.
144. Around 2014, there were rumors that Amazon
would be entering the dental product distribution industry, especially in the consumables area. The Cartel Members, fearing price competition from Amazon, did not
want that to happen and worked together to prevent or
delay Amazon’s entry. Indeed, Benco’s Managing Director Chuck Cohen wrote that one of his objectives was to
“[w]ork[] with our competitors to keep Amazon out.” In
another document, Cohen identified one item on a to-do
list as “[f]igur[ing] out how to get the dental distributors
to work together on a response to Amazon’s entry into the
market.” Patterson and Schein endeavored to coordinate
their responses to Amazon’s potential entry; Patterson’s

93
Paul Guggenheim called Schein’s Jim Breslawski to discuss the situation. Benco had a plan for a response: Cohen
identified one of the roadblocks to Amazon’s entry as “securing access to the lines.” In the same bulletpoint, he
wrote, “woe to the first vendor who opens them up. . . ”
Cohen later explained that he meant that Benco’s,
Schein’s, and Patterson’s sales representatives have “a
fair amount of market clout” and that these representatives probably will “not want to go support that line of
products” of any vendor to open Amazon. Cohen also indicated that Benco would “punish those [vendors] who
choose another path,” meaning that Benco would make
sure that anyone choosing to work with Amazon would
consider it a mistake. Several manufacturers, including
Danaher and Coltene-Whaledent, called Schein to assure
it that they did not intend to include Amazon in their distribution strategies. Schein reached out to other manufacturers, including DentSply and Hu-Freidy, to discuss
their reactions. Amazon later complained that its progress had been hampered by the “dental duopoly” of
Schein and Patterson. Indeed, a Northcoast Research
document reported that pressure from Schein and Patterson likely had delayed Amazon’s progress because manufacturers did not want to risk their relationships with the
large distributors and that the distributors had “been
very aggressive in preventing manufacturers from selling
through [Amazon] by threatening to drop certain products or shift market share to competing brands.”
145. Amazon was not the only target of the Cartel
Members’ efforts to keep price-cutting competitors out of
the consumables marketplace. BuyNowDirect, a website
selling dental consumables, was also the subject of discussions between the Cartel Members, apparently regarding
an agreement to keep products off of their site. When
Benco saw that BuyNowDirect was offering private-label

94
Schein products through Amazon, Benco’s Managing Director Chuck Cohen emailed a link to Schein’s Tim Sullivan. When Schein’s products were removed from the website, Cohen observed in an internal Benco email, “Very interesting. An admission of guilt.” Cohen later texted Sullivan, “Thanks for Amazon change,” which he clarified to
mean “[t]alking about BuyNowDirect.”
146. State dental associations and their distributorpartners were also victims of the Cartel Members’ boycotts. Around 2011, some state dental associations began
partnering with low-price distributors to offer their members significant savings on their dental equipment and
consumables purchases. The Cartel Members used their
leverage to prevent those efforts from being successful,
however. First, the Cartel Members attempted to prevent
the programs from getting off of the ground. For example, in response to the Florida Dental Association proposing such a program, Benco’s Chuck Cohen wrote that
Benco’s “policy is that we don’t work with dental association buying groups.” When the New Mexico Dental Association revealed that it had partnered with Patterson,
Benco employees and Schein employees exchanged
emails about it, and Benco’s Managing Director Chuck
Cohen said that he would reach out to his counterpart at
Patterson (Paul Guggenheim) about the situation.
147. Second, the Cartel Members attempted to starve
the programs of the products necessary to compete. For
example, when Benco learned that Arnold Dental, another distributor to which it sometimes sold supplies, was
supplying products to the Texas Dental Association’s program, Benco discontinued its relationship with Arnold
Dental. The Cartel Members also wrote to the manufac-

95
turers whose products appeared on the associations’ websites and asked them about their involvement with the
program.
148. Third, the Cartel Members organized boycotts of
those associations’ annual meetings. On information and
belief, meeting attendance is critical to state dental organizations because most of their funding comes from booth
rental fees and other annual meeting revenues. When the
Arizona Dental Association partnered with SourceOne
Dental, a Benco representative wrote that Benco needed
to “get some pressure on the [Arizona Dental Association]” and suggested that Benco not attend the Association’s next annual meeting. Benco Regional Manager
Mike Wade replied, “I am on top of it . . . I will pull some
local pressure . . . Playing phone tag with [Kevin] Upchurch at Schein and will get [Patterson] Manager involved . . . ” The email chain reflects an example of the
Cartel Members’ efforts to organize a boycott of a state
dental association in response to the association’s partnership with a low-price dental distributor. The Cartel Members organized a similar boycott of the Texas Dental Association (“TDA”) Annual Meeting in 2014 when the Association partnered with SourceOne to offer its members
discounts on dental supplies and equipment through a
program called TDA Perks Supplies. After the program
was announced, Schein asked what “sanctions” Benco
would be willing to apply. After a call between Benco and
Schein representatives, the Schein representative reported that Benco was considering cutting off all TDA relations, wanted Schein to do the same, and asked if Schein
had a relationship with the local Patterson manager to ask
Patterson to agree as well. Ultimately, Schein, Patterson,
and Benco all boycotted the 2014 Texas Dental Association meeting. Several manufacturers, including Belmont

96
and Royal, also boycotted the meeting to show their support for the manufacturers, and even offered special deals
for the Cartel Members to advertise during the week of
the TDA Annual Meeting.
149. As described above, the Cartel Members’ actions
handicapped Dynamic’s and Archer Dental’s ability to
compete effectively in the consumables submarket as well
via membership in the ADC. With access to manufacturers through ADC, Dynamic and Archer Dental would
have been able to expand their consumables sales. Indeed,
after ADC informed Dynamic of its acceptance and provided it with a confidential price list, Dynamic immediately set to work loading products and prices into its system so that it would be able to offer the new products and
lower prices to its customers as soon as its ADC membership became effective. Before that came to pass, however,
ADC informed Dynamic that its membership had been revoked due to “input received,” which Dynamic learned
came from Burkhart’s Powers. ADC informed Dynamic
that to regain its membership, it would have to receive the
approval of other ADC members in Oklahoma, including
Burkhart. When Dynamic’s Skip Pettus approached
Burkhart’s Powers about obtaining such approval, Powers informed Pettus that Dynamic’s prices were too low
and that he did not want the competition.
STATUTE OF LIMITATIONS, CONCEALMENT,
AND TOLLING
150. As described above, Danaher terminated Archer
Dental by letters dated February 27, 2014, in direct response to the threats and termination requests made by
Schein and, on information and belief, similar threats
made by the other Cartel Members: Patterson, Benco,
and Burkhart. These threats, and Danaher’s termination
of Archer Dental, constitute actions in furtherance of the

97
Cartel Members’ ongoing conspiracy and boycott for
which all Defendants are jointly and severally liable.
151. Moreover, Defendants and Burkhart have affirmatively concealed from Archer Dental the facts concerning
the unlawful combination, conspiracy, and agreement
among them alleged in this Complaint. Defendants and
Burkhart have conducted their conspiracy in secret. Upon
information and belief, Defendants and Burkhart planned
and implemented the conspiracy during non-public meetings, monitored and enforced the conspiracy in non-public
meetings, agreed not to discuss or disclose the details of
their conspiracy, falsely represented to Archer Dental
that the reasons for the actions taken by Danaher with respect to Archer Dental’s distribution rights were unilateral and based on legitimate business reasons, and falsely
represented to customers that the prices they paid for
dental equipment were fair and competitive.
152. Specifically, Defendants have concealed many of
the facts recited herein concerning the extent of the conspiracy among the Cartel Members, Patterson and
Benco’s participation in the conspiracy as Cartel Members, the details concerning Danaher’s participation in the
conspiracy and boycott of Archer Dental, and Danaher’s
termination of Archer Dental’s distribution agreements
and business relationships with Instrumentarium, Pelton
& Crane, Marus, DCIE, KaVo, and Aribex on February
27, 2014. With respect to Danaher’s 2014 termination of
Archer Dental, in particular, Danaher falsely represented
that the reasons for the termination of Archer Dental’s
distribution rights were unilateral and based on legitimate business reasons.
153. The limited and recently-produced documents
that Archer Dental has discovered in this matter belie De-

98
fendants’ representations and reveal the scope of the Cartel Members’ and Danaher’s conspiracy and boycott. They
also belie Danaher’s representations concerning the 2014
termination of Archer Dental. This information was not
known, and could not have been discovered, until Defendants Schein and Danaher began to produce documents as
part of discovery in this matter. Those documents, including without limitation Danaher emails referenced in this
Complaint, were produced on a rolling basis starting on
June 16, 2017. Before production, these and other communications between the Defendants were kept secret and
inaccessible to Archer Dental. Moreover, Schein, Danaher, and the other named Defendants have resisted Plaintiff’s discovery efforts in an ongoing attempt to conceal
the scope of the unlawful combination, conspiracy, and
agreement among them alleged in this Complaint.
154. As a result of Defendants’ concealment, any applicable statute of limitations affecting the rights of
Archer Dental has been tolled. Archer Dental exercised
due diligence to learn of its legal rights, and, despite the
exercise of due diligence, did not discover and could not
have discovered the unlawful conduct alleged herein at
the time it occurred.
COUNT ONE
SHERMAN ACT SECTION 1 VIOLATION AGAINST
ALL DEFENDANTS
155. Archer Dental incorporates by reference paragraphs 1 through 150 as if fully alleged herein.
156. At all times relevant to this Complaint, Defendants, Burkhart, Belmont, and Midmark have combined
and conspired to eliminate competition for the sale of dental equipment and supplies and to maintain margins on
the sale of such equipment and supplies at anticompetitive

99
levels. In furtherance of their conspiracy, Defendants,
Burkhart, Belmont, and Midmark have agreed to fix margins on equipment and supplies. In furtherance of their
conspiracies and illegal agreements, Defendants Schein,
Patterson, and Benco, as well as Burkhart, agreed with
Danaher (and its predecessor companies), Midmark, and
Belmont to boycott, terminate, and/or restrict the distribution territories of low-margin distributors, including
Archer Dental.
157. These agreements are per se violations of Section
1 of the Sherman Act. More specifically, elimination by
joint collaborative action of discounters from access to the
market is a per se violation of the Sherman Act. The participation in the agreement by manufacturers Danaher,
Midmark, and Belmont—the common suppliers to the
Cartel Members, Burkhart, and Archer Dental—does not
change the character of the conspiracy. Indeed, a conspiracy is horizontal in nature when a number of competitor
firms agree with each other and at least one of their common suppliers or manufacturers to eliminate their pricecutting competition by cutting its access to supplies.
158. The agreements and understandings that Defendants, Burkhart, Belmont, and Midmark have entered,
maintained, renewed, and enforced with one another have
had the purpose and effect of eliminating competition for
the sale of dental equipment and supplies by and among
dealers of dental equipment and maintaining prices for
such equipment and supplies above competitive levels.
Furthermore, as the result of Defendants’, Burkhart’s,
Midmark’s, and Belmont’s conduct, all dentists have been
deprived of the competition offered by Archer Dental and
other low-margin distributors and have overpaid for dental equipment and supplies.

100
159. As a direct and proximate result of Defendants’,
Burkhart’s, Midmark’s, and Belmont’s past and continuing violations of Section 1 of the Sherman Act, Archer
Dental has suffered injury and damages in an amount to
be proved at trial.
160. Archer Dental seeks money damages from Defendants jointly and severally for these violations. These
actual damages should be trebled under Section 4 of the
Clayton Act, 15 U.S.C. § 15.
161. Archer Dental also seeks injunctive relief. The violations set forth above are continuing and will continue
unless injunctive relief is granted.
COUNT TWO
VIOLATION OF TFEAA AGAINST
ALL DEFENDANTS
162. Archer Dental incorporates by reference paragraphs 1 through 150 as if fully alleged herein.
163. At all times relevant to this Complaint, Defendants, Burkhart, Belmont, and Midmark have combined
and conspired to eliminate competition for the sale of dental equipment and supplies and to maintain margins on
the sale of such equipment and supplies at anticompetitive
levels. In furtherance of their conspiracy, Defendants
Schein, Patterson, and Benco, as well as Burkhart, agreed
with Danaher (and its predecessor companies), Midmark,
and Belmont to boycott, terminate, and/or restrict the distribution territories of low-price distributors, including
Archer Dental. The result of that illegal per se boycott has
been to eliminate or restrict Archer Dental’s ability to distribute and sell significant lines of dental equipment to
dental professionals in Texas. As a result, Archer Dental
is harmed, and Texas dental professionals are denied the
benefit of competition.

101
164. These agreements are per se violations of Texas
Free Enterprise and Antitrust Act (“TFEAA”). More
specifically, elimination by joint collaborative action of
discounters from access to the market is a per se violation
of the TFEAA. The participation in the agreement by
Danaher, Midmark, and Belmont—the common suppliers
to Defendants, Burkhart, and Archer Dental—does not
change the character of the conspiracy. Indeed, a conspiracy is horizontal in nature when a number of competitor
firms agree with each other and at least one of their common suppliers or manufacturers to eliminate their pricecutting competition by cutting his access to supplies.
165. The agreements and understandings that Defendants, Burkhart, Midmark, and Belmont have entered,
maintained, renewed, and enforced with one another have
had the purpose and effect of eliminating competition for
the sale of dental equipment and supplies by and among
dealers of dental equipment and supplies and maintaining
prices for such equipment and supplies above competitive
levels in Texas. Furthermore, as the result of Defendants’, Burkhart’s, Midmark’s, and Belmont’s conduct,
dentists in Texas have been deprived of the competition
offered by Archer Dental and other low-margin distributors and have overpaid for dental equipment.
166. As a direct and proximate result of Defendants’,
Burkhart’s, Midmark’s, and Belmont’s past and continuing violations of the TFEAA, Plaintiff has suffered injury
and damages in an amount to be proved at trial.
167. Archer Dental seeks money damages from Defendants jointly and severally for these violations. Defendants’, Burkhart’s, Midmark’s, and Belmont’s violations were willful and flagrant. Archer Dental’s actual
damages should therefore be trebled under Section 15.21
of the TFEAA.

102
168. Archer Dental also seeks injunctive relief. The violations set forth above are continuing and will continue
unless injunctive relief is granted.
169. As required by Section 15.21(c) of the TFEAA, a
copy of this Complaint shall be mailed to the Attorney
General of Texas.
JURY TRIAL DEMANDED
Archer Dental demands a trial by jury pursuant to
FED. R. CIV. P. 38(b) of all issues triable of right by jury.
PRAYER FOR RELIEF
Therefore, Archer Dental demands judgment as follows:
a. Adjudge and declare that Defendants have engaged in unlawful conduct in violation of Section 1
of the Sherman Act, 15 U.S.C. § 1;
b. Adjudge and declare that Defendants have engaged in unlawful conduct in violation of Section
15.05(a) of the TFEAA, TEX. BUS & COMM.
CODE § 15.05(a);
c. Preliminarily and permanently enjoin Defendants
from violating Section 1 of the Sherman Act, 15
U.S.C. § 1 and Section 15.05(a) of the TFEAA,
TEX. BUS & COMM. CODE § 15.05(a);
d.

Against all Defendants, jointly and severally,
award Archer Dental damages in an amount to be
proved at trial, to be trebled with interest and the
costs of this suit, including attorney’s fees; and

e. Award such other further relief as the Court
deems just and proper.

103
Dated: October 30, 2017
Respectfully submitted,
By: /s/ Samuel Baxter

Samuel F. Baxter
Texas Bar No. 01938000
sbaxter@mckoolsmith.com
MCKOOL SMITH, P.C.
104 E. Houston, Suite 300
Marshall, Texas 75670
Telephone: (903) 923-9000
Facsimile: (903) 923-9099
Lewis T. LeClair
Texas Bar No. 12072500
lleclair@mckoolsmith.com
Gary Cruciani
Texas Bar No. 5177300
gcruciani@mckoolsmith.com
Phillip M. Aurentz
Texas Bar No. 24059404
paurentz@mckoolsmith.com
Travis DeArman
Texas Bar No. 24074117
tdearman@mckoolsmith.com
MCKOOL SMITH, P.C.
300 Crescent Court, Suite 1500
Dallas, Texas 75201
Telephone: (214) 978-4000
Facsimile: (214) 978-4044
Charles F. Fowler, Jr.
Texas Bar No. 24083014
cfowler@mckoolsmith.com
MCKOOL SMITH, P.C.
300 W. 6th Street, Suite 1700
Austin, Texas 78701
Telephone: (512) 692-8700
Facsimile: (512) 692-8744-4044

ATTORNEYS FOR PLAINTIFF,
ARCHER AND WHITE SALES, INC.

104

CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing document was served on all of counsel of record who receive
service via electronic mail.
/s/ Travis DeArman
Travis E. DeArman
CERTIFICATE OF AUTHORIZATION TO FILE
UNDER SEAL
The undersigned certifies that the foregoing document is authorized to be filed under seal pursuant to the
Protective Order entered in this case (Dkt. No. 116).
/s/ Travis DeArman
Travis E. DeArman

105
DEALER AGREEMENT
This Dealer Agreement (this “Agreement”) dated as
of October 4, 2007, is made by and between Pelton &
Crane (“Pelton & Crane”) and Archer and White Sales
(“Dealer”).
RECITALS
A. Pelton & Crane manufactures and sells Pelton &
Crane brand dental equipment and products (the
“Products”).
B. Pelton & Crane wishes to sell the Products to dealers who demonstrate their ability to sell the Products in a professional manner that will preserve
and enhance the valuable reputation and goodwill
associated with the Products.
C. Dealer wishes to serve as a Pelton & Crane dealer
authorized to sell the Products.
AGREEMENT
The parties agree as follows:
1. DEALER APPOINTMENT
Pelton & Crane appoints Dealer as a nonexclusive authorized dealer for sale of the Products in the previously
agreed-upon geographic sales territory subject to the
terms and conditions set forth herein. Dealer accepts
such appointment.
2. DEALER OBLIGATIONS
2.1
Dealer shall use its best efforts to sell the
Products and to encourage the purchase of the Products
by Dealer’s customers.

106
2.2
Dealer shall sell the Products only to: (a)
licensed doctors of dental medicine; (b) accredited and/or
licensed dental or medical clinics and hospitals; (c) accredited dental and medical schools; and (d) appropriate agencies of the federal, state provincial, or local governments
(collectively referred to herein as “Qualified Customers”).
2.3
Dealer shall sell the Products only to Qualified Customers having their principal place of business:
(a) within the previously agreed-upon geographic sales
territory; (b) within the geographic area where Dealer’s
sales force makes regular face-to-face visits and Dealer’s
service staff performs service; and (c) within a reasonable
distance of an authorized outlet showroom that displays
the Products.
2.4
Dealer shall not, directly or indirectly, sell
the Products by mail order.
2.5
Dealer shall not sell the products to any customer for resale. If Dealer learns of a resale by any of its
customers, Dealer shall immediately notify Pelton &
Crane.
2.6
Dealer shall employ and maintain its own
full-time, experienced and knowledgeable sales staff that
regularly makes face-to-face sales visits and presentations to customers and potential customers within
Dealer’s geographic area. Dealer shall train its sales personnel concerning the products and their specifications,
features, and benefits. Dealer shall perform such obligations only through Dealer’s own employees, and not
through independent contractors.
2.7
Dealer shall make time available during
Dealer’s sales meetings for Pelton & Crane representatives to present information regarding the Products.

107
Dealer agrees to conduct such sales meetings at least once
every six months.
2.8
Dealer shall maintain at each authorized
outlet a showroom for which it shall purchase and in which
it shall display the Products according to Pelton & Crane’s
flooring and display programs. Pelton & Crane may
change its flooring and display programs from time to
time.
2.9
Dealer shall maintain records of each sale of
the Products including the name and address of the purchaser, date of purchase, date of installation, and the
model and serial numbers of the Products. Dealer shall
deliver a copy of all such information to Pelton & Crane at
no charge. Dealer shall not remove any serial numbers.
2.10
Dealer shall provide customer service including installation, instruction of Dealer’s customers in
the use of Products, warranty service, Product repairs,
and other post-sale service. Dealer shall document all
Product repairs, Product service, and customer complaints and forward all customer complaint information to
Pelton & Crane.
2.11
Dealer shall employ and maintain its own
full-time, experienced and knowledgeable service staff
sufficiently trained to properly install and service the
Products. Dealer shall adequately train their service personnel for service and installation as well as insure the individual(s) providing the training are adequately trained
themselves prior to providing any such training. Upon
Pelton & Crane’s request, provide installation and service
training records of service staff. Dealer shall not install,
service, or maintain any of the Products by any person
who is unqualified to perform such work.

108
2.12
Dealer shall purchase and maintain an inventory of spare parts sufficient to enable Dealer to
promptly service the Products.
2.13
Dealer shall comply with all laws and regulations pertaining to the sale, assembly, installation and
service of the Products by Dealer.
2.14
Dealer shall maintain sufficient product liability and other all risk liability insurance adequate to protect all risks associated with the sale, installation and service of the Products and, upon Pelton & Crane’s request,
provide Pelton & Crane with an insurance certificate or
other evidence of insurance in form and in amounts satisfactory to Pelton & Crane.
2.15
Dealer shall take no action which will cause
Pelton & Crane to be in violation of any law of any jurisdiction in the Territory or the United States, such laws
including but not limited to the U.S. Foreign Corrupt
Practices Act, the U.S. export control laws and the U.S.
antiboycott laws. In this conjunction, Distributor agrees:
1.)
To inform all customers that all Products
are subject to the Unied States Export Administration
Regulations. The following statement shown on invoices,
packing lists, and bills of lading may be used for this purpose.
“These commodities, technology or software were exported from the United States in accourdance with the
Export Administration Regulations. Diversion contrary to the Unite States law prohibited.”
2.)
To provide, upon request by Pelton &
Crane, information by Pelton & Crane to obtain U.S. export licenses, including but not limited to formal end-use
statements (Statements by Ultimate Consignee and Purchaser).

109
3.)
To maintain all records relating to sale of
the Products for not less than five (5) years;
4.)
To comply with applicable laws of the Territory relating to the conduct of Distributor’s business, including any requirements for registration or recording of
this Agreement with governmental entities;
5.)
Not to sell Products to customers listed on
the current United States Department of Commerce Denied Persons List which shall be provided to Distributor
periodically; and
6.)
Not to supply any boycott related information concerning Pelton & Crane.
2.16
Dealer distributing product within the European Union (EU) has the responsibility of registering
the product with a “Producer Compliance Scheme” in
each country within the EU that product is shipped to in
accordance with Directive 2002/96/EC of the European
Parliament and the Council of 27 January 2003 on Waste
Electrical and Electronic Equipment (WEEE) and liable
for all costs associated with WEEE compliance.
3. MULTIPLE LOCATION DEALERS
If Dealer sells Products through more than one outlet,
the obligations of Dealer set forth in this Agreement shall
apply to each such outlet. Current authorized Dealer outlets are listed on exhibit A attached hereto. Additional
outlets may be authorized only by the prior written agreement of Pelton & Crane.
4. PELTON & CRANE OBLIGATIONS
4.1
Pelton & Crane shall offer to sell Products
to Dealer in accordance with the terms of this Agreement
and Pelton & Crane’s Terms and Conditions of Sale.

110
4.2
Pelton & Crane shall furnish to Dealer reasonable quantities of price lists, sales catalogs, installation
instructions and service manuals to support Dealer’s efforts to sell and service the Products.
5. TERMS AND CONDITIONS OF SALE
All sales of Products by Pelton & Crane shall be subject to Pelton & Crane’s Terms and Conditions of Sale,
incorporated herein by this reference. Pelton & Crane
may change its Terms and Conditions of Sale from time to
time by giving notice to Dealer. Dealer shall pay for Products pursuant to the Pelton & Crane Terms and Conditions of Sale.
6. MINIMUM SALES GOALS
[Minimum sales goals for Dealer for the initial twelve
(12)-month term of this Agreement are set forth in Exhibit B, attached hereto and incorporated herein by this
reference.] [Pelton & Crane may establish minimum annual sales goals for Dealer.] Pelton & Crane may adjust
the minimum sales goal for Dealer from time to time.
7. NONEXCLUSIVE APPOINTMENT; PELTON &
CRANE SALES
7.1
Dealer’s appointment is nonexclusive. Pelton & Crane reserves the right to increase or decrease the
number of authorized dealers for the Products in the vicinity of Dealer’s outlet or outlets without prior notice to
Dealer.
7.2
Pelton & Crane reserves the right to sell
the Products directly to government agencies, dental
schools, clinics, hospitals, original equipment manufacturers (“OEMs”), value-added resellers (“VARs”), ditributors and other “house accounts” of Pelton & Crane.

111
8. TRADEMARKS
Dealer acknowledges that Pelton &Crane owns all
rights to the trademarks “Pelton & Crane™”, and other
logos, trademarks, service marks, trade names and design
marks used by Pelton & Crane. Dealer shall not use any
Pelton & Crane mark except in advertising or selling the
Products and in a manner approved by Pelton & Crane.
Upon terminaton of this Agreement, Dealer shall cease all
use of Pelton & Crane’s marks.
9. LIMITED WARRANTY AND DISCLAIMER
9.1
Each of the Products is warranted by Pelton & Crane in accordance with Pelton & Crane’s warranty applicable to such Product set forth in the Pelton &
Crane Terms and Conditions of Sale, product warranty
registration card, or other Pelton & Crane literature pertaining to such Product.
9.2
EXCEPT FOR THE EXPRESS WARRANTY DESCRIBED IN SECTION 9.1 OF THIS
AGREEMENT, Pelton & Crane MAKES NO WARRANTY, EXPRESS OR IMPLIED, INCLUDING, BUT
NOT LIMITED TO, ANY WARRANTY OF
MECHANTABILITY, FITNESS FOR A PARTICULAR PURPOSE, DESIGN OR SUITABILITY WITH
RESPECT TO THE PRODUCTS OR ANY OTHER
GOODS, SERVICES OR OTHER MATERIALS PROVIDED BY Pelton & Crane.
10. LIMITATION OF REMEDIES AND LIABILITY
10.1
Pelton & Crane SHALL NOT BE LIABLE
TO DEALER OR ANY PERSON FOR Pelton & Crane’s
FAILURE TO ACCEPT OR FILL ANY ORDER, FOR
ERRORS IN FILLING ANY ORDER, OR FOR ANY
DELAY IN DELIVERY.

112
10.2
Pelton & Crane SHALL NOT BE LIABLE
FOR THE COST OF SUBSTITUTE GOODS, LOSS OF
PROFITS, OR FOR ANY INDIRECT, SPECIAL,
CONSEQUENTIAL, INCIDENTAL OR PUNITIVE
DAMAGES, WHETHER BASED ON CONTRACT,
TORT, OR ANY OTHER LEGAL THEORY, EVEN IF
Pelton & Crane WAS ADVISED OF THE POSSIBILITY OF SUCH DAMAGES.
10.3
The liability of Pelton & Crane for any and
all claims related to or arising out of this Agreement or
any Products provided by Pelton & Crane shall be limited
to the amount paid by Dealer to Pelton & Crane (for the
purchase of Products) during the period of twelve (12)
months immediately preceding the date on which any
such claim is asserted against Pelton & Crane.
11. TERM AND TERMINATION
11.1
The term of this Agreement shall be effective as of the date set forth in the introductory paragraph
and shall continue until terminated as described below unless terminated earlier pursuant to the provisions in this
Agreement.
11.2
Either party may terminate this Agreement immediately: (a) upon breach of this Agreement by
the other party if the breach is not cured within ten (10)
days after written notice of such breach is given or, (b)
upon either party’s insolvency, bankruptcy or suspension
of business.
11.3
Either party may terminate this Agreement for any reason or no reason by giving 60 days’ prior
written notice to the other party.
11.4
Sections 8, 9, 10, 12.6, 12.7, and 12.8, and all
other provisions of this Agreement which may reasonably

113
be interpreted or construed as surviving the expiration,
termination or cancellation of this Agreement, shall survive the expiration, termination or cancellation of this
Agreement.
12. GENERAL PROVISIONS
12.1
Financial Statement. Dealer will from time
to time, upon request by Pelton & Crane, furnish financial
statements and information relating to its financial condition, including its current net worth.
12.2
Nonassignment. Dealer will not, directly or
indirectly (through a transfer of ownership of Dealer or
otherwise) assign, transfer, or sell its rights under this
Agreement, or delegate its duties hereunder, without
prior written consent of Pelton & Crane.
12.3
Independent Dealer. Dealer is an independent business and has no authority (nor will Dealer represent that Dealer has any authority) to bind Pelton &
Crane or to assume or to create any obligation, express or
implied, on behalf of Pelton & Crane. Nothing in this
Agreement shall be construed as constituting Dealer and
Pelton & Crane as partners, or as creating relationships
of employer and employee or principal and agent between
the parties.
12.4
Modification. This Agreement (together
with the Pelton & Crane Terms and Conditions of Sale)
contains the entire agreement between the parties. Unless otherwise provided in this Agreement, no modification of this Agreement shall be binding upon the parties
unless made in writing and signed by both parties.
12.5
Waiver. Pelton & Crane may waive any obligation Dealer has under this Agreement, but such a
waiver shall not be effective unless made in writing.

114
12.6
Indemnification. Dealer will indemnify and
hold Pelton & Crane, its officers, directors, agents, employees, and affiliates harmless from any claims, demands, loss, damage, liability, or expense, including attorneys’ fees and expenses, arising out of the acts or omissions of Dealer, its agents or employees.
12.7
Attorneys’ Fees. In the event any suit or action is brought to enforce or interpret any terms of this
Agreement, the prevailing party shall be entitled to recover reasonable attorneys’ fees and expenses incurred
by it in connection therewith.
12.8
Disputes. This Agreement shall be governed by the laws of the State of North Carolina. Any
dispute arising under or related to this Agreement (except for actions seeking injunctive relief and disputes related to trademarks, trade secrets or other intellectual
property of Pelton & Crane) shall be resolved by binding
arbitration in accordance with the arbitration rules of the
American Arbitration Association. The place of arbitration shall be in Charlotte, North Carolina.
12.9
Notices. Notices shall be deemed given if
delivered personally or sent by first class mail, postage
prepaid, addressed to the other party at the address set
forth in this Agreement or at such other address as designated by the party by written notice.
IN WITNESS WHEREOF, the parties have executed this Agreement as of the date set forth above.
Pelton & Crane

Dealer:

By: ________________

By: Jim Archer

Title: VP Sales

Title: President

Address: 11727 Fruehauf Drive
Charlotte, NC 28273

Address: 1107 Summit
Plano TX 75074

115
EXHIBIT A
TO
DEALER AGREEMENT
FOR
Archer and White Sales
Addresses of Authorized dealer outlets
Archer & White Sales
1107 Summit Ave
Plano, TX 75074
Dynamic Dental Solutions
89 E. 530 Road
Pryor, OK 74361

116
EXHIBIT B
TO
DEALER AGREEMENT
FOR
Archer and White Sales
Minimum Annual Sales Goal
N/A

117
Commercial Arbitration Rules
and Mediation Procedures
Including Procedures for Large,
Complex Commercial Disputes
Rules Amended and Effective June 1, 2009
Fee Schedule Amended and Effective June 1, 2010
American Arbitration Association
Dispute Resolution Service Worldwide
www.adr.org

118
Commercial Arbitration Rules and
Mediation Procedures
Important Notice
These rules and any amendment of them shall apply in
the form in effect at the time the administrative filing requirements are met for a demand for arbitration or submission agreement received by the AAA. To ensure that
you have the most current information, see our website at
www.adr.org.
Introduction
Each year, many millions of business transactions
take place. Occasionally, disagreements develop over
these business transactions. Many of these disputes are
resolved by arbitration, the voluntary submission of a dispute to an impartial person or persons for final and binding determination. Arbitration has proven to be an effective way to resolve these disputes privately, promptly, and
economically.
The American Arbitration Association (AAA), a notfor-profit, public service organization, offers a broad
range of dispute resolution services to business executives, attorneys, individuals, trade associations, unions,
management, consumers, families, communities, and all
levels of government. Services are available through AAA
headquarters in New York and through offices located in
major cities throughout the United States. Hearings may
be held at locations convenient for the parties and are not
limited to cities with AAA offices. In addition, the AAA
serves as a center for education and training, issues specialized publications, and conducts research on all forms
of out-of-court dispute settlement.

119
Standard Arbitration Clause
The parties can provide for arbitration of future disputes by inserting the following clause into their contracts:
Any controversy or claim arising out of or relating to
this contract, or the breach thereof, shall be settled by arbitration administered by the American Arbitration Association under its Commercial Arbitration Rules, and
judgment on the award rendered by the arbitrator(s) may
be entered in any court having jurisdiction thereof.
Arbitration of existing disputes may be accomplished
by use of the following:
We, the undersigned parties, hereby agree to submit
to arbitration administered by the American Arbitration
Association under its Commercial Arbitration Rules the
following controversy: (describe briefly). We further
agree that the above controversy be submitted to (one)
(three) arbitrator(s). We further agree that we will faithfully observe this agreement and the rules, that we will
abide by and perform any award rendered by the arbitrator(s), and that a judgment of any court having jurisdiction may be entered on the award.
In transactions likely to require emergency interim
relief, the parties may wish to add to their clause the following language:
The parties also agree that the AAA Optional Rules
for Emergency Measures of Protection shall apply to the
proceedings.
These Optional Rules may be found on page 49.
The services of the AAA are generally concluded with
the transmittal of the award. Although there is voluntary
compliance with the majority of awards, judgment on the

120
award can be entered in a court having appropriate jurisdiction if necessary.
Administrative Fees
The AAA charges a filing fee based on the amount of
the claim or counterclaim. This fee information, which is
included with these rules, allows the parties to exercise
control over their administrative fees. The fees cover AAA
administrative services; they do not cover arbitrator compensation or expenses, if any, reporting services, or any
post-award charges incurred by the parties in enforcing
the award.
Mediation
The parties might wish to submit their dispute to mediation prior to arbitration. In mediation, the neutral mediator assists the parties in reaching a settlement but does
not have the authority to make a binding decision or
award. Mediation is administered by the AAA in accordance with its Commercial Mediation Procedures. There is
no additional administrative fee where parties to a pending arbitration attempt to mediate their dispute under the
AAA’s auspices.
If the parties want to adopt mediation as a part of their
contractual dispute settlement procedure, they can insert
the following mediation clause into their contract in conjunction with a standard arbitration provision:
If a dispute arises out of or relates to this contract, or
the breach thereof, and if the dispute cannot be settled
through negotiation, the parties agree first to try in good
faith to settle the dispute by mediation administered by
the American Arbitration Association under its Commercial Mediation Procedures before resorting to arbitration, litigation, or some other dispute resolution procedure.

121
If the parties want to use a mediator to resolve an existing dispute, they can enter into the following submission:
The parties hereby submit the following dispute to
mediation administered by the American Arbitration
Association under its Commercial Mediation Procedures. (The clause may also provide for the qualifications
of the mediator(s), method of payment, locale of meetings,
and any other item of concern to the parties.)
Large, Complex Cases
Unless the parties agree otherwise, the Procedures
for Large, Complex Commercial Disputes, which appear
in this pamphlet, will be applied to all cases administered
by the AAA under the Commercial Arbitration Rules in
which the disclosed claim or counterclaim of any party is
at least $500,000 exclusive of claimed interest, arbitration
fees and costs.
The key features of these procedures include:
> a highly qualified, trained Roster of Neutrals;
> a mandatory preliminary hearing with the arbitrators, which may be conducted by teleconference;
> broad arbitrator authority to order and control discovery, including depositions;
> presumption that hearings will proceed on a consecutive or block basis.

122
Commercial Mediation Procedures
M-1. Agreement of Parties
Whenever, by stipulation or in their contract, the parties have provided for mediation or conciliation of existing
or future disputes under the auspices of the American Arbitration Association (AAA) or under these procedures,
the parties and their representatives, unless agreed otherwise in writing, shall be deemed to have made these procedural guidelines, as amended and in effect as of the date
of filing of a request for mediation, a part of their agreement and designate the AAA as the administrator of their
mediation.
The parties by mutual agreement may vary any part
of these procedures including, but not limited to, agreeing
to conduct the mediation via telephone or other electronic
or technical means.
M-2. Initiation of Mediation
Any party or parties to a dispute may initiate mediation under the AAA’s auspices by making a request for
mediation to any of the AAA’s regional offices or case
management centers via telephone, email, regular mail or
fax. Requests for mediation may also be filed online via
AAA WebFile at www.adr.org.
The party initiating the mediation shall simultaneously notify the other party or parties of the request. The
initiating party shall provide the following information to
the AAA and the other party or parties as applicable:
(i) A copy of the mediation provision of the parties’
contract or the parties’ stipulation to mediate.
(ii) The names, regular mail addresses, email addresses and telephone numbers of all parties to the

123
dispute and representatives, if any, in the mediation.
(iii) A brief statement of the nature of the dispute and
the relief requested.
(iv) Any specific qualifications the mediator should
possess.
Where there is no pre-existing stipulation or contract
by which the parties have provided for mediation of existing or future disputes under the auspices of the AAA, a
party may request the AAA to invite another party to participate in “mediation by voluntary submission.” Upon receipt of such a request, the AAA will contact the other
party or parties involved in the dispute and attempt to obtain a submission to mediation.
M-3. Representation
Subject to any applicable law, any party may be represented by persons of the party’s choice. The names and
addresses of such persons shall be communicated in writing to all parties and to the AAA.
M-4. Appointment of the Mediator
Parties may search the online profiles of the AAA’s
Panel of Mediators at www.aaamediation.com in an effort to agree on a mediator. If the parties have not agreed
to the appointment of a mediator and have not provided
any other method of appointment, the mediator shall be
appointed in the following manner:
(i) Upon receipt of a request for mediation, the AAA
will send to each party a list of mediators from the
AAA’s Panel of Mediators. The parties are encouraged to agree to a mediator from the submitted list
and to advise the AAA of their agreement.

124
(ii) If the parties are unable to agree upon a mediator,
each party shall strike unacceptable names from
the list, number the remaining names in order of
preference and return the list to the AAA. If a
party does not return the list within the time specified, all mediators on the list shall be deemed acceptable. From among the mediators who have
been mutually approved by the parties, and in accordance with the designated order of mutual preference, the AAA shall invite a mediator to serve.
(iii) If the parties fail to agree on any of the mediators
listed, or if acceptable mediators are unable to
serve, or if for any other reason the appointment
cannot be made from the submitted list, the AAA
shall have the authority to make the appointment
from among other members of the Panel of Mediators without the submission of additional lists.
M-5. Mediator’s Impartiality and Duty to Disclose
AAA mediators are required to abide by the Model
Standards of Conduct for Mediators in effect at the time
a mediator is appointed to a case. Where there is a conflict
between the Model Standards and any provision of these
Mediation Procedures, these Mediation Procedures shall
govern. The Standards require mediators to (i) decline a
mediation if the mediator cannot conduct it in an impartial
manner, and (ii) disclose, as soon as practicable, all actual
and potential conflicts of interest that are reasonably
known to the mediator and could reasonably be seen as
raising a question about the mediator’s impartiality.
Prior to accepting an appointment, AAA mediators
are required to make a reasonable inquiry to determine
whether there are any facts that a reasonable individual

125
would consider likely to create a potential or actual conflict of interest for the mediator. AAA mediators are required to disclose any circumstance likely to create a presumption of bias or prevent a resolution of the parties’ dispute within the time-frame desired by the parties. Upon
receipt of such disclosures, the AAA shall immediately
communicate the disclosures to the parties for their comments.
The parties may, upon receiving disclosure of actual or
potential conflicts of interest of the mediator, waive such
conflicts and proceed with the mediation. In the event that
a party disagrees as to whether the mediator shall serve,
or in the event that the mediator’s conflict of interest
might reasonably be viewed as undermining the integrity
of the mediation, the mediator shall be replaced.
M-6. Vacancies
If any mediator shall become unwilling or unable to
serve, the AAA will appoint another mediator, unless the
parties agree otherwise, in accordance with section M-4.
M-7. Duties and Responsibilities of the Mediator
(i) The mediator shall conduct the mediation based on
the principle of party self-determination. Self-determination is the act of coming to a voluntary, uncoerced decision in which each party makes free
and informed choices as to process and outcome.
(ii) The mediator is authorized to conduct separate or
ex parte meetings and other communications with
the parties and/or their representatives, before,
during and after any scheduled mediation conference. Such communications may be conducted via
telephone, in writing, via email, online, in person or
otherwise.

126
(iii) The parties are encouraged to exchange all documents pertinent to the relief requested. The mediator may request the exchange of memoranda on
issues, including the underlying interests and the
history of the parties’ negotiations. Information
that a party wishes to keep confidential may be
sent to the mediator, as necessary, in a separate
communication with the mediator.
(iv) The mediator does not have the authority to impose a settlement on the parties but will attempt to
help them reach a satisfactory resolution of their
dispute. Subject to the discretion of the mediator,
the mediator may make oral or written recommendations for settlement to a party privately or, if the
parties agree, to all parties jointly.
(v) In the event a complete settlement of all or some
issues in dispute is not achieved within the scheduled mediation session(s), the mediator may continue to communicate with the parties, for a period
of time, in an ongoing effort to facilitate a complete
settlement.
(vi) The mediator is not a legal representative of any
party and has no fiduciary duty to any party.
M-8. Responsibilities of the Parties
The parties shall ensure that appropriate representatives of each party, having authority to consummate a settlement, attend the mediation conference.
Prior to and during the scheduled mediation conference session(s) the parties and their representatives shall,
as appropriate to each party’s circumstances, exercise
their best efforts to prepare for and engage in a meaningful and productive mediation.

127
M-9. Privacy
Mediation sessions and related mediation communications are private proceedings. The parties and their representatives may attend mediation sessions. Other persons may attend only with the permission of the parties
and with the consent of the mediator.
M-10. Confidentiality
Subject to applicable law or the parties’ agreement,
confidential information disclosed to a mediator by the
parties or by other participants (witnesses) in the course
of the mediation shall not be divulged by the mediator.
The mediator shall maintain the confidentiality of all information obtained in the mediation, and all records, reports or other documents received by a mediator while
serving in that capacity shall be confidential.
The mediator shall not be compelled to divulge such
records or to testify in regard to the mediation in any adversary proceeding or judicial forum.
The parties shall maintain the confidentiality of the
mediation and shall not rely on, or introduce as evidence
in any arbitral, judicial or other proceeding the following,
unless agreed to by the parties or required by applicable
law:
(i) Views expressed or suggestions made by a party
or other participant with respect to a possible settlement of the dispute,
(ii) Admissions made by a party or other participant in
the course of the mediation proceedings,
(iii) Proposals made or views expressed by the mediator; or

128
(iv) The fact that a party had or had not indicated willingness to accept a proposal for settlement made
by the mediator.
M-11. No Stenographic Record
There shall be no stenographic record of the mediation
process.
M-12. Termination of Mediation
The mediation shall be terminated:
(i) By the execution of a settlement agreement by the
parties; or
(ii) By a written or verbal declaration of the mediator
to the effect that further efforts at mediation would
not contribute to a resolution of the parties’ dispute; or
(iii) By a written or verbal declaration of all parties to
the effect that the mediation proceedings are terminated; or
(iv) When there has been no communication between
the mediator and any party or party’s representative for 21 days following the conclusion of the mediation conference.
M-13. Exclusion of Liability
Neither the AAA nor any mediator is a necessary
party in judicial proceedings relating to the mediation.
Neither the AAA nor any mediator shall be liable to any
party for any error, act or omission in connection with any
mediation conducted under these procedures.

129
M-14. Interpretation and Application of Procedures
The mediator shall interpret and apply these procedures insofar as they relate to the mediator’s duties and
responsibilities. All other procedures shall be interpreted
and applied by the AAA.
M-15. Deposits
Unless otherwise directed by the mediator, the AAA
will require the parties to deposit in advance of the mediation conference such sums of money as it, in consultation
with the mediator, deems necessary to cover the costs and
expenses of the mediation and shall render an accounting
to the parties and return any unexpended balance at the
conclusion of the mediation.
M-16. Expenses
All expenses of the mediation, including required traveling and other expenses or charges of the mediator, shall
be borne equally by the parties unless they agree otherwise. The expenses of participants for either side shall be
paid by the party requesting the attendance of such participants.
M-17. Cost of the Mediation
There is no filing fee to initiate a mediation or a fee to
request the AAA to invite parties to mediate.
The cost of mediation is based on the hourly mediation
rate published on the mediator’s AAA profile. This rate
covers both mediator compensation and an allocated portion for the AAA’s services. There is a four-hour minimum
charge for a mediation conference. Expenses referenced
in section M-16 may also apply.

130
If a matter submitted for mediation is withdrawn or
cancelled or results in a settlement after the agreement to
mediate is filed but prior to the mediation conference, the
cost is $250 plus any mediator time and charges incurred.
The parties will be billed equally for all costs unless
they agree otherwise.
If you have questions about mediation costs or services visit our website at www.adr.org or contact your local AAA office.
Conference Room Rental
The costs described do not include the use of AAA conference rooms. Conference rooms are available on a rental
basis. Please contact your local AAA office for availability
and rates.

131
Commercial Arbitration Rules
R-1. Agreement of Parties *+
(a) The parties shall be deemed to have made these
rules a part of their arbitration agreement whenever they have provided for arbitration by the
American Arbitration Association (hereinafter
AAA) under its Commercial Arbitration Rules or
for arbitration by the AAA of a domestic commercial dispute without specifying particular rules.
These rules and any amendment of them shall apply in the form in effect at the time the administrative requirements are met for a demand for arbitration or submission agreement received by the
AAA. The parties, by written agreement, may vary
the procedures set forth in these rules. After appointment of the arbitrator, such modifications
may be made only with the consent of the arbitrator.
The AAA applies the Supplementary Procedures for ConsumerRelated Disputes to arbitration clauses in agreements between individual consumers and businesses where the business has a standardized, systematic application of arbitration clauses with customers and
where the terms and conditions of the purchase of standardized, consumable goods or services are nonnegotiable or primarily non-negotiable in most or all of its terms, conditions, features, or choices. The
product or service must be for personal or household use. The AAA
will have the discretion to apply or not to apply the supplementary
procedures and the parties will be able to bring any disputes concerning the application or non-application to the attention of the arbitrator. Consumers are not prohibited from seeking relief in a small
claims court for disputes or claims within the scope of its jurisdiction,
even in consumer arbitration cases filed by the business.
*

+
A dispute arising out of an employer promulgated plan will be
administered under the AAA’s Employment Arbitration Rules and
Mediation Procedures.

132
(b) Unless the parties or the AAA determines otherwise, the Expedited Procedures shall apply in any
case in which no disclosed claim or counterclaim
exceeds $75,000, exclusive of interest and arbitration fees and costs.
Parties may also agree to use these procedures in
larger cases. Unless the parties agree otherwise,
these procedures will not apply in cases involving
more than two parties. The Expedited Procedures
shall be applied as described in Sections E-1
through E-10 of these rules, in addition to any
other portion of these rules that is not in conflict
with the Expedited Procedures.
(c) Unless the parties agree otherwise, the Procedures
for Large, Complex Commercial Disputes shall apply to all cases in which the disclosed claim or counterclaim of any party is at least $500,000, exclusive
of claimed interest, arbitration fees and costs. Parties may also agree to use the procedures in cases
involving claims or counterclaims under $500,000,
or in nonmonetary cases. The Procedures for
Large, Complex Commercial Disputes shall be applied as described in Sections L-1 through L-4 of
these rules, in addition to any other portion of
these rules that is not in conflict with the Procedures for Large, Complex Commercial Disputes.
(d) All other cases shall be administered in accordance
with Sections R-1 through R-54 of these rules.
R-2. AAA and Delegation of Duties
When parties agree to arbitrate under these rules, or
when they provide for arbitration by the AAA and an arbitration is initiated under these rules, they thereby au-

133
thorize the AAA to administer the arbitration. The authority and duties of the AAA are prescribed in the agreement of the parties and in these rules, and may be carried
out through such of the AAA’s representatives as it may
direct. The AAA may, in its discretion, assign the administration of an arbitration to any of its offices.
R-3. National Roster of Arbitrators
The AAA shall establish and maintain a National Roster of Commercial Arbitrators (“National Roster”) and
shall appoint arbitrators as provided in these rules. The
term “arbitrator” in these rules refers to the arbitration
panel, constituted for a particular case, whether composed of one or more arbitrators, or to an individual arbitrator, as the context requires.
R-4. Initiation under an Arbitration Provision in a
Contract
(a) Arbitration under an arbitration provision in a contract shall be initiated in the following manner:
(i) The initiating party (the “claimant”) shall,
within the time period, if any, specified in the
contract(s), give to the other party (the “respondent”) written notice of its intention to arbitrate (the “demand”), which demand shall
contain a statement setting forth the nature of
the dispute, the names and addresses of all
other parties, the amount involved, if any, the
remedy sought, and the hearing locale requested.
(ii) The claimant shall file at any office of the AAA
two copies of the demand and two copies of the
arbitration provisions of the contract, together
with the appropriate filing fee as provided in

134
the schedule included with these rules.
(iii) The AAA shall confirm notice of such filing to
the parties.
(b) A respondent may file an answering statement in
duplicate with the AAA within 15 days after confirmation of notice of filing of the demand is sent by
the AAA. The respondent shall, at the time of any
such filing, send a copy of the answering statement
to the claimant. If a counterclaim is asserted, it
shall contain a statement setting forth the nature
of the counterclaim, the amount involved, if any,
and the remedy sought. If a counterclaim is made,
the party making the counterclaim shall forward to
the AAA with the answering statement the appropriate fee provided in the schedule included with
these rules.
(c) If no answering statement is filed within the stated
time, respondent will be deemed to deny the claim.
Failure to file an answering statement shall not operate to delay the arbitration.
(d) When filing any statement pursuant to this section,
the parties are encouraged to provide descriptions
of their claims in sufficient detail to make the circumstances of the dispute clear to the arbitrator.
R-5. Initiation under a Submission
Parties to any existing dispute may commence an arbitration under these rules by filing at any office of the
AAA two copies of a written submission to arbitrate under
these rules, signed by the parties. It shall contain a statement of the nature of the dispute, the names and addresses of all parties, any claims and counterclaims, the

135
amount involved, if any, the remedy sought, and the hearing locale requested, together with the appropriate filing
fee as provided in the schedule included with these rules.
Unless the parties state otherwise in the submission, all
claims and counterclaims will be deemed to be denied by
the other party.
R-6. Changes of Claim
After filing of a claim, if either party desires to make
any new or different claim or counterclaim, it shall be
made in writing and filed with the AAA. The party asserting such a claim or counterclaim shall provide a copy to
the other party, who shall have 15 days from the date of
such transmission within which to file an answering statement with the AAA. After the arbitrator is appointed,
however, no new or different claim may be submitted except with the arbitrator’s consent.
R-7. Jurisdiction
(a) The arbitrator shall have the power to rule on his
or her own jurisdiction, including any objections
with respect to the existence, scope or validity of
the arbitration agreement.
(b) The arbitrator shall have the power to determine
the existence or validity of a contract of which an
arbitration clause forms a part. Such an arbitration
clause shall be treated as an agreement independent of the other terms of the contract. A decision
by the arbitrator that the contract is null and void
shall not for that reason alone render invalid the
arbitration clause.
(c) A party must object to the jurisdiction of the arbitrator or to the arbitrability of a claim or counterclaim no later than the filing of the answering

136
statement to the claim or counterclaim that gives
rise to the objection. The arbitrator may rule on
such objections as a preliminary matter or as part
of the final award.
R-8. Mediation
At any stage of the proceedings, the parties may agree
to conduct a mediation conference under the Commercial
Mediation Procedures in order to facilitate settlement.
The mediator shall not be an arbitrator appointed to the
case. Where the parties to a pending arbitration agree to
mediate under the AAA’s rules, no additional administrative fee is required to initiate the mediation.
R-9. Administrative Conference
At the request of any party or upon the AAA’s own initiative, the AAA may conduct an administrative conference, in person or by telephone, with the parties and/or
their representatives. The conference may address such
issues as arbitrator selection, potential mediation of the
dispute, potential exchange of information, a timetable for
hearings and any other administrative matters.
R-10. Fixing of Locale
The parties may mutually agree on the locale where
the arbitration is to be held. If any party requests that the
hearing be held in a specific locale and the other party files
no objection thereto within 15 days after notice of the request has been sent to it by the AAA, the locale shall be
the one requested. If a party objects to the locale requested by the other party, the AAA shall have the power
to determine the locale, and its decision shall be final and
binding.

137
R-11. Appointment from National Roster
(a) If the parties have not appointed an arbitrator and
have not provided any other method of appointment, the arbitrator shall be appointed in the following manner: The AAA shall send simultaneously to each party to the dispute an identical list
of 10 (unless the AAA decides that a different number is appropriate) names of persons chosen from
the National Roster. The parties are encouraged to
agree to an arbitrator from the submitted list and
to advise the AAA of their agreement.
(b) If the parties are unable to agree upon an arbitrator, each party to the dispute shall have 15 days
from the transmittal date in which to strike names
objected to, number the remaining names in order
of preference, and return the list to the AAA. If a
party does not return the list within the time specified, all persons named therein shall be deemed
acceptable. From among the persons who have
been approved on both lists, and in accordance
with the designated order of mutual preference,
the AAA shall invite the acceptance of an arbitrator to serve. If the parties fail to agree on any of
the persons named, or if acceptable arbitrators are
unable to act, or if for any other reason the appointment cannot be made from the submitted lists, the
AAA shall have the power to make the appointment from among other members of the National
Roster without the submission of additional lists.
(c) Unless the parties agree otherwise when there are
two or more claimants or two or more respondents,
the AAA may appoint all the arbitrators.

138
R-12. Direct Appointment by a Party
(a) If the agreement of the parties names an arbitrator
or specifies a method of appointing an arbitrator,
that designation or method shall be followed. The
notice of appointment, with the name and address
of the arbitrator, shall be filed with the AAA by the
appointing party. Upon the request of any appointing party, the AAA shall submit a list of members
of the National Roster from which the party may,
if it so desires, make the appointment.
(b) Where the parties have agreed that each party is
to name one arbitrator, the arbitrators so named
must meet the standards of Section R-17 with respect to impartiality and independence unless the
parties have specifically agreed pursuant to Section R-17(a) that the party-appointed arbitrators
are to be non-neutral and need not meet those
standards.
(c) If the agreement specifies a period of time within
which an arbitrator shall be appointed and any
party fails to make the appointment within that period, the AAA shall make the appointment.
(d) If no period of time is specified in the agreement,
the AAA shall notify the party to make the appointment. If within 15 days after such notice has been
sent, an arbitrator has not been appointed by a
party, the AAA shall make the appointment.
R-13. Appointment of Chairperson by Party-Appointed Arbitrators or Parties
(a) If, pursuant to Section R-12, either the parties
have directly appointed arbitrators, or the arbitra-

139
tors have been appointed by the AAA, and the parties have authorized them to appoint a chairperson
within a specified time and no appointment is made
within that time or any agreed extension, the AAA
may appoint the chairperson.
(b) If no period of time is specified for appointment of
the chairperson and the party-appointed arbitrators or the parties do not make the appointment
within 15 days from the date of the appointment of
the last party-appointed arbitrator, the AAA may
appoint the chairperson.
(c) If the parties have agreed that their party-appointed arbitrators shall appoint the chairperson
from the National Roster, the AAA shall furnish to
the party-appointed arbitrators, in the manner
provided in Section R-11, a list selected from the
National Roster, and the appointment of the chairperson shall be made as provided in that section.
R-14. Nationality of Arbitrator
Where the parties are nationals of different countries,
the AAA, at the request of any party or on its own initiative, may appoint as arbitrator a national of a country
other than that of any of the parties. The request must be
made before the time set for the appointment of the arbitrator as agreed by the parties or set by these rules.
R-15. Number of Arbitrators
If the arbitration agreement does not specify the number of arbitrators, the dispute shall be heard and determined by one arbitrator, unless the AAA, in its discretion,
directs that three arbitrators be appointed. A party may
request three arbitrators in the demand or answer, which
request the AAA will consider in exercising its discretion

140
regarding the number of arbitrators appointed to the dispute.
R-16. Disclosure
(a) Any person appointed or to be appointed as an arbitrator shall disclose to the AAA any circumstance likely to give rise to justifiable doubt as to
the arbitrator’s impartiality or independence, including any bias or any financial or personal interest in the result of the arbitration or any past or
present relationship with the parties or their representatives. Such obligation shall remain in effect
throughout the arbitration.
(b) Upon receipt of such information from the arbitrator or another source, the AAA shall communicate
the information to the parties and, if it deems it appropriate to do so, to the arbitrator and others.
(c) In order to encourage disclosure by arbitrators,
disclosure of information pursuant to this Section
R-16 is not to be construed as an indication that the
arbitrator considers that the disclosed circumstance is likely to affect impartiality or independence.
R-17. Disqualification of Arbitrator
(a) Any arbitrator shall be impartial and independent
and shall perform his or her duties with diligence
and in good faith, and shall be subject to disqualification for:
(i) partiality or lack of independence,
(ii) inability or refusal to perform his or her duties
with diligence and in good faith, and

141
(iii) any grounds for disqualification provided by applicable law. The parties may agree in writing,
however, that arbitrators directly appointed by
a party pursuant to Section R-12 shall be
nonneutral, in which case such arbitrators need
not be impartial or independent and shall not
be subject to disqualification for partiality or
lack of independence.
(b) Upon objection of a party to the continued service
of an arbitrator, or on its own initiative, the AAA
shall determine whether the arbitrator should be
disqualified under the grounds set out above, and
shall inform the parties of its decision, which decision shall be conclusive.
R-18. Communication with Arbitrator
(a) No party and no one acting on behalf of any party
shall communicate ex parte with an arbitrator or a
candidate for arbitrator concerning the arbitration, except that a party, or someone acting on behalf of a party, may communicate ex parte with a
candidate for direct appointment pursuant to Section R-12 in order to advise the candidate of the
general nature of the controversy and of the anticipated proceedings and to discuss the candidate’s
qualifications, availability, or independence in relation to the parties or to discuss the suitability of
candidates for selection as a third arbitrator where
the parties or party-designated arbitrators are to
participate in that selection.
(b) Section R-18(a) does not apply to arbitrators directly appointed by the parties who, pursuant to
Section R-17(a), the parties have agreed in writing
are non-neutral. Where the parties have so agreed

142
under Section R-17(a), the AAA shall as an administrative practice suggest to the parties that they
agree further that Section R-18(a) should nonetheless apply prospectively.
R-19. Vacancies
(a) If for any reason an arbitrator is unable to perform
the duties of the office, the AAA may, on proof satisfactory to it, declare the office vacant. Vacancies
shall be filled in accordance with the applicable
provisions of these rules.
(b) In the event of a vacancy in a panel of neutral arbitrators after the hearings have commenced, the remaining arbitrator or arbitrators may continue
with the hearing and determination of the controversy, unless the parties agree otherwise.
(c) In the event of the appointment of a substitute arbitrator, the panel of arbitrators shall determine in
its sole discretion whether it is necessary to repeat
all or part of any prior hearings.
R-20. Preliminary Hearing
(a) At the request of any party or at the discretion of
the arbitrator or the AAA, the arbitrator may
schedule as soon as practicable a preliminary hearing with the parties and/or their representatives.
The preliminary hearing may be conducted by telephone at the arbitrator’s discretion.
(b) During the preliminary hearing, the parties and
the arbitrator should discuss the future conduct of
the case, including clarification of the issues and
claims, a schedule for the hearings and any other
preliminary matters.

143
R-21. Exchange of Information
(a) At the request of any party or at the discretion of
the arbitrator, consistent with the expedited nature of arbitration, the arbitrator may direct
(i) the production of documents and other information, and
(ii) the identification of any witnesses to be called.
(b) At least five business days prior to the hearing, the
parties shall exchange copies of all exhibits they intend to submit at the hearing.
(c) The arbitrator is authorized to resolve any disputes
concerning the exchange of information.
R-22. Date, Time, and Place of Hearing
The arbitrator shall set the date, time, and place for
each hearing. The parties shall respond to requests for
hearing dates in a timely manner, be cooperative in scheduling the earliest practicable date, and adhere to the established hearing schedule. The AAA shall send a notice
of hearing to the parties at least 10 days in advance of the
hearing date, unless otherwise agreed by the parties.
R-23. Attendance at Hearings
The arbitrator and the AAA shall maintain the privacy
of the hearings unless the law provides to the contrary.
Any person having a direct interest in the arbitration is
entitled to attend hearings. The arbitrator shall otherwise
have the power to require the exclusion of any witness,
other than a party or other essential person, during the
testimony of any other witness. It shall be discretionary
with the arbitrator to determine the propriety of the attendance of any other person other than a party and its
representatives.

144
R-24. Representation
Any party may be represented by counsel or other authorized representative. A party intending to be so represented shall notify the other party and the AAA of the
name and address of the representative at least three
days prior to the date set for the hearing at which that
person is first to appear. When such a representative initiates an arbitration or responds for a party, notice is
deemed to have been given.
R-25. Oaths
Before proceeding with the first hearing, each arbitrator may take an oath of office and, if required by law, shall
do so. The arbitrator may require witnesses to testify under oath administered by any duly qualified person and, if
it is required by law or requested by any party, shall do
so.
R-26. Stenographic Record
Any party desiring a stenographic record shall make
arrangements directly with a stenographer and shall notify the other parties of these arrangements at least three
days in advance of the hearing.
The requesting party or parties shall pay the cost of
the record. If the transcript is agreed by the parties, or
determined by the arbitrator to be the official record of
the proceeding, it must be provided to the arbitrator and
made available to the other parties for inspection, at a
date, time, and place determined by the arbitrator.
R-27. Interpreters
Any party wishing an interpreter shall make all arrangements directly with the interpreter and shall assume the costs of the service.

145
R-28. Postponements
The arbitrator may postpone any hearing upon agreement of the parties, upon request of a party for good cause
shown, or upon the arbitrator’s own initiative.
R-29. Arbitration in the Absence of a Party or Representative
Unless the law provides to the contrary, the arbitration may proceed in the absence of any party or representative who, after due notice, fails to be present or fails
to obtain a postponement. An award shall not be made
solely on the default of a party. The arbitrator shall require the party who is present to submit such evidence as
the arbitrator may require for the making of an award.
R-30. Conduct of Proceedings
(a) The claimant shall present evidence to support its
claim. The respondent shall then present evidence
to support its defense. Witnesses for each party
shall also submit to questions from the arbitrator
and the adverse party. The arbitrator has the discretion to vary this procedure, provided that the
parties are treated with equality and that each
party has the right to be heard and is given a fair
opportunity to present its case.
(b) The arbitrator, exercising his or her discretion,
shall conduct the proceedings with a view to expediting the resolution of the dispute and may direct
the order of proof, bifurcate proceedings and direct the parties to focus their presentations on issues the decision of which could dispose of all or
part of the case.
(c) The parties may agree to waive oral hearings in
any case.

146
R-31. Evidence
(a) The parties may offer such evidence as is relevant
and material to the dispute and shall produce such
evidence as the arbitrator may deem necessary to
an understanding and determination of the dispute. Conformity to legal rules of evidence shall
not be necessary. All evidence shall be taken in the
presence of all of the arbitrators and all of the parties, except where any of the parties is absent, in
default or has waived the right to be present.
(b) The arbitrator shall determine the admissibility,
relevance, and materiality of the evidence offered
and may exclude evidence deemed by the arbitrator to be cumulative or irrelevant.
(c) The arbitrator shall take into account applicable
principles of legal privilege, such as those involving
the confidentiality of communications between a
lawyer and client.
(d) An arbitrator or other person authorized by law to
subpoena witnesses or documents may do so upon
the request of any party or independently.
R-32. Evidence by Affidavit and Post-hearing Filing of Documents or Other Evidence
(a) The arbitrator may receive and consider the evidence of witnesses by declaration or affidavit, but
shall give it only such weight as the arbitrator
deems it entitled to after consideration of any objection made to its admission.
(b) If the parties agree or the arbitrator directs that
documents or other evidence be submitted to the
arbitrator after the hearing, the documents or
other evidence shall be filed with the AAA for

147
transmission to the arbitrator. All parties shall be
afforded an opportunity to examine and respond
to such documents or other evidence.
R-33. Inspection or Investigation
An arbitrator finding it necessary to make an inspection or investigation in connection with the arbitration
shall direct the AAA to so advise the parties. The arbitrator shall set the date and time and the AAA shall notify
the parties. Any party who so desires may be present at
such an inspection or investigation. In the event that one
or all parties are not present at the inspection or investigation, the arbitrator shall make an oral or written report
to the parties and afford them an opportunity to comment.
R-34. Interim Measures **
(a) The arbitrator may take whatever interim
measures he or she deems necessary, including injunctive relief and measures for the protection or
conservation of property and disposition of perishable goods.
(b) Such interim measures may take the form of an interim award, and the arbitrator may require security for the costs of such measures.
(c) A request for interim measures addressed by a
party to a judicial authority shall not be deemed incompatible with the agreement to arbitrate or a
waiver of the right to arbitrate.
R-35. Closing of Hearing
The arbitrator shall specifically inquire of all parties
whether they have any further proofs to offer or witnesses
**

The Optional Rules may be found on page 49.

148
to be heard. Upon receiving negative replies or if satisfied
that the record is complete, the arbitrator shall declare
the hearing closed. If briefs are to be filed, the hearing
shall be declared closed as of the final date set by the arbitrator for the receipt of briefs. If documents are to be
filed as provided in Section R-32 and the date set for their
receipt is later than that set for the receipt of briefs, the
later date shall be the closing date of the hearing. The
time limit within which the arbitrator is required to make
the award shall commence, in the absence of other agreements by the parties, upon the closing of the hearing.
R-36. Reopening of Hearing
The hearing may be reopened on the arbitrator’s initiative, or upon application of a party, at any time before
the award is made. If reopening the hearing would prevent the making of the award within the specific time
agreed on by the parties in the contract(s) out of which the
controversy has arisen, the matter may not be reopened
unless the parties agree on an extension of time. When no
specific date is fixed in the contract, the arbitrator may
reopen the hearing and shall have 30 days from the closing
of the reopened hearing within which to make an award.
R-37. Waiver of Rules
Any party who proceeds with the arbitration after
knowledge that any provision or requirement of these
rules has not been complied with and who fails to state an
objection in writing shall be deemed to have waived the
right to object.
R-38. Extensions of Time
The parties may modify any period of time by mutual
agreement. The AAA or the arbitrator may for good cause

149
extend any period of time established by these rules, except the time for making the award. The AAA shall notify
the parties of any extension.
R-39. Serving of Notice
(a) Any papers, notices, or process necessary or
proper for the initiation or continuation of an arbitration under these rules, for any court action in
connection therewith, or for the entry of judgment
on any award made under these rules may be
served on a party by mail addressed to the party,
or its representative at the last known address or
by personal service, in or outside the state where
the arbitration is to be held, provided that reasonable opportunity to be heard with regard to the
dispute is or has been granted to the party.
(b) The AAA, the arbitrator and the parties may also
use overnight delivery or electronic facsimile
transmission (fax), to give the notices required by
these rules. Where all parties and the arbitrator
agree, notices may be transmitted by electronic
mail (e-mail), or other methods of communication.
(c) Unless otherwise instructed by the AAA or by the
arbitrator, any documents submitted by any party
to the AAA or to the arbitrator shall simultaneously be provided to the other party or parties to
the arbitration.
R-40. Majority Decision
When the panel consists of more than one arbitrator,
unless required by law or by the arbitration agreement, a
majority of the arbitrators must make all decisions.

150
R-41. Time of Award
The award shall be made promptly by the arbitrator
and, unless otherwise agreed by the parties or specified
by law, no later than 30 days from the date of closing the
hearing, or, if oral hearings have been waived, from the
date of the AAA’s transmittal of the final statements and
proofs to the arbitrator.
R-42. Form of Award
(a) Any award shall be in writing and signed by a majority of the arbitrators. It shall be executed in the
manner required by law.
(b) The arbitrator need not render a reasoned award
unless the parties request such an award in writing
prior to appointment of the arbitrator or unless the
arbitrator determines that a reasoned award is appropriate.
R-43. Scope of Award
(a) The arbitrator may grant any remedy or relief that
the arbitrator deems just and equitable and within
the scope of the agreement of the parties, including, but not limited to, specific performance of a
contract.
(b) In addition to a final award, the arbitrator may
make other decisions, including interim, interlocutory, or partial rulings, orders, and awards. In any
interim, interlocutory, or partial award, the arbitrator may assess and apportion the fees, expenses, and compensation related to such award as
the arbitrator determines is appropriate.
(c) In the final award, the arbitrator shall assess the
fees, expenses, and compensation provided in Sec-

151
tions R-49, R-50, and R-51. The arbitrator may apportion such fees, expenses, and compensation
among the parties in such amounts as the arbitrator determines is appropriate.
(d) The award of the arbitrator(s) may include:
(i) interest at such rate and from such date as the
arbitrator(s) may deem appropriate; and
(ii) an award of attorneys’ fees if all parties have
requested such an award or it is authorized by law
or their arbitration agreement.
R-44. Award upon Settlement
If the parties settle their dispute during the course of
the arbitration and if the parties so request, the arbitrator
may set forth the terms of the settlement in a “consent
award.” A consent award must include an allocation of arbitration costs, including administrative fees and expenses as well as arbitrator fees and expenses.
R-45. Delivery of Award to Parties
Parties shall accept as notice and delivery of the award
the placing of the award or a true copy thereof in the mail
addressed to the parties or their representatives at the
last known addresses, personal or electronic service of the
award, or the filing of the award in any other manner that
is permitted by law.
R-46. Modification of Award
Within 20 days after the transmittal of an award, any
party, upon notice to the other parties, may request the
arbitrator, through the AAA, to correct any clerical, typographical, or computational errors in the award. The arbitrator is not empowered to redetermine the merits of any
claim already decided. The other parties shall be given 10

152
days to respond to the request. The arbitrator shall dispose of the request within 20 days after transmittal by the
AAA to the arbitrator of the request and any response
thereto.
R-47. Release of Documents for Judicial Proceedings
The AAA shall, upon the written request of a party,
furnish to the party, at the party’s expense, certified copies of any papers in the AAA’s possession that may be required in judicial proceedings relating to the arbitration.
R-48. Applications to Court and Exclusion of Liability
(a) No judicial proceeding by a party relating to the
subject matter of the arbitration shall be deemed a
waiver of the party’s right to arbitrate.
(b) Neither the AAA nor any arbitrator in a proceeding under these rules is a necessary or proper
party in judicial proceedings relating to the arbitration.
(c) Parties to an arbitration under these rules shall be
deemed to have consented that judgment upon the
arbitration award may be entered in any federal or
state court having jurisdiction thereof.
(d) Parties to an arbitration under these rules shall be
deemed to have consented that neither the AAA
nor any arbitrator shall be liable to any party in
any action for damages or injunctive relief for any
act or omission in connection with any arbitration
under these rules.

153
R-49. Administrative Fees
As a not-for-profit organization, the AAA shall prescribe an initial filing fee and a case service fee to compensate it for the cost of providing administrative services.
The fees in effect when the fee or charge is incurred shall
be applicable. The filing fee shall be advanced by the party
or parties making a claim or counterclaim, subject to final
apportionment by the arbitrator in the award. The AAA
may, in the event of extreme hardship on the part of any
party, defer or reduce the administrative fees.
R-50. Expenses
The expenses of witnesses for either side shall be paid
by the party producing such witnesses. All other expenses
of the arbitration, including required travel and other expenses of the arbitrator, AAA representatives, and any
witness and the cost of any proof produced at the direct
request of the arbitrator, shall be borne equally by the
parties, unless they agree otherwise or unless the arbitrator in the award assesses such expenses or any part
thereof against any specified party or parties.
R-51. Neutral Arbitrator’s Compensation
(a) Arbitrators shall be compensated at a rate consistent with the arbitrator’s stated rate of compensation.
(b) If there is disagreement concerning the terms of
compensation, an appropriate rate shall be established with the arbitrator by the AAA and confirmed to the parties.
(c) Any arrangement for the compensation of a neutral
arbitrator shall be made through the AAA and not
directly between the parties and the arbitrator.

154
R-52. Deposits
The AAA may require the parties to deposit in advance of any hearings such sums of money as it deems
necessary to cover the expense of the arbitration, including the arbitrator’s fee, if any, and shall render an accounting to the parties and return any unexpended balance at the conclusion of the case.
R-53. Interpretation and Application of Rules
The arbitrator shall interpret and apply these rules insofar as they relate to the arbitrator’s powers and duties.
When there is more than one arbitrator and a difference
arises among them concerning the meaning or application
of these rules, it shall be decided by a majority vote. If
that is not possible, either an arbitrator or a party may
refer the question to the AAA for final decision. All other
rules shall be interpreted and applied by the AAA.
R-54. Suspension for Nonpayment
If arbitrator compensation or administrative charges
have not been paid in full, the AAA may so inform the parties in order that one of them may advance the required
payment. If such payments are not made, the arbitrator
may order the suspension or termination of the proceedings. If no arbitrator has yet been appointed, the AAA
may suspend the proceedings.

155
Expedited Procedures
E-1. Limitation on Extensions
Except in extraordinary circumstances, the AAA or
the arbitrator may grant a party no more than one sevenday extension of time to respond to the demand for arbitration or counterclaim as provided in Section R-4.
E-2. Changes of Claim or Counterclaim
A claim or counterclaim may be increased in amount,
or a new or different claim or counterclaim added, upon
the agreement of the other party, or the consent of the
arbitrator. After the arbitrator is appointed, however, no
new or different claim or counterclaim may be submitted
except with the arbitrator’s consent. If an increased claim
or counterclaim exceeds $75,000, the case will be administered under the regular procedures unless all parties and
the arbitrator agree that the case may continue to be processed under the Expedited Procedures.
E-3. Serving of Notices
In addition to notice provided by Section R-39(b), the
parties shall also accept notice by telephone. Telephonic
notices by the AAA shall subsequently be confirmed in
writing to the parties. Should there be a failure to confirm
in writing any such oral notice, the proceeding shall nevertheless be valid if notice has, in fact, been given by telephone.
E-4. Appointment and Qualifications of Arbitrator
(a) The AAA shall simultaneously submit to each party
an identical list of five proposed arbitrators drawn
from its National Roster from which one arbitrator
shall be appointed.

156
(b) The parties are encouraged to agree to an arbitrator from this list and to advise the AAA of their
agreement. If the parties are unable to agree upon
an arbitrator, each party may strike two names
from the list and return it to the AAA within seven
days from the date of the AAA’s mailing to the parties. If for any reason the appointment of an arbitrator cannot be made from the list, the AAA may
make the appointment from other members of the
panel without the submission of additional lists.
(c) The parties will be given notice by the AAA of the
appointment of the arbitrator, who shall be subject
to disqualification for the reasons specified in Section R-17. The parties shall notify the AAA within
seven days of any objection to the arbitrator appointed. Any such objection shall be for cause and
shall be confirmed in writing to the AAA with a
copy to the other party or parties.
E-5. Exchange of Exhibits
At least two business days prior to the hearing, the
parties shall exchange copies of all exhibits they intend to
submit at the hearing. The arbitrator shall resolve disputes concerning the exchange of exhibits.
E-6. Proceedings on Documents
Where no party’s claim exceeds $10,000, exclusive of
interest and arbitration costs, and other cases in which the
parties agree, the dispute shall be resolved by submission
of documents, unless any party requests an oral hearing,
or the arbitrator determines that an oral hearing is necessary. The arbitrator shall establish a fair and equitable
procedure for the submission of documents.

157
E-7. Date, Time, and Place of Hearing
In cases in which a hearing is to be held, the arbitrator
shall set the date, time, and place of the hearing, to be
scheduled to take place within 30 days of confirmation of
the arbitrator’s appointment. The AAA will notify the parties in advance of the hearing date.
E-8. The Hearing
(a) Generally, the hearing shall not exceed one day.
Each party shall have equal opportunity to submit
its proofs and complete its case. The arbitrator
shall determine the order of the hearing, and may
require further submission of documents within
two days after the hearing. For good cause shown,
the arbitrator may schedule additional hearings
within seven business days after the initial day of
hearings.
(b) Generally, there will be no stenographic record.
Any party desiring a stenographic record may arrange for one pursuant to the provisions of Section
R-26.
E-9. Time of Award
Unless otherwise agreed by the parties, the award
shall be rendered not later than 14 days from the date of
the closing of the hearing or, if oral hearings have been
waived, from the date of the AAA’s transmittal of the final
statements and proofs to the arbitrator.
E-10. Arbitrator’s Compensation
Arbitrators will receive compensation at a rate to be
suggested by the AAA regional office.

158
Procedures for Large, Complex Commercial Disputes
L-1. Administrative Conference
Prior to the dissemination of a list of potential arbitrators, the AAA shall, unless the parties agree otherwise,
conduct an administrative conference with the parties
and/or their attorneys or other representatives by conference call. The conference will take place within 14 days
after the commencement of the arbitration. In the event
the parties are unable to agree on a mutually acceptable
time for the conference, the AAA may contact the parties
individually to discuss the issues contemplated herein.
Such administrative conference shall be conducted for the
following purposes and for such additional purposes as the
parties or the AAA may deem appropriate:
(a) to obtain additional information about the nature
and magnitude of the dispute and the anticipated
length of hearing and scheduling;
(b) to discuss the views of the parties about the technical and other qualifications of the arbitrators;
(c) to obtain conflicts statements from the parties; and
(d) to consider, with the parties, whether mediation or
other nonadjudicative methods of dispute resolution might be appropriate.
L-2. Arbitrators
(a) Large, complex commercial cases shall be heard
and determined by either one or three arbitrators,
as may be agreed upon by the parties. If the parties are unable to agree upon the number of arbitrators and a claim or counterclaim involves at
least $1,000,000, then three arbitrator(s) shall hear
and determine the case. If the parties are unable
to agree on the number of arbitrators and each

159
claim and counterclaim is less than $1,000,000, then
one arbitrator shall hear and determine the case.
(b) The AAA shall appoint arbitrator(s) as agreed by
the parties. If they are unable to agree on a method
of appointment, the AAA shall appoint arbitrators
from the Large, Complex Commercial Case Panel,
in the manner provided in the regular Commercial
Arbitration Rules. Absent agreement of the parties, the arbitrator(s) shall not have served as the
mediator in the mediation phase of the instant proceeding.
L-3. Preliminary Hearing
As promptly as practicable after the selection of the
arbitrator(s), a preliminary hearing shall be held among
the parties and/or their attorneys or other representatives and the arbitrator(s). Unless the parties agree otherwise, the preliminary hearing will be conducted by telephone conference call rather than in person. At the preliminary hearing the matters to be considered shall include, without limitation:
(a) service of a detailed statement of claims, damages
and defenses, a statement of the issues asserted by
each party and positions with respect thereto, and
any legal authorities the parties may wish to bring
to the attention of the arbitrator(s);
(b) stipulations to uncontested facts;
(c) the extent to which discovery shall be conducted;
(d) exchange and premarking of those documents
which each party believes may be offered at the
hearing;
(e) the identification and availability of witnesses, including experts, and such matters with respect to

160
witnesses including their biographies and expected
testimony as may be appropriate;
(f) whether, and the extent to which, any sworn statements and/or depositions may be introduced;
(g) the extent to which hearings will proceed on consecutive days;
(h) whether a stenographic or other official record of
the proceedings shall be maintained;
(i) the possibility of utilizing mediation or other nonadjudicative methods of dispute resolution; and
(j) the procedure for the issuance of subpoenas.
By agreement of the parties and/or order of the arbitrator(s), the pre-hearing activities and the hearing procedures that will govern the arbitration will be memorialized in a Scheduling and Procedure Order.
L-4. Management of Proceedings
(a) Arbitrator(s) shall take such steps as they may
deem necessary or desirable to avoid delay and to
achieve a just, speedy and cost-effective resolution
of large, complex commercial cases.
(b) Parties shall cooperate in the exchange of documents, exhibits and information within such
party’s control if the arbitrator(s) consider such
production to be consistent with the goal of achieving a just, speedy and cost-effective resolution of a
large, complex commercial case.
(c) The parties may conduct such discovery as may be
agreed to by all the parties provided, however, that
the arbitrator(s) may place such limitations on the
conduct of such discovery as the arbitrator(s) shall
deem appropriate. If the parties cannot agree on

161
production of documents and other information,
the arbitrator(s), consistent with the expedited nature of arbitration, may establish the extent of the
discovery.
(d) At the discretion of the arbitrator(s), upon good
cause shown and consistent with the expedited nature of arbitration, the arbitrator(s) may order
depositions of, or the propounding of interrogatories to, such persons who may possess information
determined by the arbitrator(s) to be necessary to
determination of the matter.
(e) The parties shall exchange copies of all exhibits
they intend to submit at the hearing 10 business
days prior to the hearing unless the arbitrator(s)
determine otherwise.
(f) The exchange of information pursuant to this rule,
as agreed by the parties and/or directed by the arbitrator(s), shall be included within the Scheduling
and Procedure Order.
(g) The arbitrator is authorized to resolve any disputes
concerning the exchange of information.
(h) Generally hearings will be scheduled on consecutive days or in blocks of consecutive days in order
to maximize efficiency and minimize costs.

162
Optional Rules for Emergency Measures of Protection
O-1. Applicability
Where parties by special agreement or in their arbitration clause have adopted these rules for emergency
measures of protection, a party in need of emergency relief prior to the constitution of the panel shall notify the
AAA and all other parties in writing of the nature of the
relief sought and the reasons why such relief is required
on an emergency basis. The application shall also set forth
the reasons why the party is entitled to such relief. Such
notice may be given by facsimile transmission, or other
reliable means, but must include a statement certifying
that all other parties have been notified or an explanation
of the steps taken in good faith to notify other parties.
O-2. Appointment of Emergency Arbitrator
Within one business day of receipt of notice as provided in Section O-1, the AAA shall appoint a single emergency arbitrator from a special AAA panel of emergency
arbitrators designated to rule on emergency applications.
The emergency arbitrator shall immediately disclose any
circumstance likely, on the basis of the facts disclosed in
the application, to affect such arbitrator’s impartiality or
independence. Any challenge to the appointment of the
emergency arbitrator must be made within one business
day of the communication by the AAA to the parties of the
appointment of the emergency arbitrator and the circumstances disclosed.
O-3. Schedule
The emergency arbitrator shall as soon as possible,
but in any event within two business days of appointment,
establish a schedule for consideration of the application

163
for emergency relief. Such schedule shall provide a reasonable opportunity to all parties to be heard, but may
provide for proceeding by telephone conference or on
written submissions as alternatives to a formal hearing.
O-4. Interim Award
If after consideration, the emergency arbitrator is satisfied that the party seeking the emergency relief has
shown that immediate and irreparable loss or damage will
result in the absence of emergency relief, and that such
party is entitled to such relief, the emergency arbitrator
may enter an interim award granting the relief and stating the reasons therefore.
O-5. Constitution of the Panel
Any application to modify an interim award of emergency relief must be based on changed circumstances and
may be made to the emergency arbitrator until the panel
is constituted; thereafter such a request shall be addressed to the panel. The emergency arbitrator shall have
no further power to act after the panel is constituted unless the parties agree that the emergency arbitrator is
named as a member of the panel.
O-6. Security
Any interim award of emergency relief may be conditioned on provision by the party seeking such relief of appropriate security.
O-7. Special Master
A request for interim measures addressed by a party
to a judicial authority shall not be deemed incompatible
with the agreement to arbitrate or a waiver of the right to
arbitrate. If the AAA is directed by a judicial authority to
nominate a special master to consider and report on an
application for emergency relief, the AAA shall proceed

164
as provided in Section O-1 of this article and the references to the emergency arbitrator shall be read to mean
the special master, except that the special master shall issue a report rather than an interim award.
O-8. Costs
The costs associated with applications for emergency
relief shall initially be apportioned by the emergency arbitrator or special master, subject to the power of the
panel to determine finally the apportionment of such
costs.

165
Administrative Fee Schedules
(Standard and Flexible Fee)
The AAA has two administrative fee options for parties filing claims or counterclaims, the Standard Fee
Schedule and Flexible Fee Schedule. The Standard Fee
Schedule has a two payment schedule, and the Flexible
Fee Schedule has a three payment schedule which offers
lower initial filing fees, but potentially higher total administrative fees of approximately 12% to 19% for cases that
proceed to a hearing. The administrative fees of the AAA
are based on the amount of the claim or counterclaim. Arbitrator compensation is not included in this schedule. Unless the parties agree otherwise, arbitrator compensation
and administrative fees are subject to allocation by the arbitrator in the award.
In an effort to make arbitration costs reasonable for
consumers, the AAA has a separate fee schedule for consumer-related disputes. Please refer to Section C-8 of the
Supplementary Procedures for Consumer-Related Disputes when filing a consumer-related claim. Note that the
Flexible Fee Schedule is not available on cases administered under these supplementary procedures.
The AAA applies the Supplementary Procedures for
Consumer-Related Disputes to arbitration clauses in
agreements between individual consumers and businesses where the business has a standardized, systematic
application of arbitration clauses with customers and
where the terms and conditions of the purchase of standardized, consumable goods or services are non-negotiable
or primarily non-negotiable in most or all of its terms, conditions, features, or choices. The product or service must
be for personal or household use. The AAA will have the
discretion to apply or not to apply the Supplementary

166
Procedures and the parties will be able to bring any disputes concerning the application or non-application to the
attention of the arbitrator. Consumers are not prohibited
from seeking relief in a small claims court for disputes or
claims within the scope of its jurisdiction, even in consumer arbitration cases filed by the business.
Fees for incomplete or deficient filings: Where the
applicable arbitration agreement does not reference the
AAA, the AAA will attempt to obtain the agreement of the
other parties to the dispute to have the arbitration administered by the AAA. However, where the AAA is unable
to obtain the agreement of the parties to have the AAA
administer the arbitration, the AAA will administratively
close the case and will not proceed with the administration
of the arbitration. In these cases, the AAA will return the
filing fees to the filing party, less the amount specified in
the fee schedule below for deficient filings.
Parties that file demands for arbitration that are incomplete or otherwise do not meet the filing requirements
contained in these Rules shall also be charged the amount
specified below for deficient filings if they fail or are unable to respond to the AAA’s request to correct the deficiency.
Fees for additional services: The AAA reserves the
right to assess additional administrative fees for services
performed by the AAA beyond those provided for in these
Rules which may be required by the parties’ agreement
or stipulation.
Standard Fee Schedule
An Initial Filing Fee is payable in full by a filing party
when a claim, counterclaim, or additional claim is filed. A
Final Fee will be incurred for all cases that proceed to
their first hearing. This fee will be payable in advance at

167
the time that the first hearing is scheduled. This fee will
be refunded at the conclusion of the case if no hearings
have occurred. However, if the Association is not notified
at least 24 hours before the time of the scheduled hearing,
the Final Fee will remain due and will not be refunded.
These fees will be billed in accordance with the following
schedule:

168
Amount of Claim

Initial Filing
Fee

Final
Fee

Above $0 to $10,000

$775

$200

Above $10,000 to $75,000
Above $75,000 to $150,000
Above $150,000 to $300,000
Above $300,000 to 500,000
Above $500,000 to $1,000,000
Above $1,000,000 to
$5,000,000
Above $5,000,000 to
$10,000,000
Above $10,000,000

$975
$1,850
$2,800
$4,350
$6,200
$8,200

$300
$750
$1,250
$1,750
$2,500
$3,250

$10,200

$4,000
$6,000

Nonmonetary Claims 1

Base fee of
$12,800 plus
.01% of the
amount above
$10,000,000
Fee Capped at
$65,000
$3,350

Deficient Claim Filing Fee 2

$350

Additional Services

$1,250

3

This fee is applicable when a claim or counterclaim is not for a
monetary amount. Where a monetary claim amount is not known,
parties will be required to state a range of claims or be subject to a
filing fee of $10,200.
1

The Deficient Claim Filing Fee shall not be charged in cases filed
by a consumer in an arbitration governed by the Supplementary
Procedures for the Resolution of Consumer-Related Disputes, or in
cases filed by an Employee who is submitting their dispute to arbitration pursuant to an employer promulgated plan.
2

3
The AAA may assess additional fees where procedures or services outside the Rules sections are required under the parties’ agreement or by stipulation.

169
Fees are subject to increase if the amount of a claim or
counterclaim is modified after the initial filing date. Fees
are subject to decrease if the amount of a claim or counterclaim is modified before the first hearing.
The minimum fees for any case having three or more
arbitrators are $2,800 for the Initial Filing Fee, plus a
$1,250 Final Fee. Expedited Procedures are applied in
any case where no disclosed claim or counterclaim exceeds $75,000, exclusive of interest and arbitration costs.
Parties on cases filed under either the Flexible Fee
Schedule or the Standard Fee Schedule that are held in
abeyance for one year will be assessed an annual abeyance
fee of $300. If a party refuses to pay the assessed fee, the
other party or parties may pay the entire fee on behalf of
all parties, otherwise the matter will be administratively
closed.
For more information, please contact your local AAA
office, case management center, or our Customer Service
desk at 1-800-778-7879.
Refund Schedule for Standard Fee Schedule
The AAA offers a refund schedule on filing fees connected with the Standard Fee Schedule. For cases with
claims up to $75,000, a minimum filing fee of $350 will not
be refunded. For all other cases, a minimum fee of $600
will not be refunded. Subject to the minimum fee requirements, refunds will be calculated as follows:
> 100% of the filing fee, above the minimum fee, will
be refunded if the case is settled or withdrawn
within five calendar days of filing.
> 50% of the filing fee will be refunded if the case is
settled or withdrawn between six and 30 calendar
days of filing.

170
> 25% of the filing fee will be refunded if the case is
settled or withdrawn between 31 and 60 calendar
days of filing.
No refund will be made once an arbitrator has been
appointed (this includes one arbitrator on a three-arbitrator panel). No refunds will be granted on awarded cases.
Note: The date of receipt of the demand for arbitration
with the AAA will be used to calculate refunds of filing
fees for both claims and counterclaims.
Flexible Fee Schedule
A non-refundable Initial Filing Fee is payable in full
by a filing party when a claim, counterclaim, or additional
claim is filed. Upon receipt of the Demand for Arbitration,
the AAA will promptly initiate the case and notify all parties as well as establish the due date for filing of an Answer, which may include a Counterclaim. In order to proceed with the further administration of the arbitration
and appointment of the arbitrator(s), the appropriate,
non-refundable Proceed Fee outlined below must be paid.
If a Proceed Fee is not submitted within ninety (90)
days of the filing of the Claimant’s Demand for Arbitration, the Association will administratively close the file
and notify all parties.
No refunds or refund schedule will apply to the Filing
or Proceed Fees once received.
The Flexible Fee Schedule below also may be utilized
for the filing of counterclaims. However, as with the
Claimant’s claim, the counterclaim will not be presented
to the arbitrator until the Proceed Fee is paid.
A Final Fee will be incurred for all claims and/or counterclaims that proceed to their first hearing. This fee will
be payable in advance when the first hearing is scheduled,

171
but will be refunded at the conclusion of the case if no
hearings have occurred. However, if the Association is not
notified of a cancellation at least 24 hours before the time
of the scheduled hearing, the Final Fee will remain due
and will not be refunded.
All fees will be billed in accordance with the following
schedule:

172
Amount of Claim

Initial
Filing
Fee

Proceed
Fee

Final
Fee

Above $0 to $10,000

$400

$475

$200

Above $10,000 to $75,000

$625

$500

$300

Above $75,000 to $150,000

$850

$1250

$750

Above $150,000 to $300,000

$1,000

$2125

$1,250

Above $300,000 to $500,000

$1,500

$3,400

$1,750

Above $500,000 to $1,000,000

$2,500

$4,500

$2,500

Above $1,000,000 to
$5,000,000
Above $5,000,000 to
$10,000,000
Above $10,000,000

$2,500

$6,700

$3,250

$3,500

$8,200

$4,000

$4,500

$10,300
plus .01% of
claim
amount
over
$10,000,000
up to
$65,000

$6,000

Nonmonetary 4

$2,000

$2,000

$1,250

Deficient Claim Filing Fee

$350

Additional Services 5

4
This fee is applicable when a claim or counterclaim is not for a monetary
amount. Where a monetary claim amount is not known, parties will be required to state a range of claims or be subject to a filing fee of $3,500 and a
proceed fee of $8,200.
5

The AAA reserves the right to assess additional administrative fees for
services performed by the AAA beyond those provided for in these Rules and
which may be required by the parties’ agreement or stipulation.

173
For more information, please contact your local AAA
office, case management center, or our Customer Service
desk at 1-800-778-7879. All fees are subject to increase if
the amount of a claim or counterclaim is modified after the
initial filing date. Fees are subject to decrease if the
amount of a claim or counterclaim is modified before the
first hearing.
The minimum fees for any case having three or more
arbitrators are $1,000 for the Initial Filing Fee; $2,125 for
the Proceed Fee; and $1,250 for the Final Fee.
Under the Flexible Fee Schedule, a party’s obligation
to pay the Proceed Fee shall remain in effect regardless
of any agreement of the parties to stay, postpone or otherwise modify the arbitration proceedings. Parties that,
through mutual agreement, have held their case in abeyance for one year will be assessed an annual abeyance fee
of $300. If a party refuses to pay the assessed fee, the
other party or parties may pay the entire fee on behalf of
all parties, otherwise the matter will be closed.
Note: The date of receipt by the AAA of the demand for
arbitration will be used to calculate the ninety (90) day
time limit for payment of the Proceed Fee.
There is no Refund Schedule in the Flexible Fee
Schedule.
Hearing Room Rental
The fees described above do not cover the cost of hearing rooms, which are available on a rental basis. Check
with the AAA for availability and rates.

